<html>
<title> - STATE WILDLIFE CONSERVATION NEEDS</title>
<body><pre>[Senate Hearing 107-317]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-317
 
                   STATE WILDLIFE CONSERVATION NEEDS
=======================================================================


                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

   FEDERAL EFFORTS TO SUPPORT THE STATES IN CONSERVING THE NATION'S 
                                WILDLIFE

                               __________

                        APRIL 10, 2001--RENO, NV
                               __________


  Printed for the use of the Committee on Environment and Public Works









                        U.S. GOVERNMENT PRINTING OFFICE
78-068                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001









               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred seventh congress
                             first session
                   BOB SMITH, New Hampshire, Chairman
             HARRY REID, Nevada, Ranking Democratic Member
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
MICHAEL D. CRAPO, Idaho              RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island         THOMAS R. CARPER, Delaware
ROBERT F. BENNETT, Utah              HILLARY RODHAM CLINTON, New York
BEN NIGHTHORSE CAMPBELL, Colorado    JON S. CORZINE, New Jersey
                Dave Conover, Republican Staff Director
                Eric Washburn, Democratic Staff Director

                                  (ii)

  














                            C O N T E N T S

                              ----------                              
                                                                   Page

                        APRIL 10, 2001--RENO, NV
                           OPENING STATEMENT

Reid, Hon. Harry, U.S. Senator from the State of Nevada..........     1

                               WITNESSES

Abbey, Bob, director, Nevada Bureau of Land Management...........    24
    Prepared statement...........................................    73
Collard, Leta, Northeastern Nevada Stewardship Group, Elko, NV...    10
    Prepared statement...........................................    51
Crawforth, Terry, administrator, Nevada Division of Wildlife.....    20
    Prepared statement...........................................    68
Denio, Karen, acting state executive director, Farm Service 
  Agency, U.S. Department of Agriculture.........................    41
    Prepared statement...........................................    81
Dupree, Elsie, president, Nevada Wildlife Federation, Reno, NV...    16
    Article, NWF Works on Sage Grouse Booklet....................    66
    Letter, Nevada Wildlife Federation...........................    64
    Memorandum, Elsie Dupree.....................................    67
Graham, Gary, division director, Texas Parks and Wildlife Service    22
    Prepared statement...........................................    69
Henley, Don, Caddo Lake Institute, Karmack, TX...................     6
    Prepared statement...........................................    49
Johnson, Larry, president, Nevada Bighorns Unlimited, Reno, 
  Nevada.........................................................    13
    Prepared statement...........................................    55
Murphy, Dennis D., Ph.D., Biodiversity Initiative, University of 
  Nevada, Reno, NV...............................................    37
    Prepared statement...........................................    79
Pearson, Nick, State conservationist, Natural Resources 
  Conservation Service, Department of Agriculture................    44
    Prepared statement...........................................    83
Sandlin, Hon. Max, U.S. Representative from the State of Texas...     3
    Prepared statement...........................................     5
Wallace, A. Brian, chairman, Washoe Tribe of Nevada and 
  California.....................................................    27
    Prepared statement...........................................    74
Williams, Robert D., field supervisor, Nevada Fish and Wildlife 
  Office.........................................................    32
    Prepared statement...........................................    77

                                 (iii)

  










                   STATE WILDLIFE CONSERVATION NEEDS

                              ----------                              


                        TUESDAY, APRIL 10, 2001

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                  Reno, NV.
    The committee met, pursuant to notice, at 1 p.m. at the 
Bartley Ranch, Reno, NV, Hon. Harry Reid (acting chairman of 
the committee) presiding.
    Present: Senator Reid.
    Also present: Representative Sandlin.

             OPENING STATEMENT OF HON. HARRY REID, 
             U.S. SENATOR FROM THE STATE OF  NEVADA

    Senator Reid. The U.S. Senate committee is called to order. 
I'm very happy to convene this hearing. I'm fortunate that 
during my entire time in the U.S. Senate that I've been able to 
serve on this committee. I'm fortunate for 17 days this year 
that I was the chairman of the committee. Now I have a great 
working relationship with the chairman of the committee, Bob 
Smith, from New Hampshire.
    The wildlife conservation successes that we have had in 
Nevada are, in a great deal, owed to a number of people in this 
room. I have worked with many of you on the Truckee, Walker 
Lake, Lake Tahoe, and Lake Mead. We have also worked together 
to restore several Lahontan Trout, desert Tortoise, and 
Nevada's other sensitive wildlife.
    I'm very grateful today to have with us a Member of 
Congress, Congressman Sandlin, from eastern Texas. He is a 
fourth-term Member of Congress. He is a friend of Don Henley. 
Don Henley graces us with his presence today. I've told him 
personally, and I'll say to him publicly, it's very good for 
our country and it speaks well of him that he would lend his 
prestige, his notoriety and his fame to something like the 
environment. I'm very grateful to him for being here.
    This hearing in Nevada is being held here rather than in 
Washington, DC, not just because it would be more convenient 
for the people that I want to hear from today, but it's being 
held here because I think it's symbolic of how we need to work 
on our wildlife conservation efforts. We need to come to the 
people doing the work on the ground to find out what works for 
them. Without the support of our sportsmen and women, local 
conservationists and university scientists, State agency 
people, and the local officials of our Federal agencies, 
conservation efforts would never get off the ground.
    So your input is critical because this year Congress will 
consider at least two conservation initiatives that could 
benefit State of Nevada if we work together.
    The first Act is what we refer to as CARA, Conservation and 
Reinvestment Act. Most of you worked hard last year to see that 
CARA was enacted. We're going to take another try at it this 
year. The House recently reintroduced CARA, and soon I will 
introduce the parts of that bill that are in this committee's 
jurisdiction.
    The bill will provide funding for State wildlife 
conservation, education and recreation initiatives. It will 
also provide funding for endangered species conservation, and 
also conservation efforts that are designed to remove the need 
to list species. I know that many of you are involved in the 
effort to protect the sage grouse so that we don't need to list 
the sage grouse. I think we should be supporting proactive 
conservation efforts like that. It's my hope that between the 
efforts in the House and in the Senate, we will be able to pass 
a CARA bill this year.
    Another conservation initiative Congress will take up this 
year is the Farm bill. While some people overlook it, the Farm 
bill brings about $2 billion in annual conservation spending 
into play. Nevada doesn't see much of that money, and I'd like 
that to change. This is spending that must take place. This 
isn't discretionary. This is mandatory spending. Nevada doesn't 
see much of that money, but that's going to change. I'm happy 
to see that Karen Denio and Nick Pearson are here today, and 
they will talk with us about those programs.
    It's my hope that I will have all of your help as we move 
forward in those two conservation initiatives to craft programs 
and policies that work for us.
    Again, I thank each of you for being here today. We have 
staff from my Washington, DC committee that are here with me 
and local staff. We will prepare a report. We will circulate it 
to the other members of the committee. There are other hearings 
taking place around the country. We will assimilate, 
coordinate, and correlate all this information, hopefully in 
the process of bringing more legislation to Washington that is 
better than what we have done in the past.
    We have, as I have indicated, a number of good witnesses. 
We chose this very scenic place to do this hearing rather than 
some building in downtown Reno for the obvious reasons. It's 
nice to be here and see what can be at a State park, to show 
off a little bit of what we have is outside.
    We're going to first hear from Congressman Max Sandlin from 
Texas. We're happy to hear from him. He resides in Marshal, TX. 
We will hear next from Don Henley who, as we know, is a noted 
singer. His initial fame came with the historic Eagles group, 
and he has gone out on his own and has done well. He is 
representing the Caddo Lake Institute of Karnack, TX.
    We will then hear from Leta Collord from Northeastern 
Nevada Stewardship Group in Elko. We will hear from Larry 
Johnson who has a great story to tell, and then we will hear 
from Nevada Wildlife Federation through its representative, 
Elsie Dupree.
    Congressman Sandlin.

            OPENING STATEMENT OF HON. MAX SANDLIN, 
          U.S. REPRESENTATIVE FROM THE STATE OF TEXAS

    Mr. Sandlin. Thank you, Senator, for your invitation to be 
here today and for the hospitality of your office and staff. 
You have been very kind to us while we have been here. It's a 
pleasure to be here in beautiful Nevada--``Nevada'' as you say. 
Excuse me.
    Senator Reid. Let met interrupt and tell you that people 
are very conscious about how we pronounce ``Nevada.'' But I'm 
always reminded of a lawyer in Nevada that has made more money 
than any other lawyer probably is a lawyer by the name of Neil 
Gallats. Neil Gallats is from New York, and he still pronounces 
Nevada as ``Nevada,'' but it hasn't bothered the jury since 
then.
    Mr. Sandlin. You say ``tomato'' and I say ``tomato.''
    It's a pleasure being in Nevada. Both Nevada and Texas 
share an interest in the environment and the outdoors and 
wildlife. I am proud to be speaking to the men and women who 
are working to introduce Federal legislation in order to 
sustain our State and local wildlife conservation efforts 
across the Nation. We appreciate your help, Senator, in that 
area and other areas in that Senate.
    Last October, I had the pleasure of participating in the 
dedication of the Caddo Lake National Wildlife Refuge in 
Karnack, TX. This was just one step in an ongoing effort to 
create an educational and environmental legacy out of a former 
army ammunition plant. The Caddo Lake Institute is a most 
unusual success story formed from a public-private partnership 
and the tireless labor of the local community.
    The Longhorn Army Ammunition Plant formerly employed over 
3,000 people. This plant manufactured explosives and was a 
self-contained city. For over 50 years, LAAP supplied 
explosives to our Nation's armed forces across the globe. First 
opened in World War II, LAAP shipped flares, rockets and shells 
to armed conflicts in Vietnam, Korea and Operation Desert 
Storm. At the end of the cold war, the plant became responsible 
for the destruction of the nuclear missile engines it once 
built. Soviet inspectors watched on as over 700 Pershing 
missile engines were fastened into concrete cages and fired as 
their hulls were crushed.
    When the U.S. Army and Monsanto Chemical officials first 
made their way to Caddo Lake in the early 1940's, they 
undoubtedly noticed it's beauty. It's virtually impossible to 
overlook the pristine natural habitat complete with tall pines 
and exotic cypress trees draped in Spanish moss. We have a 
picture over here for people to see. Those are the cypress 
trees and Spanish moss that looks much like you think of 
Florida and Louisiana. It's just a beautiful pristine part of 
Texas.
    What those officials did not realize is that this place, 
soon to be known as Longhorn Army Ammunition Plant, sat on a 
wetland of international importance with a national treasure of 
native plant and wildlife species.
    While the ammunition plant successfully met its 
manufacturing demands, it left behind a legacy of pollution and 
contamination. Longhorns' doors have been closed for many 
years, but its byproducts continue to pollute the soil and 
water of Caddo Lake. Further, asbestos is prominent in the 
standing buildings of the now defunct ammunition plant. I grew 
up hunting and fishing on that lake. There are many, many sorts 
of species of fish, animals and plants, white bass, black bass, 
perch, crappie. Many mornings as you're cruising you will see 
the alligators and snapping turtles sunning in the breaks there 
in the cypress, and Bald Eagles are prevalent there. Every sort 
of water fowl that you ever seen and some you may not have seen 
are there.
    Early in the morning it's much like the beginning of time 
when you're there, just a very pristine national treasure. When 
the Army ammunition plant made its manufacturing demands it 
left behind a legacy of pollution as you might imagine. Doors 
have been closed there for several years but they have a 
byproduct of pollution as a result of manufacturing explosives.
    Further, the asbestos is an important product of the 
buildings that are there. Less than 15 percent of the total 
land appears to be affected, and now it's undergoing management 
clean-up by the U.S. Army. We look forward to working with them 
in a positive way.
    Things in that area would probably have continued to 
deteriorate if it weren't for local citizens, pleas from 
several colleges and universities and the presence of the Caddo 
Lake Institute. The Caddo Lake Institute was established by Mr. 
Don Henley and we are honored to have him with us today.
    As early as 1993 we had several local schools, such as 
Wiley College, which is the oldest historically black college 
west of the Mississippi in that county. Wiley College, Stephen 
F. Austin State University and East Baptist University actively 
lobbied for Federal and international recognition for the 
refuge as well as funding for an educational institute.
    By 1996 Caddo Lake was designated a ``Ramsar Wetland of 
International Importance'' and was officially recognized as an 
ecosystem essential for maintaining biodiversity. Caddo Lake 
was also given Resource Category 1 status by the Fish and 
Wildlife Service, it's highest classification of wetlands.
    Dwight Shellman, president of the Caddo Lake Institute, 
conceived and implemented the plan for local involvement. Robin 
and Betty Holder who live in Karnack, TX, and own the local 
grocery store, went with Mr. Shellman, who is also here today, 
to look at other wildlife refuges and examine plans for 
environmentally sound reuse of abandoned war industry land. 
Both Robin and Betty agree that any other use of the plant 
would be a waste and are excited about its future. Dwight 
Shellman wanted to be here but he had a family emergency. He 
has been the organizer and the person who has done the leg work 
to implement Mr. Henley's vision in this area. Mr. Holder and 
others in the community I have spoken with feel it would be a 
waste if we didn't do something to preserve this site.
    Currently, land has been privately leased for the Caddo 
Lake Institute campus. We envision a collaborative atmosphere 
created by our community leaders for visiting research 
scientists, graduate students and echo-tourists. This 
atmosphere will contribute to the creation and evolution of the 
first U.S. Regional Ramsar Wetland Science Center, which will 
honor international wetland standards. The higher education 
facility will conduct research on better forestry and wetland 
practices. This research will not only advance agricultural 
practices but also improve wetland preservation and 
conservation throughout the Nation. It is important that we 
facilitate the implementation of this plan with Federal funding 
to help build the research center.
    The creation of the Caddo Lake National Wildlife Refuge 
provides a rare opportunity to coordinate echo-tourism, 
scientific research and economic growth. Our conservation 
initiatives are in place and our local interest is sustained. 
The Wildlife Conservation bill would support our conservation 
plan and strategy at Caddo Lake. I am pleased to be a part of 
this effort and will continue to work to make this plan a 
reality. So after almost a decade of an exceptional effort 
represented here today and by Mr. Henley's vision, we seek your 
help and guidance, Senator, in completing the third part of the 
original local vision, which is the appropriation of the 
Department of Interior funding or our Ramsar Science and 
Education Center in Longhorn, TX.
    I appreciate the opportunity to be here and to be with you, 
Senator, and Mr. Henley. If there's nothing further, then I'll 
turn it over to our local favorite, Mr. Don Henley.
    [The prepared statement of Representative Max Sandlin 
follows:]
      Statement of Hon. Max Sandlin, U.S. Representative from the 
                             State of Texas
    It is a pleasure to testify before the Senate Environment and 
Public Works Committee at this Wildlife Conservation Hearing. I am 
proud to be speaking to the men and women who are working to introduce 
Federal legislation in order to sustain our State and local wildlife 
conservation efforts across the Nation.
    Last October, I had the pleasure of participating in the dedication 
of the Caddo Lake National Wildlife Refuge in Uncertain, Texas. This 
was just one step in an ongoing effort to create an educational and 
environmental legacy out of a former army ammunition plant. The Caddo 
Lake Institute is a most unusual success story formed from a public-
private partnership and the tireless labor of the local community.
    The Longhorn Army Ammunition Plant (LAAP) formerly employed over 
3,000 people. This plant manufactured explosives and was a self-
contained city. For over 50 years, LAAP supplied explosives to our 
Nation's armed forces across the globe. First opened in World War II, 
LAAP shipped flares, rockets and shells to armed conflicts in Vietnam, 
Korea and Operation Desert Storm. At the end of the cold war, the plant 
became responsible for the destruction of the nuclear missile engines 
it once built. Soviet inspectors watched on as over 700 Pershing 
missile engines were fastened into concrete cages and fired as their 
hulls were crushed.
    When the U.S. Army and Monsanto Chemical officials first made their 
way to the banks of Caddo Lake in the early 1940's, they undoubtedly 
noticed its beauty. It is virtually impossible to overlook the pristine 
natural habitat complete with tall pines and exotic cypress trees 
draped in Spanish moss (picture). What these officials did not realize 
is that this place, soon to be known as Longhorn Army Ammunition Plant, 
sat on a wetland of international importance with a national treasure 
of native plant and wildlife species.
    While the ammunition plant successfully met its manufacturing 
demands, it left behind a legacy of pollution and contamination. 
Longhorns' doors have been closed for many years, but its by-products 
continue to pollute the soil and water of Caddo Lake. Further, asbestos 
is prominent in the standing buildings of the now defunct ammunition 
plant.
    Things would probably have continued to deteriorate had it not been 
for the efforts of local citizens, pleas from several colleges and 
universities and the presence of the Caddo Lake Institute. The Caddo 
Lake Institute was established by Mr. Don Henley and we are honored to 
have him with us today.
    As early as 1993, local schools such as Wiley College, Stephen F. 
Austin State University and East Baptist University actively lobbied 
for Federal and international recognition for the refuge as well as 
funding for an educational institute.
    In 1996, Caddo Lake was designated a ``Ramsar Wetland of 
International Importance'' and was officially recognized as an 
ecosystem essential for maintaining biodiversity. Caddo Lake was also 
given Resource Category 1 status by the United States Fish and Wildlife 
Service (USFWS)--its highest classification of wetlands.
    Dwight Shellman, President of the Caddo Lake Institute, conceived 
and implemented the plan for local involvement. Robin and Betty Holder, 
who live in Uncertain and own the local grocery store, went with Mr. 
Shellman, who is also here today, to look at other wildlife refuges and 
examine plans for environmentally sound reuse of abandoned war industry 
land. Both Robin and Betty agree that any other use of the plant would 
be a waste and are excited about its future.
    Currently, land has been privately leased for the Caddo Lake 
Institute campus. We envision a collaborative atmosphere created by our 
community leaders for visiting research scientists, graduate students 
and echo-tourists. This atmosphere will contribute to the creation and 
evolution of the first U.S. Regional Ramsar Wetland Science Center, 
which will honor international wetland standards. The higher education 
facility will conduct research on better forestry and wetland 
practices. This research will not only advance agricultural practices 
but also improve wetland preservation and conservation throughout the 
Nation. It is important that we facilitate the implementation of this 
plan with Federal funding to help build the research center.
    The creation of the Caddo Lake National Wildlife Refuge provides a 
rare opportunity to coordinate echo-tourism, scientific research and 
economic growth. Our conservation initiatives are in place and our 
local interest is sustained. The Wildlife Conservation bill would 
support our conservation plan and strategy at Caddo Lake. I am pleased 
to be a part of this effort and will continue to work to make this plan 
a reality.

    Senator Reid. Please proceed.

   STATEMENT OF DON HENLEY, CADDO LAKE INSTITUTE, KARMACK, TX

    Mr. Henley. Thank you for allowing me to address the 
committee today. First, I want to thank Congressman Sandlin for 
his positive efforts on behalf of this local initiative. His 
introduction and his photograph provide an excellent overview 
of our vision. I also thank the committee members for hearing 
our concerns about a possible need for oversight and support 
for community-based initiatives that fulfill important Federal 
conservation commitments.
    My remarks will address, not just the local, but also the 
national and global conservation benefits that could result 
from congressional support for The Caddo Lake Ramsar Wetlands 
Science Center Program.
    However, my comments about our Caddo Lake program may apply 
equally well to other community initiatives that are also 
fulfilling important Federal conservation commitments. One 
example is the Elko habitat restoration program in your State 
of Nevada, Senator Reid. My conclusion will note some features 
and needs which both programs seem to share.
    We have provided the committee with a pamphlet about our 
Caddo Lake initiative. The front cover contains the Caddo Lake 
scene Congressman Sandlin showed you, prefaced by the phrase, 
``A Woods Hole for Wetlands.'' That phrase was coined in a 
local editorial several years ago, referring to the famous 
Woods Hole Oceanographic Institute in Massachusetts. This 
editorial is in the pamphlet. Together the picture and the 
phrase show the reason for, and the essence of, this local 
vision. This booklet also contains schematic plans for the 
Center's campus, the office building for our Research 
Coordination Network, interpretive and accessory support 
buildings. A possible hemispheric mission is noted in the 
letter from John Rogers, Fish and Wildlife Service. Finally, 
the pamphlet contains the 1999 Costa Rica Conference Resolution 
of the Ramsar Nations, which endorses powerful guidance to 
maximize the involvement of local communities in management of 
Ramsar wetland sites. The resolution notes that the approved 
guidance was co-
authored by the Caddo Lake Institute, among others. Thus, this 
rural Texas initiative has already influenced both the local 
and international practice wetland conservation.
    The Caddo Lake Ramsar Science Center is a proposed public/
private partnership between the institute as the local facility 
manager and the program coordinator, and two Department of 
Interior agencies which have special expertise.
    These Federal agencies are: The U.S. Geological Survey's 
National Wetlands Research Center of Lafayette, LA, and the 
International Affairs Office of the Fish and Wildlife Service, 
Washington, DC. Both agencies have been our informal partners 
at Caddo Lake since 1993.
    The purpose of this Ramsar Center is to institutionalize a 
brilliant community achievement that could light the way for 
other communities. The center is charged with demonstrating 
nothing less than the ``exemplary fulfillment'' of an important 
U.S. treaty commitment, specifically the Ramsar Convention on 
``Wetlands of International Importance, especially as Waterfowl 
Habitat.'' Our national credibility in keeping this commitment 
underpins our ability to ask other nations to manager wisely 
the wetlands in their parts of our common flyways. In addition, 
the Caddo Lake Ramsar Center fulfills an official pledge by the 
U.S. Government and the Caddo Lake Institute to Brisbane, 
Australia.
    At Brisbane we jointly pledged to establish at Longhorn the 
first U.S. Regional Ramsar Center. To assure the availability 
of the facility and fulfill the pledge, the Caddo Lake 
Institute leased a 1,400-acre old growth forest at Longhorn for 
conservation research purposes, as well as a 14-acre campus and 
buildings for eventual renovation. We originally pledged 
$100,000 to this purpose. We have incurred expenses greatly in 
excess of that amount to fill our share of the Brisbane pledge.
    The purpose of this requested appropriation is to augment 
the Department of Interior's budget for our partner agencies to 
underwrite the costs of the center and its programs for 
community 
members and scientists. Together we will create, operate, and 
demonstrate the Caddo Lake Wetland Management Plan, as an 
exemplar of the best Ramsar guidance. The renovation plan 
contemplates that the facility will be a earning venue. It will 
include powerful modeling tools for this wetland and its 
watershed. Interpretative and outreach programs will showcase 
the practical realities of a community-based wetland management 
program, and its watershed science foundation.
    Because of its wetland science expertise and proximity to 
Lafayette, LA, we think the National Wetlands Research Center 
or NWRC, is the logical agency to receive a budget augmentation 
to fund and provide oversight for the Caddo Lake Ramsar Center 
program. Although we know it to be an excellent science agency, 
we believe NWRC is ``fiscally underappreciated'' within the 
Federal budget. It deserves both the funding and the credit it 
will earn by congressional augmentation to provide its 
expertise to local Ramsar communities, a task we know that NWRC 
does well. FWS International Affairs, which executes our 
government's Ramsar obligations, would be reimbursed for its 
cost of providing Ramsar oversight and U.S. policy 
coordination. We understand that FWS may also wish to use some 
Center resources to assist other Ramsar sites whose requests 
for help are currently underfunded. This new assistance 
capacity might include training at Caddo Lake and support for 
their delegations of our citizens and scientists who visit 
other wetland communities in response to their requests for 
advice or assistance.
    We use the term ``budget augmentation'' purposefully. It 
would be counterproductive to compromise the historic missions 
of NWRC or FWS International Affairs by reallocating to our 
program any of their shrinking resources. NWRC would reimburse 
itself and other Federal agencies from this budget augmentation 
for direct Federal agency costs as at Caddo Lake. The Caddo 
Lake communities have made a solid beginning in showing that 
rural communities have the potential to manage an 
internationally significant wetland conservation program. Last 
summer we facilitated a ``Lake Residents Working Group'' to 
master and make local presentations of lake management science 
information. Many Working Group participants, like our grocer 
and guide, Robin Holder, are also members of key local 
businesses, community groups, and the local navigation 
district. Our initiative formalized the practice of regular 
consultation with our colleagues of Texas Parks and Wildlife 
Fisheries and Waterfowl Divisions, as well as their personnel 
managing their Caddo Lake wildlife management area, the 
original 1993 Ramsar site. Together they represent the nucleus 
of the Ramsar-like structure that joins community groups with 
science experts, a structure which this appropriation would 
enable us to formalize to manage the Caddo Lake Camero Ramsar 
wetlands.
    To assure that there will always be a sound science 
foundation for this ambitious program, we have expanded our 
historic academic monitoring program. It has become a much 
broader research coordination network, RCN. The RCN's mission 
is to provide scientific information to our communities for 
exemplary implementation of Ramsar guidance, not just for Caddo 
Lake, but also as a model and encouragement to other wetland 
communities. Today RCN is composed of scientists from Texas 
A&M, Stephen F. Austin State University, East Texas Baptist 
University, Wiley College, Panola College, and Louisiana State 
University, Shreveport. Anticipating that some committee 
members may be alumni of other Texas universities, I hasten to 
note that both University of Texas and Texas Tech University, 
among others, have been invited to participate. This network 
includes agency scientists from Texas Parks and Wildlife 
Department, Fish and Wildlife Service, and the National 
Wetlands Research Center. Next week the RCN meets in Jefferson, 
TX, to review Ramsar guidance and to create interpretative 
materials about ``what we know'' and to define research 
projects about ``what we need to find out to manage better.'' 
These conference products will become part of the annual 
research action agenda for the Center. The Center's 
interpretative program will routinely showcase the findings of 
this applied research and how such research informs the 
management of ``critical issues'' in the Caddo Lake Basin. 
These critical issues include, by way of example, how to 
maximize and measure the effectiveness of community management 
itself, how to deal with invasive species, how to maintain 
hydrological integrity, and how to assess and monitor risks to 
ecological character. Examples of risks already calling for 
sound science are: Measurement of the effects of acids and 
nutrients and trace metals from airborne and point sources, 
including levels of mercury and other pollutants found in the 
fish and wildlife throughout the basin.
    Community members of the Lake Management Working Group will 
attend the annual RCN conferences as full participants as a 
part of their ongoing wetland science orientation. Therefore, 
much of the funding will be passed through to implement or 
showcase the research action agenda that the RCN will produce 
annually with the community management entity. As a result, we 
expect that the Center will become a model of an advanced 
research and educational facility for our participants as well 
as natural science visitors.
    Congressman Sandlin perceptively stated a belief we all 
share at Caddo Lake: Like politics, all conservation is 
``local'' conservation--at least the best kind is. That has 
been true in our case. Contrary to popular characterizations of 
rural southeasterners as being alarmed by local Federal 
conservation activities, our communities are proud of the 
Ramsar designation, understand its value, and use the 
designation as a tool for stewardship.
    During our preparation for this hearing we noticed that 
similar local initiatives were happening with the sage grouse 
habitat initiative by rural people in Elko, NV. Both programs 
even share the feature of local people recruiting two willing 
Federal agencies. We suspect that these may be two examples, 
perhaps of many similar situations, where extremely important 
Federal conservation commitments are actually being fulfilled 
by local initiatives--just because local people decided it was 
the right thing to do.
    But the community-based initiatives, especially those 
pursuing Federal conservation commitments, are very vulnerable. 
The local effort required to create them is potentially 
exhausting. If they are not institutionalized and incorporated 
into local cultural pride, they can rapidly deteriorate. They 
may be undermined by the death, illness, aging, and the 
personal and family needs of key participants. Local efforts 
can also be demoralized by indifference or by ``turf wars'' or 
manipulation by the agencies whose missions they are 
furthering. They may die simply for want of an appropriate 
institutional vessel to carry them on. Often these local 
efforts achieve a critical mass--and their greatest promise and 
vulnerability--just when their need for costly 
institutionalization is also critical.
    Survival of model community conservation initiatives like 
survival of model conservation bureaucracies, requires funding 
to pay for the expertise and institutional structures which 
foster continuity of programs and personnel, as well as the 
means to retrieve essential information to plan, to manage, 
train, and recruit successors. We believe that helping to 
institutionalize model community programs, which fulfill 
Federal commitment, is justified, especially where they are 
funded to support other local efforts.
    So we suggest that, as we examine how we accomplish the 
conservation in this country, we should make a note of and 
accommodate the flashes of community brilliance that occur to 
illuminate and fulfill a Federal conservation commitment. I 
believe one such situation is occurring in our Caddo Lake 
Ramsar communities. This significant conservation effort can be 
continued as a model for our Nation and the world, especially 
if the vessel for institutionalization is the local vision, 
like our vision, of ``A Woods Hole for Wetlands,'' the Caddo 
Lake Wetlands Science Center.
    Thank you.
    Senator Reid. Thank you, very much. If you and the 
Congressman would be patient, we will have a number of other 
witnesses. And I have a couple questions that I'd like to ask.
    Leta, we are very happy to have you here. Please proceed.

  STATEMENT OF LETA COLLORD, NORTHEASTERN NEVADA STEWARDSHIP 
                        GROUP, ELKO, NV

    Ms. Collord. Thank you so much for your efforts and thank 
you to the Lake folks for supporting and upholding the 
principles that we feel are certainly part and parcel of 
improving conservation across the Nation starting at the local 
level.
    My name is Leta Collord and I have lived in northern Nevada 
since 1974 and no contest owe county for the past 15 years. 
Jim, my husband, and I have certainly been aided by many, many 
other people that took a train that was offered by the Bureau 
of Land Management called the ``Partnership Series'' 
specifically community-based efforts for helping the various 
communities, and that was held in 1998. So I have to share that 
opportunity starting with many, many other people in our 
community.
    But I'm pleased to be here on behalf of the members of the 
Northeastern Nevada Stewardship Group, and thank you for the 
interest that you have in finding improved and workable ways to 
restore functioning habitats for species diversification.
    The plight of sage grouse is symptomatic. It is an 
indication that the ecosystems on which sage grouse depend are 
not functioning properly. Therefore, on the grand scale the 
task is to return functionality to the ecosystems. The overall 
objective of our plan is to create a mosaic of a herb 
community. The various age classes and vegetation cover 
condition represent the various seasonal habitats required by 
sage grouse for a different phases of their life cycle.
    That's a statement from the introduction to the draft form 
of the Elko County Sage Brush Ecosystem Conservation Plan that 
is being developed by our stewardship group out in the Elko 
area. As I discussed the organizational principles of the 
stewardship group and the scientific aspects of the 
conservation plan, I hope to demonstrate the fit between our 
efforts and your proposed funding sources. Our stewardship 
group offers two distinct and effective components for 
improving the success of conservation planning that we feel are 
very important to consider.
    First, we are working to mend human relations within our 
communities. By building working relationships that nurture 
trust and mutual respect, the scene is set to walk the land and 
identify and solve problems.
    Second, our stewardship group stresses the importance of 
pursuing dynamic science-based information that is objective 
and thoughtful. We see man stewarding nature through thoughtful 
pursuits. To serious students, a public land conflict, the fact 
has become clear that in order to enhance the wholeness of our 
ecosystems, we must address the political side of public land 
conflict as we actively educate people through sound natural 
resource science. These components are expressed in our mission 
statement and remain unique to community-based planning. We 
acknowledge that man is an essential component of the ecosystem 
and the natural landscape will be healed as relationship 
building goes forward.
    These are the principles that are expressed in the Bureau 
of Land Management's training that they shared with us in 
October 1998. They are contained in the partnership series 
entitled ``Community-based Partnerships and Ecosystems for a 
Healthy Environment.'' The designers of that more structured 
program deserve a great deal of thanks for their wisdom. I 
think it has been a wonderful introduction into the Bureau's 
training.
    Northeastern Nevada Stewardship Group is a nonprofit 
organization. We have an active core membership of 
approximately 60 people, and the citizen membership reflects 
the general diversity of communities, and we include all of the 
judicial State and Federal agencies for participating there as 
well as the university and U.S. Geologica Survey and some 
others that you don't normally think of being in a community 
situation.
    One principle expressed in the partnership series approach 
that is important is the ability to recognize troubled areas or 
emerging issues in time to nip them in the bud. By doing this 
you keep them local and contained. Additionally as the skills 
and awareness develops, the credibility and general capacities 
increase. Respect for all voices is important. By using the 
knowledge available, most structured and cultural, that exists 
in the community membership a healthy exchange of information 
takes place. Enduring decisions are a byproduct of 
participating with a learning attitude and including all voices 
at that--the initial stage of planning.
    Let's talk a little bit about our conservation plan. I'm 
amending my remarks dramatically, and I hope you will have the 
time to read my full paper.
    After many meetings and discussions the group settled on 
the emerging issue of the sage grouse. One thing that is 
important to interject at this point is that our group was 
initiated through a need to find a better avenue of addressing 
public lands in general in Elko County. It was initiated by a 
great deal of angst over the amount of money that is being 
spent on litigation and conflict and having improved relations 
and improved sense of habitat and all those associated things 
in our area.
    So it was out of a general sense of frustration that we 
decided to enter into a process, and it wasn't until after we 
had been in that process for a period of time that the emerging 
issue of sage grouse is actually what the membership decided 
they would get involved in.
    We reasoned that if we could keep the sage grouse off the 
endangered species list, that our users of public land in our 
region would be benefited. Additionally we, at this time, were 
led to see that unless we did a multi-species approach plan on 
a watershed scale level, that we would really not be very 
effective in furthering our concerns.
    So as a group we identified 11 different areas that would 
have potential to affect the sage grouse, and for 6 months 
those different topics were addressed in biweekly discussions. 
Each one of those topics were flushed out fully with a full 
participation of representative membership involved in that.
    In the fall of 2000 until February 2001, we gathered 
research data and put it together and started the writing of 
the draft plan. In March our draft plan was presented to the 
membership, and it's going to be circulated throughout our 
county. It'll start in the conservation districts and then to 
all interested groups and folks within the community.
    As a citizen participant in this process, it has become 
just a strong, strong message to me that relationship building 
and closeness to the landscape is basic to solving natural 
resource problems. You have to retain a system that has 
transparency and openness to build the trust that has sorely 
been absent for so many years. Working efficiently throughout 
the time and process, by sharing information and building 
knowledge base together, our hopes are of alleviating the rush 
to litigation and confusion and conflict.
    These combined will build a successful long-term regime of 
respect for land and conservation of the natural environment. 
The growing reality of the financial implication for landscape 
restoration led directly to the need for long-term funding. 
Ongoing funding concepts will be needed to accommodate the 
judicious implementation of the ecosystem restoration. There 
are already concerns within the participating agencies as to 
how the full implementation of monitoring of such plans will be 
paid for. It'll take full cooperation and creative thinking, as 
well as adequate funding on all of our parts to see these 
ambitious plans launched.
    I believe that community-based planning efforts such as 
ours hold the hope for optimum investment of our Nation's 
conservation dollars and should qualify under the titles you 
are considering.
    In closing I'd like to reiterate that our group is working 
and talking together, incorporating the principles that we feel 
are principles that the Western Governors Association developed 
a few years, that you need to attack problems at the base 
closest to the ground with a broad base of input and emphasis 
on science is absolutely essential.
    There is a history of flawed success across our Nation in 
general for furthering some of these conservation plans in the 
field that--considering this is a new community-based effort, 
it's essential to turning that into more successful history. 
Watershed planning is the scale that is appropriate and will be 
very specific to having our success.
    I want to thank you again for this opportunity to speak 
with you and we have been honored to be included.
    Senator Reid. Your full statement will be made part of the 
record.
    Ms. Collord. Thank you.
    Senator Reid. We will hear from Larry Johnson, president of 
Nevada Bighorns Unlimited. Twenty years ago it was founded and 
we will learn why. It's a great story in and of itself. It's an 
impressive organization, and it introduced bighorn sheep to 
over 40 mountains in Nevada, and as per our conversation with 
Don Henley today, even into Texas.
    The organization, Nevada Bighorns Unlimited engages in 
critical reseeding efforts to help prevent the spread of 
cheatgrass and guzzlers. We will learn more about guzzlers 
today. We will learn they have sponsored research projects and 
a multitude of education and scholarship programs. It's a great 
organization. I'm very impressed with it.
    Larry, I have a statement from you that I have read in its 
entirety. I need you to condense that. If you would do that. I 
can't tell you how grateful I am that you're here. Please 
proceed.

    STATEMENT OF LARRY JOHNSON, PRESIDENT, NEVADA BIGHORNS 
                      UNLIMITED, RENO, NV

    Mr. Johnson. Thank you for inviting me this afternoon. 
Again, I want to, probably, summarize our goals, our 
accomplishments and our mission.
    Nevada Bighorns Unlimited is a private sportsmen 
conservation group. We are approximately 20 years old. We were 
formed to raise money for our State division of wildlife for 
the reintroduction of bighorn sheep. That was our primary goal 
in the beginning. Since then it's become a separate business on 
the side almost. We have----
    Senator Reid. You're an engineer. Is that right?
    Mr. Johnson. I'm an engineering geologist. I have a 
consulting geotechnical and construction management firm that 
we work around and across the State.
    Senator Reid. That's your part-time job.
    Mr. Johnson. Yes, as my wife says.
    But Nevada Bighorns grew and has had such tremendous 
success over the years that our programs have enabled us and 
dictate to us, really, that we branch out merely from funding 
the Division of Wildlife's sheep transplant program to all 
wildlife and habitat and education and research programs around 
the State.
    We have formed very successful partnerships with State and 
Federal agencies, primarily our State Division of Wildlife, 
Fish and Wildlife Service, BLM, to accomplish these goals. I 
probably should mention a couple of universities in there too.
    We have successfully transplanted bighorn sheep to more 
than 50 mountain ranges in the State of Nevada. It's a super 
success story in that bighorn sheep were once the most numerous 
big game animal in Nevada, but almost completely were extinct 
in the State. By the turn of the century we had lost all of our 
Rocky Mountain bighorns and California Bighorns in the 
Northwest and the great majority throughout the remainder of 
the State. Only small herds remained in the very southern 
desert mountains.
    Other States and provinces really have been so incredibly 
generous to us and allowed us to capture and release stock back 
into our mountain ranges. We have gotten California Bighorns 
primarily from British Columbia and Rocky Mountain Bighorn 
sheep from Colorado, Wyoming, and Alberta and we have used our 
own seed populations of desert sheep in the south to spread 
sheep across the State.
    Now we're in a position, as I was telling the gentleman 
from Texas, that our State Division of Wildlife has allowed 
export of desert and California sheep back into Oregon, Idaho, 
Utah, Texas, as well, again, a widely successful program.
    We're also involved in a little bit of everything, wildlife 
from elk, antelope, deer, sage grouse, you name it. We're 
pretty much wildlife oriented. Our habitat programs that we 
have been intimately involved with over the years are in both 
funding and providing volunteer labor reseeding projects.
    We have lost in excess of 2 million acres of wildlife 
habitat to range fires just in the last 2 years. In fact, the 
majority--our biggest budget expenditures in the last 2 years 
have been the BLM and Division of Wildlife, the purchase of 
seed for reseeding purposes. It is one of those areas that 
there's not enough money to go around. We are woefully short of 
the needs there.
    Water developments. Oftentimes the viable habitat for 
wildlife is limited by water, and in Nevada we are, by far, the 
driest State in the Union. We, along with our sister groups 
such as the fraternity of the desert bighorn in conjunction 
with BLM and the Fish and Wildlife Service and Division of 
Wildlife have constructed and provided volunteer man hours for 
design, construction, and clearance of water developments 
across the State. Division of Wildlife has constructed over 
1,000 small game, small wildlife water developments. We are 
probably in the neighborhood of a few hundred large game water 
developments across the State. It's very costly, very labor 
intensive, but extremely successful.
    We take only the mountain ranges that will only carry a few 
dozen, for instance, Desert bighorn sheep. In the case of the 
Muddy Mountains, turn that mountain range into habitat that 
will support many hundreds of bighorn sheep.
    Senator Reid. Are those guzzlers?
    Mr. Johnson. Yes. They collect rainwater, snow melt, and 
collect those into underground tanks.
    Senator Reid. To our friends from Texas, you should explain 
what a guzzler is.
    Mr. Johnson. There's a circle of forums of them. We 
actually, in some areas, collect water just from big rock 
surfaces. We use those as collection services, big bedrock 
slabs, and build a little dam and a ravine and run a pipeline 
down to those underground tanks that will sustain wildlife all 
year round. In areas where we don't have big--and those are 
called ``slick rock collectors.'' In areas where we don't have 
large bedrock exposure, we build synthetic collection aprons. 
In some areas we build corrugated metal collection aprons, 
again, wildly successful.
    I primarily address game animals, but, quite frankly, 
everything from bats to field mice to coyotes to eagles. 
Everything utilizes and benefits from this program.
    We're heavily involved in the Eastern Nevada Landscape 
Restoration Project with the Bureau of Land Management and very 
similar to what is happening in Elko County. That program is 
just getting off the ground and, again, it has funding needs 
that will last for decades.
    Our education projects, we recognize the need to train good 
scientists and wildlife managers. For that reason we offer four 
college scholarships to Nevada high school graduates who are 
majoring in big game management. We are also involved in a 
partnership with the Division of Wildlife and Rocky Mountain 
Elk Foundation in publishing a magazine that targets fourth 
graders. It's call ``Wild Outdoor World'' magazine. Our goal is 
to hit every fourth grader with this publication five times a 
year. Again, we do have budget shortfalls there. We are 
currently reaching over two-thirds of the fourth graders 
statewide.
    We have Nevada range camp that takes high school kids 
primarily from urban areas and exposes them to range management 
training in central Nevada. We fund their fees. In fact, we go 
over and give them a slide show and a talk when I barbecue a 
few steaks and show them the role of sportsmen in wildlife 
management.
    We're involved in a number of research programs. One of the 
biggest problems with bighorn sheep populations is their 
susceptibility to a bacteria that's carried by healthy domestic 
sheep, and which does not make the sheep ranger a bad guy at 
all. We are firm believers in multiple use. The rangers belong 
there every bit as much as we do. But we're funding several 
university studies trying to find out the answer to the 
problem. Our animals are presently at risk, and we're trying to 
find scientific solutions to that.
    We fund research programs with the Fish and Wildlife 
Service, sage grouse. In fact, a number of our directors were 
just up on the Sheldon Antelope Refuge capturing and 
reimplanting them within the past 2 weeks. We will be back up 
there after they hatch on the First of June doing the same 
thing with the newborn chicks. Again, it's an incredibly 
intriguing research program.
    In summary, we receive funding requests for a wide variety 
of wildlife and habitat and education research projects from a 
variety of schools, universities, State and Federal agencies, 
and we're continually involved in the programs of big game 
fishery, game bird reintroduction, green stripping, which is 
protection of existing habitat around the margins of existing 
range fires, noxious weed controls, habitat restoration, wild 
horse management, water developments in desert habitats, 
education and research programs.
    Many of the badly needed projects simply can't be 
implemented due to funding shortfalls. We put somewhere around 
$200,000 of donated private money back into Nevada on the 
ground every year. We have, in our history, donated millions of 
dollars that have gone back into Nevada.
    Couple that with tens of thousands of volunteer man hours 
that have gone into these programs. Our efforts are intense. 
But, quite frankly, our efforts are insufficient to meet the 
needs. Additional and continual sources of funding would 
greatly assist our goals, and that's enhancement of the 
wildlife resources across the State.
    Senator Reid. Congressman Sandlin talked about his obvious 
pleasure in hunting and fishing. I want to read a sentence in 
your statement which would be made part of the record, your 
entire statement. This is a quote from Larry Johnson: ``Nevada 
Bighorns Unlimited's actions prove that true sportsmen are the 
consummate conservationists.'' That's a very powerful 
statement. Elsie, we would like to hear you from you now.

     STATEMENT OF ELSIE DUPREE, PRESIDENT, NEVADA WILDLIFE 
                      FEDERATION, RENO, NV

    Ms. Dupree. Thank you, and welcome home. I'm president of 
the Nevada Wildlife Federation. Nevada Wildlife Federation was 
founded over 50 years ago by dedicated sportsmen that wanted to 
work on wildlife and wildlife habitat. Our membership consists 
of affiliate clubs and members. We have nearly 10,000 members. 
The public domain lands in Nevada are habitat to many unique 
plants and animals. We are very concerned about this habitat. I 
asked for comments from affiliates and members for this 
testimony.
    The general concern of all was the lack of funding to take 
care of the land. Nevada could use funding to help with long-
term projects to include: Flood protection along our few rivers 
to protect habitat, water quality needs improvement as we 
remove mercury, arsenic, and other pollutants.
    Water issues are a concern on the Stillwater Refuge, and 
Lahontan Valley wetlands here in the north. There is a severe 
shortage of water to maintain the wetlands. Invasions of 
noxious weeds in the riparian areas are stealing valuable 
water. In the southern part of the State the Multi-species 
Conservation Plan, MSCP, will need funding to continue the 
goals of recovery efforts for fish species such as the bonytail 
chub and the razorback sucker.
    Walker Lake is a unique situation where the water coming to 
the lake is allocated at 130 percent for irrigation. There is a 
need for money for willing sellers to give water rights to the 
lake. Right now our Division of Wildlife owns a small amount of 
water rights that in dry years does not even reach the lake. 
This desert lake will die and the waters where migratory birds 
rest will not support them with food.
    The Great Basin Initiative is a good start for noxious weed 
control. There needs to be many educational seminars to educate 
the public on the weeds and how to control them. Our State 
needs to be fully involved in this problem with funding.
    Several affiliates commented on the lack of funding for 
control of the wild horses in our State. The herd populations 
are high and there is little to no money to bring the herds to 
set limits of control. We see damage to the habitat from 
overgrazing in wildlife areas. Now that we are in a dry year 
there is even more damage. We do not have the manpower to do 
the monitoring and repair work. Some of the range workers in 
our Federal agencies cover more land in a year than what is in 
some States in the East. It is impossible to do a good job with 
this much territory. Our Federal agencies need budgets 
increased to meet this problem. State agencies need funding for 
wildlife habitat improvements. There needs to be grants for 
conservation groups to help out on projects.
    Other affiliates are concerned with the lack of funding to 
do the proper studies. We need best science to take the lead in 
wildlife issues. There needs to be monitoring, research, and 
studies to show that the program will work or has worked. Often 
funds dry up before this is done.
    Education is vital. The NvWF is using time and money to 
work with our Northwest Sage Grouse Working Group for this 
purpose. We have members from all walks of life making a slide 
show and pamphlet to educate the public and the agriculture 
industry on just what a sage grouse needs to survive and stop 
the declining trends. Our Governor has a statewide committee 
working on the conservation plans to help stop the decline of 
sage grouse in our State, and we fully support his efforts.
    Other educational programs by NvWF include our annual 
Wildlife Poster Contest for school age children and Backyard 
Habitats for those wanting to help provide habitat for wildlife 
close to home. Our affiliate, the Truckee River Flyfishers, 
started a Trout in the Classroom program where grade school 
children raise trout fry in the classroom and then put them in 
the river. Ann Privrasky got this program established so well 
that our Division of Wildlife is going to try and get this 
program in every grade school in the State.
    Education can be as simple as having our city, county, 
State, and Federal offices remember that we live in a desert 
State, and they should landscape their areas with desert 
landscaping instead of green lawns and other high water usage 
plants. This would educate the public also. In summary, our 
State needs guaranteed funding so we can do long-term planning 
and repair the damage to the land.
    The Pittman-Robertson and Dingell Johnson Funds were so 
successful in funding State agencies to administrate wildlife 
programs that some States and other local governments have 
never developed other funding sources to manage wildlife 
programs. A guaranteed CARA-type fund would greatly enhance 
these programs.
    I thank you for your time and the chance to share some 
information about Nevada. I will gladly try to answer any 
questions you may have.
    Senator Reid. Thank you, very much. Let me also say here to 
my friends and our guests from Texas, that that is an 
interesting statement. People don't realize that we are the 
most mountainous State in the Union except for Alaska. We have 
314 mountain ranges, we have 32 mountains over 11,000 feet 
high. Because people come to see the bright lights of Reno and 
Las Vegas, they tend not to realize that we have this very, 
very unique State. We're the most urban State in America, more 
than Texas, Ohio, California, and New York, because 90 percent 
of our people live in Reno and Las Vegas. And so it's a great 
State with a lot of diversity.
    I am struck by you, Don. It appears that this love affair 
that you have for this Caddo Lake--am I saying it right?
    Mr. Henley. Yes.
    Senator Reid. It started when you were a boy. Is that true?
    Mr. Henley. Yes. I grew up near the lake. My father took me 
there when I was a kid. I caught my first fish there. It was a 
bass. I remember the lure that I used. There's so much history 
in this lake. It's not only an ecological treasure but it has 
remained one because this is a non-industrial part of the 
country. There's a lot of history in this lake. This lake is 
where Howard Hughes went to experiment with underwater oil 
drilling. So there's still abandoned wells under the lake that 
have been capped and they need to be looked at. That would be a 
subject of study, how to deal with the abandoned oil wells 
under water.
    There was steamboat traffic on the lake, the Caddo Indians 
were quite a civilized Native American tribe with a highly 
developed system of tools and tribal government.
    It's a wonderful place. You have to see it. I can't really 
describe it. Pictures help, but it really requires a visit. I 
hope you will come there some day and visit.
    Senator Reid. I would love to do that.
    It's my understanding that the education has gone so far 
that kids at high school there use a frequently flooded 
football field to study wetlands. Is that true?
    Mr. Henley. That's right. We made a wetland in a football 
field, which is hard to do in Texas. But it was frequently 
flooded, and we did that.
    Senator Reid. If you left no other message to us here in 
Nevada than projects work best--in fact, the only way they work 
is if local people are involved. If we had come from Washington 
and said, ``Caddo Lake, we are going to do this'', it probably 
wouldn't have worked very well, would it?
    Mr. Henley. No. The people have lived on that lake all 
their lives. A lot of elderly people know that lake backward 
and forwards. It's filled with swampy backwaters and there are 
some people who have gone out and have never come back.
    We revere and value the knowledge of the local elders 
because they know how the lake works. They have seen it in many 
different conditions. We welcome their involvement to teach our 
younger people. We have instituted science programs in the 
public school system which had no environmental science 
programs before. There's a wonderful awakening going on in that 
part of the country. As they watch other parts of the country 
become developed and despoiled, they realize the treasure they 
have in their backyard. It's like the saying, ``Brighten the 
corner where you live and you will light the world.''
    Senator Reid. Congressman Sandlin, I want to publicly 
express my appreciation for you coming. It's through efforts 
like yours that we're going to be able to accomplish something 
in Washington, because it's gonna take Senators and House 
Members to get some of this done.
    By your being here I think you send a very strong message 
to me as a Senator, who helps run one of these major meeting 
and does a lot of stuff on the Senate floor. We need to work 
together. There's no reason Texas and Nevada--we have so many 
similarities in what you're trying to do and what we're trying 
to do. We even share Howard Hughes with you.
    So I want you to know I appreciate your being here, and I 
look forward to this continued relationship in Washington. We 
will work together. We hope, for your constituents and mine, a 
year from now we can come back and tell them what we have done, 
not what we want to do. Thank you very much.
    Mr. Sandlin. Thank you.
    Senator Reid. Leta, you exemplify what Don Henley has said. 
You may not be the notorious person that he is--and I say that 
as a compliment--but you----
    Ms. Collord. Well, we have a history that I was raised in 
Santa Monica and Mr. Henley is--are you residing in the Santa 
Monica area now?
    Mr. Henley. Occasionally.
    Ms. Collord. It's occasional. But I--it's interesting each 
time I participate in an event that is trying to share 
information like this, we hear of new examples of this effort. 
It has evolved to the fact that when communities and historic 
culture get together good things perpetuate.
    Senator Reid. What you're doing in Elko County is the same 
thing that he is doing in Texas. They are a little ahead of us. 
You have heard him describe with awe how beautiful this place 
that he was raised in Texas is. We can tell him how beautiful 
Elko County is.
    I can remember--and we have an opportunity--it's the only 
place in Nevada where we have mountain goats, and I can 
remember as if it were yesterday. I was a young lieutenant 
Governor and driving with my entourage--which included me--and 
there was no one else in the car. I was driving from Elko to 
Wells. It was one of those winter days when those clouds were 
over the Ruby Mountains. It was just about as beautiful as 
nature could be. So we look forward to working with you. I 
congratulate you on your projects.
    Mr. Henley. I think it's important to remember--and I know 
you know this--that Mother Nature doesn't recognize State or 
national boundaries. I wish some of our leaders would remember 
that and that we are all in this together.
    Senator Reid. Louisiana, Texas, Lake Tahoe, California, and 
Nevada is a great example. The only time we have been able to 
make progress at Lake Tahoe is when we set aside our partisan 
and regional differences and say we have to do something to 
help the lake. You're right. Mother Nature never had in its 
mind a division between California and Nevada when it was 
formed.
    Larry, you're certainly a great example. You have been 
leading this organization for 15 years. I said with some jest 
that it was your part-time job, that is your engineering work. 
But I say that in sincerity. It takes people like you to 
accomplish what has been accomplished here.
    I grew up in southern Nevada, and I'm sorry to say I never 
saw a bighorn sheep. They were out there someplace, but they 
were so sparse. It was a rare, rare occasion for anyone to see 
a bighorn sheep.
    Now you can go to Boulder City and they are in the park. 
They are grazing in the park. They are literally all over, this 
beautiful animal. It's because of you and your organization 
that these beauties of nature have now--are now where they 
should be. So I appreciate your being here and, I repeat, 
especially the great example that you have set for all of us.
    Elsie, you and I have worked together on different things 
over these years. We have not always agreed on things, but you 
have always expressed your feelings so well and so adequately. 
You're another example of how our State is a better place 
because of your involvement. I want to thank all of you very 
much for being here today.

STATEMENT OF TERRY CRAWFORTH, ADMINISTRATOR, NEVADA DIVISION OF 
                            WILDLIFE

    Mr. Crawforth. Good afternoon. I am Terry Crawforth, 
administrator of the Nevada Division of Wildlife. I would like 
to thank the Senate Committee on Environment and Public Works 
for conducting these investigations into wildlife conservation 
needs and inviting me to share our perspectives on wildlife 
conservation and management in Nevada.
    As the seventh largest State in land mass, Nevada's 
extensive wild lands support a broad and diverse assemblage of 
plant and animal communities. This diversity of wildlife and 
habitats is amplified by the geographic and climatic character 
of the Great Basin in the north and Mohave Desert in the south. 
Also, because Nevada is the driest State, water is even more 
critical to wildlife distribution and abundance. A wide variety 
of topographic features from low river valleys to 13,000-foot 
alpine peaks offers a habitat to Nevada's wildlife, resulting 
in an astounding ecological diversity.
    Managing this broadly diverse assemblage of animals and 
plants presents many unique and formidable challenges. While 
some species such as mule dear and rainbow trout have broad 
distributions across Nevada, other species such as the Palmers 
chipmunk and the Amargosa toad exist only in very localized 
landscapes. All are worthy of attention, though, and therein 
lies the management challenge to the Division. As the smallest 
wildlife agency in the Nation, the Nevada Division of Wildlife 
is constantly faced with the difficult task of allocating 
limited resources to the preservation, protection, management, 
and restoration of all elements in this vast and diverse 
wildlife resource.
    The prioritization of management activities by the Division 
has historically been largely a function of economics. The 
wildlife receiving primary emphasis in division management 
programs are those species for which there is a consistent and 
adequate funding resource. For years hunters and fishermen 
support the Pitman-Robertson Wildlife Restoration Act and the 
Dingell-Johnson Sportfish Restoration Act by paying excise 
taxes on hunting and fishing equipment have paid for the 
majority of wildlife management programs in Nevada. In 
addition, the matching funds required to capture these trust 
funds are provided by the same sportsmen in the form of license 
and tag fees, hence, the wildlife species that have for years 
received priority funding are those that are hunted and fished.
    These extensive management programs funded by Nevada's 
sportsmen can boost significant success in the conservation of 
wildlife in the State. The Big Game Management Program in 
Nevada is second to none. Trapping and transplant projects for 
species such as bighorn sheep antelope and elk have resulted in 
record animal numbers and distributions throughout the State. 
The variety and abundance of fish species available to anglers 
is impressive. Upland game species including exotics such as 
the chucker partridge are pervasive. Nevada is renowned in the 
West as a high quality hunting and fishing destination. It is 
obvious that consistently funded collaborative programs can 
represent Nevada wildlife well.
    It is important to note, however, that though management 
efforts have been concentrated on sport wildlife, these species 
typically not hunted or fished have not been summarily ignored. 
Good habitat management fostered by successful game and sport 
fish programs ultimately benefit all wildlife species. In 
addition, consistent, albeit small, non-sportsmen funded annual 
appropriations are dedicated to non-hunted or fished species.
    But we have been aware for some time that those species 
which do not receive program emphasis because they lack 
dedicated funding deserve more than they are getting from 
project ``spin-off'' or residual funding. While our history of 
successful management of game wildlife and protection of 
habitat provides a good model for the conservation of Nevada's 
other wildlife, these species that are not sought for sport or 
recreational purposes deserve more. Reliance on recreation 
areas are often last-ditch tools as the Endangered Species Act 
is not productive. We see a profound need to be proactive in 
the management of all Nevada wildlife.
    What is essential for Nevada's wildlife diversity is 
sustained funding to apply to already proven management 
techniques. Some recent congressional appropriations will help 
when they eventually reach us, but we need long-term 
legislation that provides an uninterrupted flow of funds for 
Nevada's other wildlife. We came close to this goal with the 
near passage of title 3 of the Conservation and Reinvestment 
Act of the 106th Congress, which would have provided consistent 
and sustained funding for non-game wildlife conservation. 
Nevada's other wildlife deserve this degree of attention.
    Senator Reid, I have always appreciated your dedication to 
the wildlife resources of our beautiful State. I applaud your 
present efforts to make a consistent and adequate funding 
source for Nevada's other wildlife a reality. I pledge my 
agency's support in this endeavor. Securing a reliable funding 
source for Nevada's other wildlife when combined with the 
Pitman-Robertson and Wallop-Breaux funds that exist for game 
wildlife and sport fish would put a third leg on the 
conservation stool and would better balance Nevada's wildlife 
conservation effort.
    Thank you.
    Senator Reid. Terry, while it's on my mind--and this is 
democratic and republican Governors who are responsible for 
this--why is it that we have such an underfunded, understaffed 
entity to take care of this huge State?
    Mr. Crawforth. I think, probably, as in many States, the 
sportsmen stepped up to the plate and volunteered to tax 
themselves, if you will, for wildlife conservation for hunting 
and fishing recognizing that those would benefit other wildlife 
species.
    But we have always had struggles with people to recognize 
the need to fund the total picture, if you will. I think we all 
learned a lesson in Nevada concerning the desert tortoise. We 
spoke for a number of years about the tortoise, but until it 
impacted people at home, then funding was an emphasis.
    Senator Reid. You know, Terry, we have to have a better 
communication system. I was a lieutenant Governor, served in 
various capacities. I was stunned when I got a call from the 
Fish and Wildlife Service regarding the desert tortoise. I 
never knew there was a problem with the desert tortoise. There 
had been a problem for years, and we didn't know about it.
    Somehow we have to do a better job here in Nevada and I 
think we are doing better. But I can't put my finger on it 
right now. We are just--maybe it's because the Federal 
Government has such a predominant role because they control so 
much of the land. I don't know the reason. But that's something 
I will meet with Governor Guinn on this trip home, and we will 
have a serious talk about it.
    Mr. Crawforth. I would concur with you. I think we're doing 
better. Some of the cries concerning the desert tortoise was a 
voice in the wilderness, if you will, and it was a wake-up call 
and has given us the opportunity to collaboratively focus on 
projects for the betterment of the Amargosa toad, sage grouse, 
but there needs to be a better and more consistent message.
    Senator Reid. Gary, I need you to shorten your statement a 
little bit. So if you would do that, and I want to tell you how 
much I appreciate you being here. As I indicated to Congressman 
Sandlin, it's through efforts of you and your State that the 
whole country will be made a better place. We need to exchange 
ideas and find out where you haven't done so well and vice 
versa. Your being here and developing a relationship with your 
counterparts is letting me know that it's important that you 
traveled all this way. It's a big help. Thank you.

 STATEMENT OF GARY GRAHAM, DIVISION DIRECTOR, TEXAS PARKS AND 
                        WILDLIFE SERVICE

    Mr. Graham. I'm pleased to and privileged to be here today 
to speak with you on behalf of the State in support of Federal 
legislation supporting wildlife conservation efforts. There are 
five things that I hope you remember from my presentation. 
Texas is a very diverse and big State. Our unmet wildlife 
conservation needs are also big to the tune of $30 million a 
year. Recreation generated about 6.7 billion dollars for the 
Texas economy during 1996. Keeping common species common keeps 
them off the Federal endangered species list. Finally, the 
solution to meeting our unmet needs is predictable and adequate 
funding, such as what would be provided to the State when the 
Conservation Reinvestment Act is passed.
    Texas is so big that 15 Eastern States could fit within our 
borders, and one of our borders is shared with Mexico which is 
very subtropical in nature.
    We have 91 peaks that are a mile high or higher and about 
80,000 miles of rivers and streams. Our population reached 20 
million last April, and we have more species of wildlife, about 
1,200, which is more than any other State, except perhaps 
California.
    Unlike California and Nevada, 97 percent of Texas is 
privately owned. Conservation in a private land State like ours 
provides unique opportunities and challenges. The key to our 
successes lie in----
    Senator Reid. Excuse me, Gary. You mean 3 percent of the 
State is owned by either the Federal or State government?
    Mr. Graham. That's it.
    Senator Reid. Wow.
    Mr. Graham. It creates new challenges. In fact, 
opportunities, as hopefully you will gather from my 
presentation.
    The key to our success lies in offering technical 
assistance and useful information to landowners. We have 20 
full-time technical staff who are principally responsible for 
the fact that last year 12.6 million acres of habitat land were 
managed under our wildlife management plans.
    In addition, Texas has had a great deal of success in 
developing cooperative agreements with private landowners 
precluding the need to list a number of species under the 
Endangered Species Act. One of our greatest current challenges 
in conservation concerns black-tailed prairie dog that, if not 
handled well, could lead to the biggest train wreck 
conservation has seen. We aim to preclude that by working with 
other States in the West in implementing conservation 
agreements between States to conserve this controversial 
species.
    We have one of the largest wildlife diversity programs in 
the United States and have led the country with several 
conservation initiatives. We aggressively use nature tourism 
projects as incentives for conservation through economic 
development. We established and marketed the Great Texas 
Coastal Burning Trail in cooperation with over 100 communities. 
We are taking the nature tourism a step further by developing a 
new complex of visitor and conservation facilities called the 
World Birding Center in the lower Rio Grande Valley among those 
subtropical habitats. This is one of the most biologically rich 
areas of the Nation, but it's also one of the most economically 
challenged parts of the country.
    This project is expected to generate an additional $12 to 
$15 million a year in new revenue for the region. One of our 
greatest success stories is our Landowner Incentive Program, 
LIP, one of the first efforts in the country to offer financial 
assistance to landowners who wish to manage rare and endangered 
species. Over the past 4 years using over $1 million, this 
voluntary incentive program has addressed the conservation 
needs of 26 species over 46,000 acres.
    Equally important is the fact that the program has changed 
the attitude of many rural landowners from almost antagonistic 
to cautiously cooperative. Overall Texas Parks & Wildlife 
spends about $10 million a year on the conservation of our 
wildlife diversity, those species not listed as game species. 
But with a State as big and diverse as ours, even this is not 
enough. We estimate that 30 million new dollars a year is 
needed to conserve a lot of the resources that Texans treasure 
and that would sustain the nature-based economy throughout the 
State. Just as important as the amount is the fact that funds 
need to be available predictably from year to year, just like 
the Federal aid funds would be currently used for game species.
    It took 20 years of predictable funding to successfully 
reestablish eastern wild turkey back into its native Texas 
range. It would not have happened if we were not able to invest 
in the recovery year after year. The same could be said about 
bighorn sheep. We have had success because we have had funds 
available year after year.
    Federal funds such as those that would be provided through 
title 3 of the Conservation and Reinvestment Act would address 
these needs. The funds will allow us an ability to invest in 
people and natural resources predictably and adequately.
    We will use Conservation and Reinvestment Act funds to grow 
our already existing technical assistance, financial 
assistance, and nature tourism efforts. Each year we would 
spend up to an additional $6 million for landowner incentives, 
$4 million for technical assistance, $3 million to increase 
recreational opportunity, $4 million for habitat conservation 
and restoration, and $5 million for education and outreach like 
the community-based efforts at Caddo Lake, $3 million for 
research and monitoring, and $5 million for the purchase of 
development rights, land leases, conservation uses, and 
acquisitions.
    In Texas the public owns about 3 percent of the land and we 
are ranked 27th in the State park acres per capita. We firmly 
believe that access to affordable recreation is important to 
grow the future customers for our private land recreation 
partners. Thus, we are in complete support of the President's 
proposal which is title 2 of CARA.
    Finally, the economic development that has led to a high 
quality of life for Texans also has severely damaged the entire 
coastal ecosystem. The damage to the hydrology along the coast 
is causing the loss and erosion of a great deal of shallow gulf 
waters habitat and adjacent marshes that are essential as 
nursery grounds for saltwater fishes and much of our wildlife.
    The good news is that much of this is reversible, but it's 
also very expensive. Consequently, we are very supportive of 
fully funding title 9 of CARA.
    And with that, thank you for this opportunity. I've very 
much enjoyed hearing the testimony.
    Senator Reid. The last point that you made, we have trouble 
understanding that. But with two Senators from Louisiana, this 
was the No. 1 issue as far as they were concerned with CARA, 
that there were huge pieces of land each year being washed into 
the ocean in Louisiana. They believe we have to do something 
quick or it'll become irreversible. Would you agree?
    Mr. Graham. Yes.
    Senator Reid. Bob, would you proceed. Again, I'm going to 
have to ask you to condense your statement. Your whole 
statement, I will make that part of the record.

    STATEMENT OF BOB ABBEY, DIRECTOR, NEVADA BUREAU OF LAND 
                           MANAGEMENT

    Mr. Abbey. It's a pleasure to see you home in Nevada and 
your staff.
    It's certainly an honor to share the podium with some 
distinguished panel members, and I'll keep my remarks brief. No 
one knows more than me that the management of public lands is 
not always an easy task. It requires coordination and 
partnerships with a variety of interest groups and individuals.
    The BLM in Nevada is fortunate to have many fine partners 
in this work, including the State of Nevada and its Division of 
Wildlife as well as a number of tribal governments and private 
organizations, such as the Nevada Bighorns Unlimited and Nevada 
Wildlife Federation, which you heard from in the first panel.
    In recent years we initiated efforts to deal with some very 
highly visible issues relative to critical wildlife concerns. 
These include efforts to recover the Lahontan Cutthroat Trout, 
management guidelines for sage grouse and the sagebrush 
ecosystems that are their habitat, and the desert tortoise.
    These species serve as a red flag for the overall health of 
our environment. The sage grouse is suffering from a decline in 
habitat, a concern to the BLM and many of the organizations and 
entities here today. Under the leadership of Terry Crawforth, 
administrator for the Nevada Division of Wildlife, the Western 
Association of Fish and Wildlife Agencies, in cooperation with 
the BLM, the Fish and Wildlife Service, and others, have 
initiated a major effort to develop conservation plans for sage 
grouse in eight Western States. In Nevada, Governor Guinn has 
taken a personal role in establishing a State sage grouse 
committee to develop strategies to conserve this game species. 
The BLM, the Fish and Wildlife Service, the Forest Service, as 
well as State, local, and tribal representatives, have formed 
an interagency sage brush habitat steering committee to 
coordinate habitat assessment, mapping, evaluation, and 
restoration for species at risk within sage brush ecosystems in 
10 States, and to coordinate ecosystem and species conservation 
planning in order to provide consistency across agencies in 
addressing sage brush ecosystem-related issues.
    Through the Great Basin Restoration Initiative, the BLM in 
Nevada is cooperating with State and local agencies to stop the 
spread of invasive weeds and other vegetation and to restore 
the appropriate plant communities on the range lands.
    After major wildfires in 1999 and 2000, the demand for sage 
brush seeds and the seeds of other native plant species has 
increased considerably in the Great Basin. Through issuance of 
permits for harvesting of sagebrush and other native species 
seeds, the BLM is tracking harvest activities to ensure that 
sufficient seed is available for rehabilitation efforts that 
are currently underway in the areas hardest hit by the 
wildfires. The BLM is working with the Plant Conservation 
Alliance, private seed growers, State and Federal nurseries and 
seed storage facilities to increase significantly the supply of 
native seeds available for rehabilitation and restoration work 
while reducing the cost of producing native seed in large 
quantities.
    The BLM's Ely field office has taken a leadership role 
under the auspices of the Great Basin Restoration Initiative to 
restore and maintain the biological conditions of the Great 
Basin landscape in eastern Nevada through partnerships with the 
Rocky Mountain Elk Foundation, Nevada Division of Wildlife, and 
dozens of other groups. Approximately $10 million acres of 
public land are in the project area, including 4 million acres 
of pinion-juniper woodlands, 2 million acres of pinion-juniper/
sagebrush, 2.5 million acres of sagebrush, $1.5 million acres 
of valley bottoms and mixed forest conifer, 158 miles of stream 
riparian habitat, and 7,800 acres of meadows, springs, seeps 
and wetlands.
    The BLM field offices in Arizona, Nevada, and Utah have 
continued reintroduction and habitat improvement programs for 
bighorn sheep populations. Nevada contains some of the premier 
bighorn sheep habitats in the United States. Approximately 2.5 
million acres of BLM-managed lands in Nevada provide habitat 
for three subspecies of bighorn sheep: The California, Rocky 
Mountain, and Desert Bighorns. Cooperative efforts with the 
Nevada Division of Wildlife and partners such as Nevada 
Bighorns Unlimited have successfully restored bighorns on many 
historic habitats throughout the State. We estimate that there 
are an additional 1 million acres of suitable but unoccupied 
bighorn sheep habitat on BLM-managed land in the State.
    Federal, State, and private partnerships have substantially 
enhanced successful wildlife habitat management on BLM-managed 
land. The BLM works closely with a variety of groups to restore 
habitats for native wildlife species on BLM-managed lands. Over 
the past 10 years, the BLM, the Fish and Wildlife Service, the 
Nevada Division of Wildlife, Trout Unlimited, and local 
ranchers and sportsmen have made substantial investments to 
restore Lahontan cutthroat trout to 128 miles of the Mary's 
River system, a premier trout stream in northeastern Nevada. 
The BLM's Challenge Cost Share Program, established by Congress 
in 1985, has matched millions of dollars of private 
contributions with Federal appropriations through successful 
partnership efforts that have delivered conservation and 
restoration projects throughout the West.
    The Outside Las Vegas Foundation, a new Federal/private 
partnership in Clark County, is restoring native plant 
communities in the Mohave Desert, including removal of the 
invasive tamarisk from riparian areas and replanting native 
willows and grasses to benefit the desert tortoises, desert 
fish species, and a wide range of native birds, mammals, and 
amphibians.
    Following the disastrous, widespread wildland fires of 
1999, the BLM extensively examined the effects of fire on 
habitat and ecosystem processes. We found that a fire cycle had 
developed, referred to in recent science reports as the 
``Cheatgrass-Wildfire Cycle.'' This problem is acute in Nevada, 
where the cycle of fire disturbance has spurred the invasive 
cheatgrass to alter range and wildlife habitats. Cheatgrass has 
been on our landscape for many years quietly spreading its 
water-stealing roots to ever increasing areas.
    Cheatgrass sprouts quickly as winter moisture arrives on 
burned or disturbed lands. Its root mass quickly draws up all 
available moisture, denying it to sagebrush seed. Left 
unmanaged, sagebrush benchlands instead become fields of 
cheatgrass. These fields dry out in the summer sun, and lay in 
wait for the summer lightning.
    There was a time when people thought that getting rid of 
sagebrush was a good thing. However, we now know that sagebrush 
is vital to the health of Great Basin wildlands. Sagebrush 
provides cover for sage grouse, mice, and other rodents, 
smaller song birds, ground squirrels--over 170 species which 
are inhabitants of the open land. It provides shelter from the 
summer sun and from raptors overhead. In winter, dry cheatgrass 
is buried under snow. Sagebrush rises above the snow providing 
forage for deer, antelope, and sage grouse.
    We look forward to working with our partners here in Nevada 
to address the cheatgrass problem, along with other efforts at 
wildlife habitat and species restoration in a manner that 
balances the interests of stakeholders and addresses wildlife 
habitat needs. This effort is massive, across the millions of 
acres of the Great Basin. Change will require labor intensive 
effort and significant amounts of native seed. Each landscape 
will call for its own prescription. In some areas we may need 
to plant sagebrush seedlings and sow native seed by hand. The 
entire spectrum of plant and landscape management must be 
brought into play if we are to begin a true Great Basin 
restoration program.
    This concludes my prepared statement. I would be pleased to 
answer any questions that members of the committee may have.
    Senator Reid. Thank you very much. I'll say that the work 
that has been done in recent years with you and the U.S. 
attorney in developing better relations with the county 
governments throughout the State has been remarkable. It's been 
a good job, and you're to be congratulated.
    Mr. Abbey. I met with the U.S. Attorney this morning, and 
complimented the leadership that Katherine has shown to all of 
us relative to setting the standards, and we will continue to 
carry on that manner of doing business even after Katherine 
departs from her job.
    Senator Reid. Chairman Wallace.

STATEMENT OF A. BRIAN WALLACE, CHAIRMAN, WASHOE TRIBE OF NEVADA 
                         AND CALIFORNIA

    Mr. Wallace. Thank you, Senator.
    (Washoe greeting.)
    Why I introduced myself in Washoe is to make a point that 
our language is directly a component of the environment and 
it's this perspective that we bring to this opportunity that I 
want to share with you. I use English as a tool to survive 
today, but my children speak Washoe so the they can survive 
forever.
    Senator Reid. That's something relatively new, the 
language. I know with the Paiutes, that language out in Pyramid 
was almost lost until some of the elders were able to teach the 
children.
    Mr. Wallace. It's critical to maintain our native 
languages. It's the only medium we have to translate our 
understanding of the underlying order of the natural world to 
our children.
    Senator Reid. Isn't it true that they have been in distress 
over the last 40, 50 years?
    Mr. Wallace. Very much in decline and, in large part, 
because of efforts with your colleagues there is Federal effort 
helping to recover that now.
    Senator Reid. Sorry to interrupt.
    Mr. Wallace. Thank you. First, I want to take the time on 
behalf of the members of the Washoe Tribe, and more 
particularly, on behalf of people that only exist in my heart 
now, to thank you for your historic efforts and courage in 
supporting the tribe's unfinished dream to return to the Tahoe 
Basin. I just want to take the time to publicly recognize the 
courage that you have demonstrated in sharing that dream with 
us.
    More than any other group in last year's discussion related 
to the Conservation Reinvestment Act, and despite our best 
efforts, tribes were the only ones that were significantly and 
completely omitted from the authorization of last year's 
discussion.
    Senator Reid. The reason we have you here is to try and 
change that.
    Mr. Wallace. I think I anticipated that. I would like to 
also request respectfully that our remarks and the testimony be 
entered into the record.
    Senator Reid. We will make sure that your prepared 
statement will be part of the record.
    Mr. Wallace. It'll help me be quick. We definitely 
appreciate your assistance to resuscitate some national and 
public benefit to CARA. We're here also to support all of the 
previous witnesses because we really believe in a stronger 
sense of hope because of what we have heard here today that 
friends are finally approaching these issues for us.
    Senator Reid, like States, Indian tribes have governmental 
responsibility for the conservation of fish and wildlife 
resources, and the regulation of hunting and fishing and 
gathering on their lands. Native Americans who fish, hunt, and 
gather on Indian lands pay excise taxes on ammunition, fishing 
gear, guns, and boat fuel, just like other Americans. It is 
critical that any wildlife conservation title of CARA, or a 
stand-alone bill, include an equitable distribution of Federal 
funds to Indian tribes for conservation and regulations so that 
we can receive, and count on receiving, Federal moneys for 
these woefully underfunded areas for which States have been 
receiving money for many years.
    Indian tribes play a unique and crucial role in four 
purposes identified under this title: (1) wildlife and habitat 
conservation, (2) development of comprehensive wildlife 
conservation and restoration plans, (3) cooperative planning 
and implementation of wildlife conservation plans, and (4) 
wildlife education and public involvement. Having lived in our 
homelands for thousands of years, Indian tribes have developed 
a unique understanding of the ecosystem. Through our 
traditional and customary practices we have developed a 
traditional knowledge of science that enhances the scope of 
conventional science. Additionally, because tribal members have 
significantly more direct contact with the habitat and wildlife 
and because we rely upon the natural resources of our 
homelands, we are exposed to a greater degree of risk when the 
wildlife and habitat is impacted. An unhealthy ecosystem will 
directly impact the lives of Indian people.
    Although there is little BIA funding and no EPA funding 
available for tribes to conserve and restore wildlife, the 
Washoe Tribe has pursued a commitment to habitat restoration 
and conservation, not just on tribal lands, but within our 
entire ancestral homelands. On tribal lands we have used clean 
water funding to restore stream banks and improve wildlife and 
aquatic habitat along the riparian corridor of the Carson 
River. In addition, our conservation and restoration efforts 
have maintained a reach of Clear Creek that university students 
and local school groups visit to study. As part of our 
cooperative agreement with the Forest Service at Lake Tahoe, 
the Washoe Tribe is preparing a Wetlands Conservation and 
Restoration Plan for the Meeks Creek Meadows and the Taylor/
Baldwin wetlands. The tribe will implement the Wetlands 
Conservation and Restoration Plan in cooperation with the 
Forest Service. However, because of the lack of funding, these 
efforts are isolated and we are not able to achieve the full 
benefits of comprehensive habitat planning.
    The Wildlife Conservation and Restoration Title of the 
pending house legislation, H.R. 71, and last year's Senate 
bills S. 2123 and S. 2567, clearly identifies the need for a 
comprehensive Wildlife Conservation and Restoration Plan, but 
the Washoe Tribe has no funding available for development of 
such a plan. While we have been able to implement and develop 
plans for isolated wetland areas through the clean water 
funding, we have not been able to develop a comprehensive 
conservation and restoration plan or even collect data on 
wildlife populations. The need for such plans increases as 
commercial and residential development continues to creep in on 
tribal lands and the pressure on wildlife habitat increases. 
Furthermore, the tribal lands are often intermixed with lands 
under Federal and State jurisdiction, requiring a coordinated 
planning approach. In our case, the Washoe Tribe has 
jurisdiction over more than 60,000 acres of Indian allotment 
lands in the Pine Nut Mountains, which are located in a 
checkerboard pattern with BLM lands and private lands. 
Currently the BLM and State agencies are engaged in a planning 
process for their portions of the Pine Nut Mountains, and the 
tribe is a critical partner. However, the tribe's efforts are 
clearly hampered by our lack of funding for wildlife and 
habitat planning. Similarly, conservation planning funds would 
enhance our efforts to work with our State and Federal partners 
on the conservation and restoration of habitats in the Lake 
Tahoe Basin and along the Carson and Truckee Rivers.
    The pending House legislation, H.R. 701, includes language 
that would provide Indian tribes with direct access to the 
Pitman-
Robertson Wildlife Restoration Act funding. The allocation 
mechanism proposed in this year's House version of CARA 
allocates up to 2.25 percent of total dollars to be divided 
among all 550 Indian tribes based on relative land area and 
population. The 2.25 percent is based on the acres of Indian 
trust land relative to the total acreage in the United States. 
In fact, the 2.25 percent actually represents less than the 
full equitable share. For an example, the Washoe Tribe has done 
work on USFS lands with the Forest Service to conserve and 
restore wetlands on lands at Lake Tahoe. Indian tribes will 
continue to work on conserving wildlife and critical ecosystems 
within ceded treaty lands and other ancestral homelands, which 
are no longer held in trust. Finally, it's important to note 
that current proposals of this nature do not reduce existing 
allocations to States and territories under the Dingell-Johnson 
or Pitman-
Robertson Acts, but rather involve only new allocations never 
before raised and distributed.
    The Senate CARA bills from last year omitted critical 
allocation to Indian tribes and would have continued to exclude 
tribes from these funds. I strongly urge you to use the 
language from title 3 of this year's Senate legislation.
    As to your proposals under the category of Sensitive, 
Threatened, and Endangered Species Incentives, we applaud your 
efforts to extend funding to conservation plans to preserve 
species that are not yet listed as threatened or endangered 
under the Endangered Species Act, but that are species of 
concern. Hopefully, by focusing efforts on these species prior 
to their being listed, we can avoid the need to list them. 
Additionally, we encourage you to move beyond the language as 
contained in CARA title 7, and recognize the impacts of the 
conservation of these species on Indian tribes. Sensitive, 
threatened, and endangered species are a concern of Indian 
people everywhere, for they are a part of our cultural heritage 
and a consideration in our land management activities.
    A classic example of this is the Lahontan Cutthroat Trout 
of the river basins of Nevada. Native and non-native peoples 
alike share a desire for the recovery of these amazing fish. 
Habitat recovery efforts are underway by all stakeholders, and 
help from the Federal Government would be most welcome. Indian 
lands are integral to these efforts, and the inclusion of 
Indian tribes as potential recipients of Federal funds for the 
development of conservation plans and recovery agreements would 
be appropriate. The State-Federal-tribal recovery LTC effort on 
the Truckee River is a specific example where the ability of 
tribes to engage the other partners is limited by our lack of 
funding. Again, in order for Indian tribes to play a proper 
role in these conservation efforts, it is necessary that tribes 
have the ability to access these funds directly.
    I would like to briefly deviate from the two primary topics 
of your proposed legislation to talk about a couple of other 
aspects of the big CARA package that are important to tribes 
and that we were stripped of from last year's bill at the 11th 
hour.
    The first is title 2, Land and Water Conservation Fund 
Revitalization, which would allocate Federal moneys from oil 
and gas revenues to various Federal agencies and State and 
tribal governments for the acquisition of land for conservation 
purposes. Tribes would be entitled to one State's worth of 
funding under current house bill language. This too was 
stripped from last year's ``CARA-Lite,'' and I encourage you to 
support the effort to include tribes in any land and water 
conservation fund distribution in 2002 and beyond. Although the 
tribe has no funding for conservation land acquisition, the 
Washoe Tribe has been successfully partnered with Federal 
agencies and private parties to acquire sensitive environmental 
and cultural lands for conservation purposes. Indian tribes 
bring a unique element to the conservation effort, and with 
funding we will be able to achieve more win-win situations. 
Again, looking at the Pine Nut Mountains, to improve land 
management, Federal and State agencies and governments support 
Washoe tribal acquisition of private land holdings which are 
surrounded by Indian allotment lands, and the private landowner 
is interested in selling the land to the tribe, but there are 
no land acquisition funds available.
    The final provision of note is the National Park and Indian 
Lands Restoration, currently title 6 of last year's Senate 
bill. The title would provide up to $25 million annually for a 
coordinated program on Indian lands to restore degraded lands, 
protect resources that are threatened with degradation, and 
protect public health and safety.
    The $25 million allocated to tribes under this title is 
modest when you consider that it must be spread among more than 
550 tribal governments and 56 million acres of Indian trust 
land. However, it does represent a critically important source 
of funds, and I strongly urge you to ensure that the Senate 
version of CARA title 6 or its equivalent is kept intact in any 
CARA legislation that emerges from the 107th Congress.
    Senator Reid, once again I thank you for your leadership on 
this and so many other issues important to the Washoe Tribe and 
Indian people across the United States.
    I sit here representing our tribe in its unfinished dreams 
and concentrate our efforts and my life, before God and all 
these witnesses, to the biological and cultural repatriation of 
where we call home and love so much.
    We sit here on behalf of the children that speak Washoe 
that want to live forever and to join your efforts to help lift 
this great Nation to a higher and better place, and to also 
give us the ability to possibly make a responsible contribution 
in raising a generation to match these mountains. On behalf of 
the members of the Tribe, thank you for your public service and 
being our voice in the Senate.
    Senator Reid. Terry, we provided $50 million to fund the 
Wildlife Conservation Project in last year's appropriation 
process. The State can access that money if it submits a 
conservation plan to the Interior Department.
    Are you in the process of doing that? What type of projects 
would you like to see funded with some of this money? Would you 
reiterate that?
    Mr. Crawforth. We will be submitting our signed eligibility 
documents later this week. The official agency of the 
International Association of Fish and Wildlife has formed a 
team to review those to make sure those eligibilities are 
there.
    Nevada would be eligible for about three-quarters of $1 
million of that. Our efforts will be to implement our migratory 
bird plan. We definitely need to work on a very important group 
of species, reptiles.
    Senator Reid. On what?
    Mr. Crawforth. Reptiles. It's very important that we gain 
some more knowledge about reptiles of Nevada, and we also need 
to do work on several of the amphibian species. Once we get a 
plan for sage grouse, we will be able to get the money on the 
ground through the local groups that we're establishing. Those 
would be the general areas.
    It has been, and I know we're working through those rules, 
but the process of getting eligibility for those moneys has 
become a little cumbersome. I think that's improving. I see 
Gary nodding his head, and I think we're making some progress 
there.
    But I would certainly encourage, and we certainly 
understand the need to, as you mentioned, make people aware of 
wildlife and the needs that we have for wildlife conservation. 
But to get that money to the ground, the process can't be too 
cumbersome.
    Senator Reid. Gary, has the State of Texas provided funding 
for the effort at Caddo Lake?
    Mr. Graham. Not directly for the Institute. Over the past 
10 years we have bought a 7,000-acre wildlife management area 
that's part of the 20,000 acres that Mr. Henley referred to. We 
assisted Dwight Shellman in developing some of his conservation 
efforts, but we have not actually contributed financially to 
it.
    Senator Reid. Bob, one of the things that concerns me about 
the existing conservation program is that they are targeted 
toward private lands. It doesn't work well here in Nevada.
    Would you comment on ways we might structure incentives to 
benefit public lands?
    Mr. Abbey. Again, I think the biggest incentive we have is 
for people to take ownership of the issue and to participate in 
the decision process.
    Senator Reid. That's what Don Henley and the Congressman 
said.
    Mr. Abbey. That's right. Again, the biggest obstacle and 
challenge is the people's lack of trust in their government 
agencies, and that's at the Federal, State or local 
governments.
    We need to overcome that challenge, and the best way to do 
that is to make sure the people have an opportunity to 
participate in their government. We are spending a lot of 
effort to offer that to the public, to give them that 
opportunity.
    Senator Reid. I thought it was very enlightening what we 
heard here in one of the blocks of testimony from Leta. It was 
as a result of a public program by BLM.
    Mr. Abbey. We realize the significant challenges we have 
throughout the western United States in managing these public 
lands for multiple uses. We will have to bring people into that 
effort, and we're seeing a great deal of success. I think as we 
achieve successes, we need to communicate those successes to 
others so that they can see the opportunities that are really 
there for them to participate and help out.
    Senator Reid. Bob, one of the things I have heard on a 
couple of occasions today before the hearing started, and even 
yesterday evening, is that there's a program being anticipated 
to allow ranchers to reduce the number of cattle in exchange 
for a hunting tag or tags that they can sell to sportsmen.
    Have you heard about that, Bob?
    Mr. Abbey. No.
    Senator Reid. Would you take a look into that.
    Mr. Abbey. I'd be happy too.
    Senator Reid. Terry, do you know anything about that?
    Mr. Crawforth. We have a couple of programs in Nevada, but 
they are largely for compensation for damage to private lands 
where landowners can get tags. We also have a program for elk 
and deer, which we call an incentive-type program where private 
landowners and people who are grazing on public lands can get 
their share, if you will, of expanding elk or deer populations.
    Senator Reid. I'd like to know more about it.
    Gentlemen, thank you very much for your testimony today.
    Senator Reid. We're going to hear first from Robert 
Williams, Field Manager. Bob has been an integral part of what 
has happened here in Nevada. He has received a lot of accolades 
in the process. I appreciate very much the good work you have 
done.

STATEMENT OF ROBERT D. WILLIAMS, FIELD SUPERVISOR, NEVADA FISH 
                      AND WILDLIFE OFFICE

    Mr. Williams. I appreciate the opportunity to provide some 
information on what actions the Fish and Wildlife Service is 
participating in here in Nevada. The service understands the 
importance of working cooperatively with the State tribes and 
the private sectors on species conservation. That's why the 
Service has developed and continued to explore conservation 
efforts at a local level.
    You requested that I comment on current conservation 
initiatives, what conservation plans have been successful, what 
initiatives have been planned but not implemented, what are the 
obstacles to engaging people in conservation efforts, and what 
can we do to encourage more participation in conservation 
planning.
    It is crucial that the Service work cooperatively with our 
State, tribal, and private partners on species conservation. 
Recognizing this, the Service has developed and is implementing 
many approaches which enable cooperative conservation efforts. 
These approaches are flexible so as to encourage locally-based 
solutions to complex and sometimes contentious conservation 
challenges. The initiatives and agreements I will discuss here 
are a result of these approaches. We need to continue seeking 
and indeed expand opportunities for local and private 
landowners to share in the development of conservation 
solutions.
    Let me start by providing you with a review of current 
activities in Nevada. Last year we and several partners signed 
two major conservation efforts, the Clark County Multispecies 
Habitat Conservation Plan, MSHCP, and the Amargosa Toad 
Conservation Agreement.
    The Clark County MSHCP covers 78 species, only two of which 
are listed under the Endangered Species Act. This plan will 
allow for a permit to be issued under section 10 of the ESA for 
an incidental take of the listed species due to development in 
southern Nevada. The MSHCP covers over 145,000 acres that are 
subject to development over the next 30 years.
    The goal of the MSHCP is to conserve healthy ecosystems and 
the species that are supported by them while allowing for 
development. A $550-per acre fee is paid to the county with the 
issuance of development permits. The proceeds from the fees 
fund desert tortoise conservation and recovery activities, as 
well as other actions needed to protect the 78 species covered 
under the plan. The plan provides certainty for Clark County 
developers while ensuring a conservation measure that will help 
recover the listed species and prevent the other species from 
being listed.
    The establishment of the MSHCP was successful because of 
the cooperation between Clark County, State and Federal 
agencies, the University of Nevada, Reno, environmental groups, 
recreational interest, and resource users.
    The second major conservation action that was solidified 
last year was a conservation agreement for Amargosa toad that 
resides in the Oasis Valley. This agreement brought together 
Nye County, the city of Beatty, private landowners, the State 
of Nevada, several Federal agencies, environmental groups, and 
the Nature Conservancy. The premise of the agreement provides 
the Nature Conservancy with the ability to purchase valuable 
habitat for the toad from a priority landowner. On October 14, 
2000, the agreement was signed with the parties, and they are 
currently working together to manage the land and other 
resources for the protection of the toad and the other species 
that depend on the riparian wetland habitat.
    Both of these plans depend upon private and public dollars 
for their success. Private funding supports mitigation efforts 
and conservation actions to protect the species listed in the 
agreements.
    We are currently working on several other conservation 
actions. I will list them here and then discuss some of them in 
greater detail. Current initiatives include the following: 
Tahoe yellow cress conservation agreement, Coyote Springs 
Valley Habitat Conservation Plan, Lahontan cutthroat trout 
restoration, to the Truckee River, Sage grouse conservation 
agreement, Spotted frog conservation agreement, Lincoln County 
Multispecies Habitat Conservation Plan, and Nye County 
Multispecies Habitat Conservation Plan.
    A planning team has been formed to develop a conservation 
agreement for the Tahoe yellow cress, a plant that is found on 
the shores of Lake Tahoe. Some of the habitat occurs on private 
lands, so involving associations like the Lake Tahoe Lakefront 
Homeowners Association will be a key element to the success of 
finalizing such an agreement. One important measure to protect 
the Tahoe yellow cress is simply to build fences around the 
plant. Should a private landowner agree to fence an area to 
protect habitat, funds may be available through Candidate 
Conservation Agreement grants for the costs of the fencing or 
other conservation activities the landowner may desire to make.
    We are also working closely with a developer in southern 
Nevada on the Coyote Springs Valley Habitat Conservation Plan. 
Coyote Springs Valley is a critical habitat for the desert 
tortoise. Coyote Springs Limited Liability Corporation has 
indicated a willingness to work by signing a memorandum of 
agreement with the Service and the BLM to create a plan 
encompassing more than 40,000 acres of private and leased lands 
within the valley that would conserve desert tortoise habitat 
while providing opportunities for residential and commercial 
development. This plan is envisioned to also address the long-
term water needs of the developers, as well as the listed 
fishes in the nearby Muddy River, which could be affected by 
long-term groundwater use. This type of proactive, early 
involvement with landowners is acknowledged by the Service as 
one of the most important objectives in our efforts to reduce 
conflicts and foster general acceptance of species 
conservation.
    In our efforts to recover Nevada's State fish, the Lahontan 
cutthroat trout, we have received funding to conduct habitat 
restoration work on non-Federal lands along the Truckee and 
Walker 
Rivers. We are working with the Nature Conservancy to conduct 
habitat restoration work on the Truckee River that will benefit 
the river, the riparian corridor, and all the fishes that live 
in the river. Our next step will be to develop Safe Harbor 
Agreements with private landowners to compliment our LCT 
recovery efforts.
    We're working with the State on the conservation of the 
sage grouse. We appreciate the State of Nevada's leadership by 
heading up this coordination effort, with the establishment of 
the Governor's Sage Grouse working group. The working group is 
bringing together private landowners, counties, environmental 
groups, and Federal agencies to develop a conservation 
agreement.
    For private landowners with suitable sage grouse habitat, 
and who are willing to protect it, there are a variety of 
funding options and incentives from the Service. Congress 
authorized funding beginning in the fiscal year 1999 for the 
ESA Landowner Incentive Program to provide financial assistance 
and incentives to private property owners to conserve listed, 
proposed, and candidate species. I will discuss these and other 
funding sources below.
    As you are aware under section 6 of the ESA, funds are 
provided to the States for the species and habitat recovery 
actions on non-Federal lands.
    In fiscal year 2001, Congress appropriated $105 million for 
the Cooperative Endangered Species Conservation Fund. The 
service will use these dollars for Safe Harbor grants, Habitat 
Conservation Planning grants, Species Recovery Land Acquisition 
grants, and Candidate Conservation Agreement grants. Each of 
these grant programs requires States to provide at least 25 
percent of the project costs in order to receive funds from 
these grants. Additionally, some of the funds will be used for 
habitat conservation land acquisition by States.
    The Nevada office of the Service recently worked with a 
number of non-Federal partners on proposals for grants under 
the Service's Partners in Fish and Wildlife program. Of the six 
proposals submitted, five grants were awarded through the 
partners program. Last fiscal year, we worked with the Nevada 
Division of Wildlife to develop and submit applications for 
Cooperative Endangered Species Conservation Fund grants, which 
led the Service to award $176,000 to the State. Those funds 
will benefit 11 projects in Nevada.
    In addition to the section 6 moneys, Congress provided $50 
million in the fiscal year 2001. Commerce-Justice-State 
appropriations to be allocated among the States for wildlife 
conservation, with the objective of fulfilling unmet needs of 
wildlife within the States. One of the primary means of 
accomplishing this goal is to encourage cooperative planning by 
State governments, the Federal Government, and the other 
interested parties. Another $50 million for competitive 
wildlife grants to the States was provided in the Interior 
appropriations.
    You asked for examples of successful conservation 
agreements in Nevada. The Amargosa Toad Conservation Agreement 
is such an example. It came together after 6 years of meeting 
with local officials and private landowners to ensure they were 
comfortable with the direction of the program.
    This agreement gave Nye County an opportunity to play a 
leading role in species conservation and is a good example to 
demonstrate that local communities are willing, and able, to be 
leaders on species conservation.
    The Amargosa toad's total range is limited to a 12-mile 
stretch of the Amargosa River in Nye County's Oasis Valley. The 
alarm over the toad's status was triggered by a 1994 survey 
that found only thirty adult toads, resulting in a petition to 
list the toad as an endangered species. Recent surveys 
conducted in cooperation with private landowners, however, lead 
scientists to estimate that as many as 16,000 adult Amargosa 
toads may live in the Oasis valley.
    The nature conservancy purchased the Torrance Ranch, an 
area that provides habitat for the Amargosa toad, the Oasis 
Valley speckled dace, the Oasis Valley Spring snail, and 150 
species of birds, including yellow warbler, blue grosbeak, 
yellow-billed cuckoo, and Bullock's oriole. The Nature 
Conservancy's purchase of the Torrance Ranch was made possible 
with funding from the National Fish and Wildlife Foundation and 
private donations.
    The partners will undertake the restoration and monitoring 
of the ranch with financial support by the Service, Nevada 
Department of Wildlife, Natural Resources Conservation Service, 
the Nature Conservancy, and the University of Nevada, Reno's 
Biological Resources Research Center. The land acquisition, 
combined with other actions specified in the agreement, will 
secure the toad's future.
    One of the obstacles that has impeded local people from 
getting involved in conservation planning in Nevada in the past 
has been a lack of personal communication between employees of 
government agencies and landowners. Landowners may not know 
what incentives and options are available to them for funding 
conservation measures. We, in the Fish and Wildlife Service's 
Nevada Fish and Wildlife Office, are committed to doing a 
better job of reaching out and communicating with landowners 
and informing them on how they can play a bigger role in 
species conservation.
    One way we are working to support local conservation 
efforts is by dedicating a staff person in our office to 
identify what grants and incentives are available for 
conservation and to reach out to State and county agencies and 
private landowners to inform them of how they can take 
advantage of these opportunities.
    There may be other obstacles, but the Service is working to 
identify and resolve them so that States, counties, and private 
property owners can and will take more active roles in species 
conservation.
    There are numerous threats in Nevada that impact ecosystems 
and cause species to decline including: Urban growth; invasion 
of non-native grasses, such as cheatgrass and white top; fire 
damage, conversion of habitat to agricultural lands; and over-
grazing. Involving more people in conservation and protection 
of public and non-Federal lands is crucial to preserving the 
health of the land and maintaining the biological diversity of 
Nevada.
    I thank you for the opportunity to be here today and 
welcome any questions you may have.
    Senator Reid. We will have questions for you in a minute. 
We will hear now from Dennis Murphy. We are very fortunate to 
have him living in Nevada now. I first met him when he was a 
professor at Stanford and he was working on a project at 
University of Nevada, Reno and came to me trying to get me to 
give him some money to do biodiversity studies.
    How many years ago was that?
    Mr. Murphy. Six and a half.
    Senator Reid. How much money?
    Mr. Murphy. Approximately $8 million.
    Senator Reid. So it's one of the really outstanding and, 
some say, the best true science project, going on in the 
country today as it relates to biodiversity. I'm confident that 
it is true.
    Not only is Dennis responsible for selling this program to 
Congress, but he comes with a great resume. Two years ago he 
was chosen by his peers to be the, I say the No. 1 scientist. 
What was the organization called?
    Mr. Murphy. The Society for Conservation Biology.
    Senator Reid. He was the person chosen to lead that 
organization. There may be somebody in the world--I don't know 
who that would be--but Dennis Murphy is probably the world's 
leading expert on butterflies. The reason that's so important, 
I've learned, is that by simply understanding butterfly 
population you understand what the ecology is, the environment, 
and what the biodiversity is in that particular area. I'm happy 
to have him with us. I'm glad you're now a Nevadan.
    Having said that, and the hour is getting late--and knowing 
you very well, you will have to cut your testimony down a 
little bit.

    STATEMENT OF DENNIS D. MURPHY, BIODIVERSITY INITIATIVE, 
                 UNIVERSITY OF NEVADA, RENO, NV

    Mr. Murphy. Thank you for the opportunity to discuss with 
you initiatives to bring better conservation wildlife, fish, 
and non-game species to Nevada and the West.
    Many of those concerned with Nevada's natural heritage have 
come to recognize that the critical environmental legislation 
of the 1970's, including the Clean Water Act, the National 
Forest Management Act, and the Endangered Species Act, among 
others, has the potential of becoming unfunded mandates unless 
the Federal Government can deliver support for much needed 
management efforts. Funding for endangered species in 
particular has been woefully inadequate. As more species have 
been listed and the need for conservation responses grow in 
turn, appropriations have limped along. In the middle of the 
1990's, the United States spent more money on military bands 
than on species at risk. During the same period more money was 
spent on Domino's Pizza deliveries inside the beltway than on 
imperiled species programs nationwide. The message is 
straightforward. The Federal Government must support programs 
that are necessary to conserve listed species and must 
aggressively pursue prelisting agreements and efforts to 
conserve species before they become listed.
    Despite a starvation budget for species protection, 
conservation successes in Nevada have been many. The threatened 
desert tortoise survives across much of the southern State 
despite explosive land development and severe drought. Ash 
Meadows, described by Harvard University's E.O. Wilson as a 
sacred American landmark, ``the equivalent of Independence Hall 
or Gettysburg,'' now has protection and work moves forward in 
earnest to conserve the many imperiled species that reside 
there and to control invasive, weedy species that threaten 
their habitat. The Spring Mountains Natural Recreation area 
harbors more endemic species than any comparable location in 
the country, and nearly all seem to be doing well despite 
rapidly increasing recreational visits.
    But many challenges still face our land and resource 
managers. The sage grouse and its habitats have precipitously 
declined across much of the north of the State. No fewer than 
15 imperiled butterfly subspecies are known from just a few 
dozen wetland acres across the dry middle of Nevada, each one 
at more risk of disappearance than any of the currently listed 
butterfly species found elsewhere in the Western States. Once 
the most abundant amphibian in the State, the relict leopard 
frog now exists in just 3 of the more than 100 sites from which 
it was historically recorded on museum specimens. Our most 
widespread frog may just be a few years away from disappearing 
from Nevada.
    What these species have in common beyond their imperilment 
is that they live on a shared landscape--on both lands public 
and private. They live on public lands with a very long history 
of resource use and private stewardship. One conservation 
reality is apparent; that is, that saving species and the 
habitats that support them is a shared responsibility and will 
demand in coming years unprecedented cooperation. That 
cooperation must include Federal land and resource managers, 
State fish & wildlife staff, private stakeholders, and 
scientists. Recognizing our long history of landscape 
mismanagement and the twin threats from wildfire and invasive 
plant species, we have a great opportunity to fail the sage 
grouse. Certainly money alone can't save the grouse. Federal 
and State managers must coordinate to find a common ground 
between the prohibitive policy that comes with listings under 
the Federal Endangered Species Act, and the State's management 
of fish and wildlife for consumption. Although we all agree 
that we must save sage grouse, we ask whether we want to save 
them as part of our State's rich natural heritage or so that we 
can have a season on them.
    Any new funding must look to recipients beyond the Federal 
and State families. The shared landscape of the Intermountain 
West is not equally shared. Private interests have long 
controlled the most limiting resource, water. Although Desert 
tortoise and sage grouse conservation challenges in this State 
are not solely driven by water allocation conflicts, most other 
species challenges are. It is not a coincidence that pupfish, 
frogs and toads, spring snails, and butterflies present land 
managers with the most immediate species challenges. The 
springs, seeps, and riparian areas that support those organisms 
have long been exploited and often over used. Where dollars can 
buy water for fish and wildlife, and where private interests 
have the desire to contribute to saving species, our efforts 
will be rewarded. A Federal listing of the 15 butterflies I 
mentioned can be obviated with just a small redirection of 
waters and some three-strand fencing. It is that simple to save 
uniquely Nevada butterflies in Carson Valley, Big Smoky Valley, 
Railroad Valley, Steptoe Valley and points in between.
    Finally, cooperation must extend to information gathering 
and sharing. We have to recognize we know woefully little about 
how our wildlands serve both common species and rare ones. Our 
best intended land management agencies have often failed to 
achieve the desired results and frequently have had adverse 
effects on species of concern.
    In Nevada we have come a long way toward a remedy. For 7 
years the State has benefited from the Nevada Biodiversity 
Initiative, a cooperative effort joining Federal and State land 
and resource managers with university scientists to meet the 
goal of saving biodiversity in the face of human population 
growth and 
diverse land uses. In continuous communication, managers and 
scientists direct funds to species and habitats at greatest 
risk, work together to study biological systems that are poorly 
understood, and prioritize future conservation actions. The 
Biodiversity Initiative cannot take all the credit, but it is 
certainly no coincidence that, although Nevada was fourth in 
the Nation in candidate species for Federal protection in 1993, 
not one new species was listed in the State until forces in 
Elko County caused the recent listing of the bull trout. Very 
unfortunately, the Nevada Biodiversity Initiative's funding has 
been removed by this administration from the Federal budget.
    In Nevada we have a unique level of communication, 
cooperation, and collegiality on resource issues. That 
foundation has fostered the largest habitat conservation plan 
in the country, 5\1/2\ million acres in Clark County, covering 
nearly 90 species of plants and animals, most not yet listed. 
In cooperation with California, Nevada is involved in one of 
the Nation's most visible and ambitious restoration efforts to 
save the fabled clarity of Lake Tahoe's waters. Now we are 
embarking on perhaps the biggest conservation challenge yet, to 
sustain and restore the most Nevadan of all habitats, the 
sagebrush ecosystem. Neglected, abused, and under incalculable 
threats, we frankly have no available technology to reverse the 
decline of our sagebrush. But Federal funding of a cooperative 
effort involving agencies and stakeholders founded on reliable 
experimental science offers our best hope.
    Senator Reid, I encourage you and the Committee on 
Environment and Public Works to fund cooperative efforts to 
bring more effective species conservation to our State and our 
neighbors.
    Senator Reid. Dennis, how many articles have you published?
    Mr. Murphy. Approximately 160.
    Senator Reid. So I don't want to boast on your behalf, but 
you're really a scientist. Tell me what we would have lost had 
we not had the Biodiversity Program for the last 7 years.
    Mr. Murphy. The listing process for endangered and 
threatened species works in mysterious ways, sort of a 
compromise between risk of extinction and economic 
considerations and other pressures. But I think it's quite 
possible that we would have seen a listing of one or more 
species each of the years since the initiative started and 
certainly over the last several years.
    Senator Reid. You don't mean a listing--you said a listing 
in each of the last 7 years?
    Mr. Murphy. Yes.
    Senator Reid. We have--because I'm responsible for getting 
the money, I don't want to sound too assertive, but is there a 
program any place in the United States like this program?
    Mr. Murphy. There isn't. In many ways it fills the gap that 
the National Biological Survey hoped to fill. Secretary Babbitt 
at the time wanted to consolidate the research, monitoring, and 
modeling capacities within the agencies into a capacity that 
could be directed to resolve technical matters related to 
species persistence, habitat health and so on.
    Senator Reid. He was not able to get that----
    Mr. Murphy. Well, he got his survey, but it was slowly 
starved through the appropriations process.
    Senator Reid. Nothing ever came of it? Is that a fair 
statement?
    Mr. Murphy. That would be unfair to many people who are----
    Senator Reid. Not much became of it. Is that a fair 
statement?
    Mr. Murphy. Certainly not much came of it. I think the 
Biodiversity Initiative has played a wonderful role in filling 
that gap in this State. It's a forum for us to solve specific 
challenges. It's extremely important in getting folks to sit 
down together.
    Senator Reid. Also, Dennis, I cringe to think what we would 
have done without the expertise that was developed over the 
years with our problems at Lake Tahoe. We have been intimately 
involved with this. The Walker River system, you have been 
involved in that regard.
    Of course, even though you came in late, you have been 
involved in the problems we had in the Carson/Truckee River 
systems. That doesn't take into consideration the vast areas 
that you have personally been in and studied dealing with the 
butterflies. Tell us, why is it important in the State of 
Nevada, the country's leading expert on butterflies? Why are 
they important.
    Mr. Murphy. The real reason is because I love Nevada. I 
think it's one of the great untrammeled landscapes in the world 
and has, not only wonderful people with an intimate 
relationship with the landscape, but a spectacular biological 
diversity that has been shaped over the years by the dramatic 
topography that you mentioned. Our 314 mountain ranges and the 
increasingly arid environment has isolated organisms in some 
small portions of many of the mountain ranges and really gives 
us a bit of a----
    Senator Reid. Why are butterflies important?
    Mr. Murphy. Well, butterflies can give an early warning of 
ecosystems in decline. When your butterflies start to go, it 
tells you substantial things about the plants that support 
them, the species that co-exist with them, and the fate of the 
ecosystems in which they survive.
    Senator Reid. Bob, you have been involved heavily in all 
the many problems we have had in the State of Nevada dealing 
with the environment.
    How long have you been in Nevada now?
    Mr. Williams. Three and a half years.
    Senator Reid. During that period of time you have been 
involved very publicly, and even when you were not here, you 
were aware of the problems going on in Nevada as part of your 
job. Is that right?
    Mr. Williams. Yes. I was in Utah. I heard about them--about 
the Nevada Biodiversity Initiative from my predecessor.
    Senator Reid. Even though this is a State program, you and 
the Federal Government have relied on the information they 
gathered. Is that true?
    Mr. Williams. Very much so for the efforts on our 
conservation plan for the spotted frog. As Dennis said, there's 
several species that, if we were not in a conservation planning 
effort right now, they would be considered for listing if not 
listed already.
    Senator Reid. I'm disappointed that it's not in the budget. 
This program became so successful. As you know, we have a 
unique form of government. It's not a dictatorship. The 
legislative branch of government has equal say. So we will see 
what we can do to reestablish those dollars.
    We promised everybody that we would be out of this building 
by 4 o'clock. Speed on.

STATEMENT OF KAREN DENIO, ACTING STATE EXECUTIVE DIRECTOR, FARM 
           SERVICES AGENCY, DEPARTMENT OF AGRICULTURE

    Ms. Denio. Actually, in an effort to conserve time and my 
voice, I'm respectfully requesting that my written testimony be 
entered into the permanent record.
    Senator Reid. Yes.
    Ms. Denio. Good afternoon. My name is Karen R. Denio, and 
I'm the acting Nevada State executive director for the 
Department of Agriculture's (USDA) Farm Service Agency. I 
appreciate the opportunity to present information on the 
conservation programs administered by the Farm Service Agency, 
FSA, and the Natural Resources Conservation Service, NRCS, in 
Nevada, the current levels of participation, and the rationale 
for producer participation.
    FSA and NRCS have several conservation programs available 
to farmers and ranchers that provide incentives to encourage 
wildlife habitat. Among these programs is the Conservation 
Reserve Program, CRP, a voluntary program for agricultural 
landowners, offering wildlife and environmental benefits. 
Generally, offers for CRP contracts are competitively ranked 
according to the environmental benefits index, EBI. 
Environmental and cost data are collected for each of the EBI 
factors, including: Wildlife habitat benefits resulting from 
covers on contract acreage, water quality benefits from reduced 
erosion, runoff, and leaching, on-farm benefits of reduced 
erosion, likely long-term benefits of reduced erosion, air 
quality benefits from reduced wind erosion, benefits of 
enrollment in conservation priority areas where enrollment 
would contribute to the improvement of identified adverse water 
quality, wildlife habitat or air quality, and cost.
    Under the CRP, producers receive annual rental payments and 
cost-share assistance to establish long-term, resource 
conserving covers on eligible crop land and marginal pasture 
land that improves soil, water, and wildlife resources. To be 
eligible to be enrolled in the CRP, cropland must also have 
been planted or considered planted to an agricultural commodity 
2 of the 5 most recent crop years.
    Conservation Reserve Program continuous sign-ups provide 
management flexibility to farmers and ranchers to implement 
certain high-priority conservation practices on eligible land. 
To encourage these high-priority practices, continuous sign-up 
participants do not go through the normal bidding process and 
can enroll non-
competitively. One practice that offers significant wildlife 
benefits for farmers and ranchers is the riparian buffer 
practice. The land can be marginal pasture which is devoted to 
trees either planted or naturally regenerated. This provides 
cover for waterfowl and fish along with other wildlife species.
    A second wildlife enhancement practice is to develop or 
restore shallow water areas that provide a source of water for 
wildlife for the majority of the year. Other eligible acreage 
devoted to certain special conservation practices, such as 
filter strips, grassed waterways, shelter belts, living snow 
fences, contour grass strips, and salt tolerant vegetation, may 
be enrolled at any time under the CRP continuous sign-up and is 
not subject to competitive bidding.
    To be eligible under continuous sign-up, land must first 
meet the basic CRP eligibility requirements. In addition to the 
applicable CRP rental rates, payments up to 50 percent of the 
eligible cost of establishing a permanent cover are provided to 
producers as cost-shares.
    Up to $350 million is available for additional incentives 
through fiscal year 2002 to encourage producers to participate 
in the CRP continuous sign-up including: An up-front CRP 
Signing Incentive Payment of $100 to $150 per acre, a Practice 
Incentive Payment paid as a one-time rental payment equal to 40 
percent of the eligible installation costs to eligible 
participants enrolling in certain practices in addition to the 
standard 50 percent CRP cost-share rate, new rental rates that 
have been established for certain marginal pasture land to 
better reflect the value of such lands to farmers and ranchers.
    Through mid-January 2001, over 1.4 million acres nationally 
have been enrolled under continuous sign-up practices. With 
these incentives, enrollment of filter strips has increased 
over 600 percent compared to the historic program (sign-ups 1-
13).
    The Conservation Reserve Enhancement Program, CREP, is used 
in many States as a vehicle for conservation cooperation. The 
two primary objectives of CREP are to coordinate Federal and 
non-
Federal resources to address specific conservation objectives 
of a State and the Nation in a cost-effective manner and to 
improve wildlife habitat, water quality, and erosion control 
related to agricultural use in specific geographic areas.
    These unique State and Federal partnerships allow producers 
to receive incentive payments for installing specific 
conservation practices. Through the CREP, farmers can receive 
annual rental payments and cost-share assistance to establish 
long-term, resource conserving covers on eligible land. Like 
continuous sign-up, CREP participants can enroll non-
competitively and receive the signing and practice incentive 
payments.
    Under CREP, non-Federal partners provide a significant 
commitment, such as 20 percent, toward the overall cost of the 
program.
    The Environmental Quality Incentives Program, EQIP, is 
carried out by NRCS. EQIP provides technical, educational, and 
financial assistance to eligible farmers and ranchers to 
address soil, water, and related natural resource concerns on 
their lands in an environmental beneficial and cost-effective 
manner. The program provides assistance to farmers and ranchers 
in complying with Federal, State, and tribal environmental laws 
and encourages environmental enhancement.
    The purposes of EQIP are intended to be achieved through 
the implementation of a conservation plan which include 
structural, vegetative, and land management practices on 
eligible land. Five- to ten-year contracts are made with 
eligible producers. Cost-share payments may be made to 
implement one or more of the eligible structural or vegetative 
practices, such as animal waste management facilitates, 
terraces, filter strips, tree planting, and permanent wildlife 
habitat. Incentive payments can be made to implement one or 
more land management practices, such as nutrient management, 
pest management, and grazing land management. By law, 
nationally, 50 percent of the funding available for the program 
is targeted at natural resource concerns relating to livestock 
production.
    The Wildlife Habitat Incentives Program, WHIP, is another 
Federal wildlife conservation program administered by NRCS. 
WHIP is a voluntary program that provides cost-sharing of up to 
75 percent for landowners to apply a variety of wildlife 
practices to develop habitat that will support upland wildlife, 
wetland wildlife, threatened and endangered species, fisheries, 
and other types of wildlife. The purpose of the program is to 
create a high quality wildlife habitat that support wildlife 
populations of local, State, and national significance.
    Although these conservation programs are available, it is 
often a difficult decision for the producer on whether to 
participate. As energy, fertilizer and transportation costs 
continue to escalate. It often puts the farmers and ranchers in 
the position of choosing between production-based practices to 
pay the bills and the conservation practices they wish to carry 
out.
    Nevada's producer participation in CRP and the CRP 
continuous sign-up is limited due to a variety of factors. One 
factor is the rental rate assigned to Nevada. Rental rates are 
based on the dry land agricultural value because ongoing 
irrigation is not required as a condition of enrollment. The 
dry land rate for enrolled land in Nevada is about $17 per 
acre. Consistent with the statutory obligation prohibiting 
haying or grazing, a producer is required to keep cattle off 
the CRP land. Therefore, if a producer or a neighbor has cattle 
it would be necessary to fence the CRP acreage.
    Along with wildlife enhancement benefits, one of the 
purposes of CRP is to retire cropland in order to control 
erosion and improve water quality. Because much of Nevada's 
land base does not have a cropping history due to it's 
permanent grass cover or recently being put into production, it 
is basically ineligible to be enrolled in the CRP.
    In Nevada there are more EQIP requests for participation 
than available for funding. For example, in 2000 there were 57 
applications for a total of $1,207,197, and with the $992,478 
allocation, 43 projects were funded. The 2001 cycle is similar 
in that 85 applications totaling $1,769,873 have been received, 
but with $1,151,300 allocated, a minimum of 44 projects will be 
funded.
    Ultimately, participation in conservation programs benefits 
all of us. For even as we recognize our farmers and ranchers as 
the original conservationists, we each have a responsibility in 
preserving our land and natural resources for the following 
generations.
    Thank you, Mr. Chairman, for the opportunity to testify 
today. I would be pleased to respond to any questions that you 
or the committee may have.
    Senator Reid. Thank you. We will hear now from Nick Pearson 
from the Department of Agriculture.
    Mr. Pearson. I'll try to be brief.
    Senator Reid. Thank you for your patience in waiting around 
this afternoon. I appreciate it.

   STATEMENT OF NICK PEARSON, STATE CONSERVATIONIST, NATURAL 
   RESOURCES CONSERVATION SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Pearson. Mr. Chairman, as you know, farmers across 
America are faced with ever increasing pressures to maintain a 
productive and profitable business. Prices for many farm 
commodities have been the lowest in years, and poor weather and 
growing conditions have been issues in many areas. Production 
costs have increased due to many factors, including rising 
prices of nitrogen fertilizer and natural gas. In addition to 
these concerns, farmers face increasing pressures associated 
with natural resources. In recent years concern regarding the 
health of our soils, water supply, and air have made farming 
and ranching increasingly difficult.
    We know that farmers want to be good stewards of the land. 
They know that stewardship is in the best interest of long-term 
productivity of farming operations. By and large, it is also 
important to farmers and ranchers who want to leave improved 
natural resources and a better environment for future 
generations. Our mission is to help farmers and ranchers meet 
the challenge of sustaining their natural resources while 
maintaining a productive and profitable business.
    Today I would like to highlight the many ways our 
conservation programs are making a difference around the 
countryside. Since the enactment of the Federal Agriculture 
Improvement and Reform Act of 1996, NRCS has experienced an 
increased national demand for participation in conservation 
programs. Farmers are utilizing these programs for a variety of 
benefits, including managing nutrients to save on input costs 
and protect water quality, restoring and protecting wetlands to 
create wildlife habitat, installing grassed waterways to 
control erosion, and designing grazing systems to increase 
forage production and manage invasive species.
    Land users are using conservation to improve the 
productivity and sustainability of their operation, while also 
improving the asset value of their farm even during times of 
such dire economic strain. Our programs are voluntary. In 
response to new environmental regulations at many levels, we 
are helping farmers and ranchers meet some of the regulatory 
pressures they may face. In turn, the public benefits from 
conservation programs go well beyond the edge of the farm 
field.
    Mr. Chairman, I believe that the conservation programs 
Congress included in the 1996 Act, when coupled with our 
historic conservation programs and the State and local delivery 
system, are proving winners for the farmer, and the country as 
a whole.
    The cornerstone of our conservation activities is the NRCS 
work force. Everything we accomplish is contingent upon the 
talents and technical skills of our field staff around the 
country. They are trained professionals with the technical 
tools, standards, and specifications who get the job done. NRCS 
has operated since its creation through voluntary cooperative 
partnerships with individuals, State and local governments, and 
other Federal agencies and officials. That partnership may even 
be more important today if we are to meet the challenging 
conservation problems facing our nation's farmers and ranchers.
    While we are accomplishing much through the 1996 Act 
programs, it is important not to lose sight of the importance 
of our ongoing Conservation Technical Assistance Program. For 
more than 60 years the NRCS has used conservation technical 
assistance to build a foundation of trust with people who 
voluntarily conserve their natural resources. On average, the 
agency's conservation assistance leverages more than $1 in 
contributions for every Federal dollar invested. In States like 
Nevada, NRCS has placed special emphasis on the conservation of 
private grazing lands. As part of our efforts in this area, 
farmers and ranchers are benefiting from the planned grazing 
systems, resulting in better productivity and improved natural 
resources. Through the National Cooperative Soil Survey, 
approximately 22 million acres have been mapped each year so 
that natural resource decisions are based upon sound science 
and complete information about the natural resources.
    NRCS accomplishes its goals by working with 3,000 local 
conservation districts that have been established by State law 
and with American Indian tribes and Alaska Native Governments. 
We also leverage our resources with the help of more than 348 
resource conservation and development RC&D councils. State and 
local governments contribute substantially with both people and 
funding to complement NRCS technical and financial assistance. 
Approximately 7,750 full-time equivalent staff years are 
provided annually by NRCS partners and volunteers.
    Next I would like to highlight the accomplishments of the 
Wetlands Reserve Program. WRP preserves, protects, and restores 
valuable wetlands mainly on marginal agricultural lands where 
historic wetland functions and values have been either depleted 
or substantially diminished. Program delivery is designed to 
maximize wetland wildlife benefits to provide for water quality 
and flood storage benefits and to provide for general aesthetic 
and open space needs. Approximately 70 percent of the WRP 
project sites are within areas that are frequently subjected to 
flooding, reducing the severity of future flood events. The WRP 
is also making a substantial contribution to the restoration of 
the Nation's migratory bird habitats, especially for waterfowl.
    As directed in the 1996 Act, WRP enrollment is separated 
into three components: Permanent easements, 30-year easements, 
and cost-share agreements. Pursuant to appropriations act 
directives, enrollment is being balanced to respond to the 
level of landowner interest in each of these three components.
    The 1996 Act authorized a total cumulative enrollment of 
975,000 acres in the program. At the conclusion of fiscal year 
2000, the program had almost reached maximum enrollment. The 
Agriculture, Rural Development, Food and Drug Administration, 
and related agency appropriations bill for fiscal year 2001 
provided an additional 100,000 acres raising the cumulative 
enrollment cap up to 1,075,000 acres and allowing 140,000 acres 
to enroll in fiscal year 2001.
    From inception of the program in 1992 through 2000, 
interest in WRP has been exceptional. Historically, there have 
been more than five times as many acres offered than the 
program could enroll. One benefit of WRP is the amount of 
resources we have been able to leverage with other Federal 
programs as well as nongovernmental organizations. It is clear 
from our experience to date, Mr. Chairman, that the WRP 
continues to be very popular with farmers and ranchers and is a 
program that clearly has strong support around the countryside.
    The Wildlife Habitat Incentives Program provides up to 75 
percent cost-share for implementing wildlife habitat practices 
to develop upland wildlife habitat, wetland wildlife habitat, 
threatened and endangered species habitat as well as aquatic 
habitat. The WHIP also helps landowners best meet their own 
needs while supporting wildlife habitat development, and to 
develop new partnerships with the State wildlife agencies, 
nongovernmental agencies and others.
    The program was initially funded at a total of $50 million 
in the 1996 Act to be spent over a number of years. As a result 
of strong interest, those funds were exhausted at the end of 
fiscal year 1999, at which time 1.4 million acres were enrolled 
in 8,600 long-term wildlife habitat development agreements. For 
fiscal year 2001, $12.5 million will be provided for WHIP from 
funding in section 211(b) of the Agricultural Risk Protection 
Act of 2000, as authorized in the fiscal year 2001 Consolidated 
Appropriations Act. NRCS has made an enormous effort to develop 
partnerships with government and private organizations to 
develop a practice that targets specific State concerns.
    The FPP protects prime or unique farm land, land of State 
or local importance and other productive soils from conversion 
to nonagricultural uses. It provides matching funds to leverage 
funds from States, tribes, or local government entities that 
have farmland protection programs. The FPP establishes 
partnerships with State, tribes, and local government entities 
to acquire conservation easements or other interests in land. 
It ensures that valuable farmland is preserved for future 
generations and also helps maintain a healthy environment and 
sustainable rural economy. The program was initially funded in 
the 1996 Act at a level of $35 million to be spent over a 
number of years. To date, those funds have been exhausted and 
local interest in the program continues to be strong. For 
fiscal year 2001, additional funding provided in the 
Agricultural Risk Protection Act of 2000 will fund the FPP at 
$17.5 million. On January 22, 2001, a request for proposals was 
published in the Federal Register. Eligible entities had until 
March 8, 2001, to submit their proposals. After the evaluation 
process is concluded, successful applicants will be notified in 
June 2001.
    EQIP provides technical, financial, and educational 
assistance to farmers and ranchers who face serious threats to 
soil, water, and related natural resources on agricultural and 
other land. The 1996 Act authorized $200 million annually for 
EQIP, utilizing funds of the Commodity Credit Corporation, CCC. 
For fiscal year 2001, the final appropriation was $200 million. 
In the previous 2 fiscal years Congress appropriated $17.4 
million annually. Consistent with the authorizing legislation, 
the program is primarily available in priority conservation 
areas in order to maximize the benefits of each Federal 
conservation dollar. The priority areas consist of watersheds, 
regions, or areas of special environmental sensitivity or 
having significant soil, water, or related natural resource 
concerns that have been recommended through a locally-led 
conservation process. For fiscal year 2000, nearly 85 percent 
of the EQIP financial assistance funding was provided within 
priority areas.
    The program has been extremely successful. We received 
nearly 76,168 applications in fiscal year 2000. After NRCS 
ranked the applications based on criteria developed at the 
local and State level, 16,443 long-term contracts with farmers 
and ranchers were approved. Since inception of the program, 
EQIP has averaged about six times the number of applications 
than could be approved with available funding. Certainly the 
demand for the program remains high around the country.
    Mr. Chairman, in closing I would note that good 
conservation doesn't just happen. It takes all of us, including 
the Congress, the conservation partners and, most importantly, 
the people living on the land working together to make it 
happen. As exemplified through the many programs and activities 
that we have underway, there is a great deal happening on the 
ground. The work is not only helping farmers and ranchers build 
more productive economically-viable operations, but also it's 
building a better natural resource base for the future. We are 
proud of your accomplishments and look forward to working with 
you to build on all that we have done thus far.
    This concludes my statement, Mr. Chairman, and thank you 
again for the opportunity to appear. I would be happy to answer 
any questions the committee might have.
    Senator Reid. Thank you, Mr. Pearson.
    Karen, I understand Nevada received only one conservation 
reserve program contract last year.
    Can you describe to me the reasons why the program doesn't 
work well for Nevada and some things we can do in the Farm bill 
to change that.
    Ms. Denio. Like I mentioned in my testimony, it has 
everything to do with the rental rate as one of the factors. 
They get $17 an acre to take the crop out of production. In 
other States they get much more than that. We get the dry land 
rental rate even though we have to irrigate to grow most crops.
    Another factor is that they don't have the cropping 
history. Because of the fact that we have now the irrigation 
techniques that are available, we are just getting cropland 
into production, and so they don't have the many years of 
producing it, and thus they don't meet that requirement of the 
environmental benefits index.
    Senator Reid. One idea that my staff is thinking of is 
whether we can write a program that would give farmers and 
ranchers financial assistance to voluntarily switch from a 
relatively water-
intensive crop like hay, which is 40-acre feet of water per 
acre per year, of course, to growing native seed, for example, 
or something else.
    Do you think that farmers might be interested in making the 
switch if we did some pilot projects that showed that their 
soil was good for growing seed?
    Ms. Denio. I think there would be. In order to do that, 
obviously, incentives work really well. They would need 
different equipment in order to produce the crops. If that were 
a part of the incentive, to recover the costs, I think that 
would be possible.
    Senator Reid. Do you have any comments on that?
    Mr. Pearson. She's right on, couldn't have said it better.
    Senator Reid. Dr. Murphy, tell me roughly how the 
Biodiversity Initiative both benefits from and supports 
students at the university.
    Mr. Murphy. The Biodiversity Initiative provides the 
funding that allows us in turn to provide infrastructure that 
allows a broader experience for the students. We have a 
geographic information system mapping capacity in our 
biodiversity office within the biology department. We can 
provide stipends to support graduate students who have worked 
projects ranging from the conservation of bats to looking at 
the State's biotic and physical resources on landscape.
    One of the great advantages of the Biodiversity Initiative 
is that it has provided for cooperative staff sharing with the 
agencies. Several students have had experiences with Fish and 
Wildlife Service and have gone on to work for the agency.
    Senator Reid. This biodiversity program, has it provided a 
better graduate student? Has it made a better graduate student?
    Mr. Murphy. I certainly believe so. It has funded students 
to go to international meetings exchange experiences and see 
how conservation is carried out elsewhere. But it has also 
allowed for Dr. Richard Tracy, one of the top ecologists in the 
United States who, with the assistance of the biodiversity 
initiative was brought to UNR where he has continued to do 
path-breaking work on the desert tortoise, for instance, and 
served on its recovery team which has played such a substantial 
role in saving the species.
    Senator Reid. With you and Dr. Tracy, Dr. Broussard, and 
others, how has the UNR's conservation and biology department--
what kind of stead does it have around the country?
    Mr. Murphy. We are certainly in the top three in terms of 
the performance of the faculty, the number of graduate students 
produced, and the placement of those students in jobs.
    Senator Reid. When you say ``in the top three,'' you mean 
in all universities around the country?
    Mr. Murphy. Yes.
    Senator Reid. After your students leave the university 
after working as part of the initiative, what do you have to 
report about those students?
    Mr. Murphy. Certainly their placement within the agencies 
working on these issues has been common, and they have been 
placed throughout the United States.
    But I think quite importantly that graduates in the State 
of Nevada are now playing substantial roles in decisionmaking 
that has, I dare say, contributed to obviating the need for 
future species listing.
    Senator Reid. I'm grateful for everyone for having been 
here today. When you do a hearing like this it is not nearly as 
sexy as one dealing with capital punishment or other issues.
    But the fact of the matter is it's a very important 
hearing. The wide range of witnesses that we have had, the 
Congressman from Texas, we have had people who worked out of 
the goodness of their own heart in improving wildlife habitat, 
helping sportsmen be able to do the things that they enjoy so 
much.
    It has shown to me that there's the ability for government 
at all levels to work with those on the ground. As we have 
heard here from the very first witness, these programs will not 
work unless local people support the programs. I look forward 
to making sure that what we do in Washington takes that into 
consideration, programs that are so essential to the literal 
survival of various habitats around the country, no matter what 
the case is, that it won't work unless local people support it. 
As Larry Johnson in his written testimony said, ``The Nevada 
Bighorn Unlimited actions prove that true sportsmen are the 
consummate conservationists.''
    Having said that, this hearing of the Committee on 
Environment and Public Works is adjourned.
    [Whereupon, at 3:49 p.m., the committee was recessed, to 
reconvene on April 12, 2001, in Fallon, NV.]
    [Additional statements submitted for the record follow:]
      Prepared Statement of Don Henley, Caddo Lake Institute, Inc.
    Mr. Chairman, thank you for permitting me to address the committee, 
today. First, let me thank Congressman Sandlin for his positive efforts 
on behalf of this local initiative. His introduction and his photograph 
provide an excellent overview of our vision. I also thank the committee 
members for hearing our concerns about a possible need for oversight 
and support for community-based initiatives that fulfill important 
Federal conservation commitments.
    My remarks today will address not just the local, but also the 
national and global conservation benefits that could result from 
congressional support for The Caddo Lake Ramsar Wetlands Science Center 
Program.
    However, my comments about our Caddo Lake program may apply equally 
well to other community initiatives that are also fulfilling important 
Federal conservation commitments. One example is the Elko habitat 
restoration program in your State of Nevada, Senator Reid. My 
conclusion will note some features and needs which both programs seem 
to share.
    We have provided the committee with a pamphlet about our Caddo Lake 
initiative. The front cover contains the Caddo Lake scene Congressman 
Sandlin showed you, prefaced by the phrase, ``A Woods Hole for 
Wetlands.'' That phrase was coined in a local editorial several years 
ago, referring to the famous Woods Hole Oceanographic Institute in 
Massachusetts. This editorial is in the pamphlet. Together the picture 
and the phrase show the reason for, and the essence of, this local 
vision. This booklet also contains schematic plans for the Center's 
campus, the office building for our Research Coordination Network, 
interpretive and accessory support buildings. A possible hemispheric 
mission is noted in the letter from John Rogers, U.S. Fish & Wildlife 
Service. Finally, the pamphlet contains the 1999 Costa Rica Conference 
Resolution of the Ramsar Nations, which endorses powerful guidance to 
maximize the involvement of local communities in management of Ramsar 
wetland sites. The resolution notes that the approved guidance was co-
authored by the Caddo Lake Institute, among others. Thus, this rural 
Texas initiative has already influenced both the local and 
international practice of wetland conservation.
    The Caddo Lake Ramsar Science Center is a proposed public/private 
partnership between the Institute, as the local facility manager and 
program coordinator, and two Department of Interior agencies, which 
have special expertise.
    These Federal agencies are: the USGS' National Wetlands Research 
Center of Lafayette Louisiana and the International Affairs Office of 
the U.S. Fish & Wildlife Service, Washington, DC. Both agencies have 
been our informal partners at Caddo Lake since 1993.
    The purpose of this Ramsar Center is to institutionalize a 
brilliant community achievement that could light the way for other 
communities. The Center is charged with demonstrating nothing less than 
the ``exemplary fulfillment'' of an important U.S. treaty commitment, 
specifically the Ramsar Convention on ``Wetlands of International 
Importance, especially as waterfowl habitat.'' Our national credibility 
in keeping this commitment underpins our ability to ask other nations 
to manage wisely the wetlands in their parts of our common flyways. In 
addition, the Caddo Lake Ramsar Center fulfills an official pledge by 
the U.S. Government and the Caddo Lake Institute to more than 100 
Ramsar nations at their 1996 Conference at Brisbane, Australia.
    At Brisbane we jointly pledged to establish at Longhorn the first 
U.S. Regional Ramsar Center. To assure the availability of the facility 
and fulfill the pledge, the Caddo Lake Institute leased a 1,400-acre 
old growth forest at Longhorn for conservation research purposes, as 
well as a 14-acre campus and buildings for eventual renovation. We 
originally pledged $100,000 to this purpose. We have incurred expenses 
greatly in excess of that amount to fulfill our share of the Brisbane 
Pledge.
    The purpose of the requested appropriation is to augment the 
Department of Interior's budget for our partner agencies to underwrite 
the costs of the Center and its programs for community members and 
scientists. Together we will create operate and demonstrate the Caddo 
Lake wetland management plan, as an exemplar of the best Ramsar 
guidance. The renovation plan contemplates that the facility will be a 
learning venue. It will include powerful modeling tools for this 
wetland and its watershed. Interpretive and outreach programs will 
showcase the practical realities of a community-based wetland 
management program, and its watershed science foundation.
    Because of its wetland science expertise and proximity, in 
Lafayette Louisiana, we think the National Wetlands Research Center (or 
NWRC) is the logical agency to receive a budget augmentation to fund 
and provide oversight for the Caddo Lake Ramsar Center program. 
Although we know it to be an excellent science agency, we believe NWRC 
is ``fiscally under-appreciated'' within the Federal budget. It 
deserves both the funding, and the credit it will earn by congressional 
augmentation to provide its expertise to local Ramsar communities--a 
task we know that NWRC does well. FWS International Affairs, which 
executes our government's Ramsar obligations, would be reimbursed for 
its costs of provide Ramsar oversight and U.S. policy coordination. We 
understand that FWS may also wish to use some Center resources to 
assist other Ramsar sites whose requests for help are currently 
underfunded. This new assistance capacity might include training at 
Caddo Lake, and support for delegations of our citizens and scientists 
who visit other wetland communities in response to their requests for 
advice or assistance.
    We use the term ``budget augmentation'' purposefully. It should be 
counterproductive to compromise the historic missions of NWRC or FWS 
International Affairs by reallocating to our program any of their 
shrinking resources. NWRC would reimburse itself and other Federal 
agencies from this budget augmentation for direct Federal agency costs 
as well as NWRC's costs of fiscal and wetland science or oversight, 
passing through the balance of at lease 80 percent to finance the 
locally managed program.
    Beyond fulfillment of the Brisbane Pledge, there are compelling 
reasons to create a program of this type at Caddo Lake. The Caddo Lake 
communities have made a solid beginning in showing that rural 
communities have the potential to manage an internationally significant 
wetland conservation program. Last summer we facilitated a ``Lake 
Residents Working Group'' to master and make local presentations of 
lake management science information. Many Working Group participants, 
like our grocer and guide Robin Holder, are also members of key local 
businesses, community groups and the local navigation district. Our 
initiative formalized the practice of regular consultation with our 
colleagues of Texas Parks and Wildlife fisheries and waterfowl 
divisions, as well as their personnel managing their Caddo Lake 
Wildlife Management Area, the original 1993 Ramsar site. Together, they 
represent the nucleus of the Ramsar-like structure that joins community 
groups with science experts, a structure which this appropriation would 
enable us to formalize to manage the Caddo Lake Ramsar wetlands.
    To assure that there will always be a sound science foundation for 
this ambitious program, we have expanded our historic academic 
monitoring program. It has become a much broader Research Coordination 
Network (RCN) The RCN's mission is to provide scientific information to 
our communities for exemplary implementation of Ramsar guidance, not 
just for Caddo Lake but also as a model and encouragement to other 
wetland communities. Today the RCN is composed of scientists from Texas 
A&M, Stephen F. Austin State University, East Texas Baptist University, 
Wiley College, Panola College and Louisiana State University, 
Shreveport. Anticipating that some committee members may be alumni of 
other Texas universities, I hasten to note that both University of 
Texas and Texas Tech University, among others, have been invited to 
participate. This network includes agency scientists from Texas Parks 
and Wildlife Department, U.S. Fish and Wildlife Service and the 
National Wetlands Research Center. Next week the RCN meets in 
Jefferson, Texas to review Ramsar guidance and to create interpretive 
materials about ``what we know'' and to define research projects about 
``what we need to find out to manage better.'' These Conference 
products will become part of the annual Research Action Agenda for the 
Center. The Center's interpretive program will routinely showcase the 
findings of this applied research, and how such research informs the 
management of ``critical issues'' in the Caddo Lake Basin. These 
critical issues include by way of example: how to maximize and measure 
the effectiveness of community management itself, how to deal with 
invasive species, how to maintain hydrological integrity, and how to 
assess and monitor risks to ecological character. Examples of risks 
already calling for sound science are: measurement of the effects of 
acids, and nutrients and trace metals from airborne and point sources, 
including levels of mercury and other pollutants found in the fish and 
wildlife throughout the basin.
    Community members of the lake management Working Group will attend 
the annual RCN Conferences, as full participants, as a part of their 
ongoing wetland science orientation. Therefore, much of the funding 
will be passed through to implement or showcase the Research Action 
Agenda that the RCN will produce annually with the community management 
entity. As a result, we expect that the Center will become a model of 
an advanced research and educational facility for our participants as 
well as natural science visitors.
    Congressman Sandlin perceptively stated a belief we all share at 
Caddo Lake: Like politics, all conservation is ``local'' conservation--
at least the best kind is. That has been true in our case. Contrary to 
popular characterizations of rural southeasterners as being alarmed by 
local Federal conservation activities, our communities are proud of the 
Ramsar designation, understand its value and use the designation as a 
tool for stewardship.
    During our preparation for this hearing we noticed that similar 
local initiatives were happening with the sage grouse habitat 
initiative by rural people in Elko, Nevada. Both programs even share 
the feature of local people recruiting two willing Federal agencies. We 
suspect that these may be two examples, perhaps of many similar 
situations, where extremely important Federal conservation commitments 
are actually being fulfilled by local initiatives--just because local 
people decided it was the right thing to do.
    But community-based initiatives, especially those pursuing Federal 
conservation commitments are very vulnerable. The local effort required 
to create them is potentially exhausting. If they are not 
institutionalized and incorporated into local cultural pride, they can 
rapidly deteriorate. They may be undermined by the death, illness, 
aging and the personal and family needs of key participants. Local 
efforts can also be demoralized by indifference, or by ``turf wars'' or 
manipulation by the agencies whose missions they are furthering. They 
may die simply for want of an appropriate institutional vessel to carry 
them on. Often these local efforts achieve a critical mass--and their 
greatest promise and vulnerability--just when their need for costly 
institutionalization is also critical.
    Survival of model community conservation initiatives, like survival 
of model conservation bureaucracies, requires funding to pay for 
expertise and institutional structures which foster continuity of 
programs and personnel, as well as the means to retrieve essential 
information, to plan, manage, train, and recruit successors. We believe 
that helping to institutionalize model community programs, which 
fulfill Federal commitments, is justified, especially where they are 
funded to support other local efforts.
    So we suggest that, as we examine how we accomplish conservation in 
this country, we should make note of and accommodate the flashes of 
community brilliance that occur to illuminate and fulfill a Federal 
conservation commitment. I believe one such situation is occurring in 
our Caddo Lake Ramsar Communities. This significant conservation effort 
can be continued as a model for our Nation and the world, especially if 
the vessel for institutionalization is the local vision; like our 
vision of ``a Woods Hole for wetlands,'' the Caddo Lake Wetlands 
Science Center.
    Thank you.
                               __________
   Statement of Leta Collord, Northeastern Nevada Stewardship Group, 
                                Elko, NV
    For the last 7 years I've been working on the very idea that brings 
us together at this meeting; that science needs to be better connected 
to, and used by, citizens and communities if its going to have much of 
an effect on solving the many challenges we face now and into the 
future. Much of my work has been with citizens and communities of place 
which, I believe, explains why I was invited to speak here today.
    To prepare for this presentation, I called a number of people with 
whom I've worked (or have otherwise come to know during those years) to 
get their views on this matter. Basically, I wanted to know whether or 
not science was being used by people and the community. And, if not, 
why? I also asked for their thoughts on what could be done to make 
science more widely understood and used by people and communities in 
the course of their making choices and decisions.
    Let me begin by sharing with you what people feel are the problems. 
Armed with that information, perhaps we can better understand how to 
proceed in the future. Keep in mind that the following views come from 
the West where the public lands play a much larger role in people's 
lives. Views from other areas of the country may be different from 
these.
    The following is a summary of what I heard:
    <bullet> When people hear about science, it's frequently in a 
negative context. Many people believe that science will only be used 
against them.
    <bullet> Negative stories concerning science often abound in the 
local culture (e.g., spending large sums of money studying ``useless'' 
things, using science and information to take away or diminish what 
they view as constitutional rights [private lands, grazing ``rights''], 
etc.).
    <bullet> People think that science is politically driven and 
nonobjective. There's always a purpose behind it that serves someone 
else's agenda, someone who doesn't live in their community.
    <bullet> Because of the polarity over environmental and land use 
issues in the last 30 years or so, that agenda is typically suspected 
to be an environmental one. Across much of the rural West, science is 
viewed as seldom, if ever, serving the well being of the local people. 
More often, it represents a threat to them.
    <bullet> There's a sense that all science and information are done 
to support authority and regulation, little if anything is done to help 
people understand and/or solve problems themselves.
    <bullet> Locals are highly suspicious of government initiated 
studies and surveys. They're particularly suspicious of remote sensing. 
These activities invigorate and give credibility to the ``black 
helicopter and one world government crowd.'' Misinformation flourishes 
when people are not well informed. Once it is in place it's very 
difficult to overcome.
    <bullet> Most locals see scientists as living in such ``different 
worlds'' that they can neither understand nor relate to the needs of 
average people.
    <bullet> Scientists tend not to involve people effectively as 
scientific findings and information are released. People generally 
learn the results from local/regional news services. The information is 
often met with suspicion, refuted, and labeled as ``bad science.''
    <bullet> Scientists come across as elitists. They're not in touch 
with the local people; they don't involve the locals; and they don't 
listen to their concerns or input.
    <bullet> People don't like to feel that scientists are there to 
educate them.
    <bullet> People don't see the different agencies of government 
working together. It's widely held that the BLM and FS don't use the 
same information, procedures, or policies for their science. Now, 
people don't see how the USGS fits into the picture, particularly 
concerning the ``biological sciences.''.
    <bullet> More and more, people go to sources other than government 
agencies for their science and information.
    I could go on, but I think this feedback paints a very clear 
picture of why ``they'' don't use ``our'' information? But the news 
isn't all bad. I also got some very encouraging feedback. Here are some 
examples:
    <bullet> I talked to a county commissioner in Idaho who thought 
that the Columbia River Ecosystem Management Project had been a failure 
because it was not a ``community-based project.'' However, when I asked 
him if he thought there was any good that came from that project his 
response was, ``Yes, the science. But for it to be applied it needs to 
be brought down to the community level and adapted to the local 
situation.''
    <bullet> A person in Elko, Nevada answered my question about 
science essentially this way, ``When people in a community are pulled 
together and empowered to solve natural resource problems they 
naturally begin to look for sources of expertise and information. If 
they think the information is objective and useful, they will use it.''
    This feedback tells me that under the right circumstance people 
view science as important and will make an effort to put it to use. So 
the question before us today perhaps should be thought of a little 
differently. Maybe we should be inquiring into what we can do to help 
foster a social environment at the community/citizen level that 
supports the application of science. In my view, we're faced with a 
social challenge, not a technical one.
    In effect, we should be looking for a new relationship between 
government, science, and citizens that supports stewardship by people, 
rather than looking for more regulatory and decisionmaking powers in 
government. The future can be much brighter if we learn to work with 
people. In fact, there are those who believe that the only way that 
many future problems can be effectively resolved is through people and 
community of place, that other course of action simply won't lead to 
sustainable solutions. I believe that. I think that many of you in 
attendance at this meeting do too.
    So, what would such an environment, or social setting, look like 
relative to science? Well, it might look something like this:
    <bullet> People would become actively and constructively involved 
in understanding science and its implications.
    <bullet> People would gain a sense of ownership and responsibility 
over science and information, especially that which is important to 
them locally.
    <bullet> People would apply science and information to solving 
problems and in making decisions and choices.
    Of these statements, the most important is the one containing the 
word ``ownership.'' If we could approach this interface of science and 
community in a way that resulted in people having a sense of ownership, 
the other outcomes would have an excellent chance of materializing, 
naturally so. I believe, that if people are to have ownership they must 
be ``empowered.'' I really think that it's as simple and, at the same 
time, as complex as that.
    When people feel dis-empowered, disenfranchise, or otherwise 
threatened, they have the choice of ignoring, refuting, or even 
demonizing the science that comes their way. Their power (at least 
within their own social circles) comes from doing just that. As one 
person told me, ``If the locals don't consider it important, it just 
isn't going to happen.'' I think that person is telling us that we can 
complete all the studies, assessments, reports, and decision support 
models we want. By themselves, these things are not going to really 
change anything. We need to work for the trust, understanding, 
ownership and responsibility of people if science is to be effectively 
applied on the ground.
    There is a process for creating such an environment. I call it 
``Community-based Stewardship.'' Now, there are lots of terms being 
thrown around these days, ``collaboration,'' ``partnerships,'' 
``collaborative stewardship,'' etc. What I'm talking about is a process 
of empowering people, particularly people in place based, or community, 
settings. It is not simply a process for getting people, or 
representatives of special interests, together to talk for the purpose 
of finding ``common ground.'' We're talking about a place-based, 
community-based, in fact, community-led process for stewarding 
landscapes, watershed, and ecosystems.
    It is local people living in a community construct who have the 
attachment to the surrounding landscapes needed for lasting, 
sustainable stewardship. My sociologists friends have convinced me that 
there is always a cultural setting that defines the interrelationship 
of people to land. That culture may not presently contain all the 
knowledge, or even the right land ethic, needed to steward the land in 
the greater interest of society, but all that can change through a 
process aimed at incorporating science into local knowledge and wisdom. 
That's our challenge.
    Imagine a future in which a majority of the community holds, 
practices, and teaches land and environmental ethics that are 
scientifically sound and inclusive of the larger interests of society. 
Imagine further that the role of government and scientists has largely 
shifted from regulation and formal decisionmaking to that of supporting 
citizen-based, citizen-led solutions to many environmental issues, at 
least those that lend themselves to solving at that level. In my mind, 
that's the future that we need to work toward. A fantasy? Perhaps, but 
I do see us moving in that direction.
    Given the space and support for doing so, the process I speak of 
seems to come together and evolve almost naturally. Although it doesn't 
readily lend itself to modeling or text book descriptions, the 
following diagram serves as a visual reference to help our discussions 
here today.
                      community-based stewardship
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The relationship between community and government, as implied by 
this model, primarily depends upon those agencies that have a local 
presence in the community, such as the U.S. Forest Service, the Bureau 
of Land Management, the National Park Service, or the Fish and Wildlife 
Service. Typically, a lot of front end work is needed between the 
community and these (and other) agencies to make community-based 
stewardship operational. It's not our purpose here today to talk about 
that relationship. However, I do want to again emphasize the importance 
of ``Trust and Empowerment.'' In my opinion, community-based 
stewardship cannot be made operational without these qualities of human 
interrelationships. Empowerment, in all its complexity and subtlety, 
also affects the role of science in this model, and certainly its 
effectiveness.
    So, let's see what the people I interviewed had to say concerning 
what needs to be done for science to become more effectively involved 
in the community. Here is some of what I heard:
    <bullet> We need to have scientists available to us; they need to 
demonstrate that they care about us and have a first hand knowledge of, 
and concern for, where we live.
    <bullet> Scientists need to be close enough, or available enough, 
to gain credibility. They need to be more than just someone who 
occasionally shows up to explain or present something.
    <bullet> Scientist need to be out on the ground and talking with 
people to gain credibility.
    <bullet> Scientist need to listen to us as well, learning is not a 
one way street.
    <bullet> Scientific information needs to be brought down to the 
local scale and communicated through local language and culture for it 
to be effective.
    <bullet> Scientists need to respect the local knowledge.
    <bullet> Before starting major surveys, work with local people to 
help them understand what's going on, and why. After that, stay 
involved with them. If ground truthing is needed, get the locals 
involved.
    <bullet> Similarly, get local people involved in monitoring; help 
them to feel that you and they are working with common purpose.
    In short, all this says to me that science needs to have a ``face 
put on it'' at the local level. If I may, I would like to leave you 
today with some recommendations on how to do that.
    1. Train scientists to work effectively in a community context 
(i.e., establishing credibility, gaining trust, and helping people to 
become more a part of the science that should be considered important 
to them and the area they live in).--Most people I interviewed 
indicated a need to have more local contact with scientists, not less. 
They want to bring that knowledge and expertise down to the local level 
and they want to feel that the scientists involved are truly concerned 
and knowledgeable about them or the area they live in. While there are 
ways of attaining these goals, they often are disallowed by agency and/
or professional protocol. Having key people regularly sitting in 
community gathering places, drinking coffee, and discussing matters of 
local interest is not often considered productive work. Nor is it 
viewed as a way of getting the ``important'' reportable work out. Yet, 
that may be exactly what is called for if we are to become effective as 
change agents on the ground, where, in my opinion, it counts the most. 
There is now training available on how to work effectively in a 
community setting. I would hope that in the near future the importance 
of this kind of work becomes better understood and accepted, and that a 
part of the work force becomes committed to working for trust and 
credibility at the local level.
    2. Staff the culture.--To be even more effective in gaining 
confidence and application of science at the local level, we should 
think about permanently locating scientists within communities and 
expect them to become active members of the community, both locally and 
more regionally. This is not without precedent. At least some, and 
perhaps most, of the scientist who came to USGS from different agencies 
to staff biological services remain in their former duty stations. In 
one such case that I'm familiar with, the scientist is well known and 
respected throughout the region she works. At the same time, I know 
this person to be deeply committed to the ecology of this particular 
area. Here is an example that appears to be meeting many of the 
conditions people are asking for. She is also proving that you do not 
have to compromise your values to be effective in this role. In fact, I 
believe the opposite is true; you lose respect if you do compromise 
yourself. Fairness, objectivity, and caring are, however, mandatory 
prerequisites.
    3. Form ``regional science teams'' and work toward establishing 
their regional credibility.--There are examples of regional science 
teams already in existence in various parts of the country. But, in my 
opinion, they're being formed mostly for the wrong reasons--typically 
to put the best possible science together to advise agency 
administrators and support formal, government-led decisionmaking 
processes. These are the very actions that people are telling us only 
promote suspicion and distrust for science from government sources. The 
idea that such teams could support community-based stewardship across 
the area they cover is mostly absent from the thinking behind their 
formation. The concept of local empowerment and trust is missing. 
Regional science teams, if set up to serve community-based stewardship, 
could be extremely effective in getting science applied on the ground. 
If oriented to gaining people's confidence and trust, and if 
effectively connected to communities as discussed above, they could 
become recognized sources of expertise and information for the region. 
This could grow to be even more true over time. As the county 
commissioner in Idaho said, ``Yes, the science is good, but if it's 
going to make a difference it needs to be brought down to the local 
level and delivered in a way that gains people's confidence.''
                               __________
         Statement of Larry Johnson, Nevada Bighorns Unlimited
                              introduction
    My name is Larry Johnson. I am an engineering geologist by 
profession. I am President of a geotechnical engineering and 
construction service consulting firm in Reno. While I serve on numerous 
professional boards and committees, my true love and life is in the 
Nevada outdoors. As such I have been a director of Nevada Bighorns 
Unlimited for the past 15 years.
    Nevada Bighorns Unlimited was founded in 1981 by a small group of 
Nevada sportsmen and conservationists. Since its beginning, NBU-Reno 
has grown into one of the most successful and respected, action-
oriented, non-profit organizations in the State of Nevada with a 
growing membership base of well over 3,500. NBU is an organization 
concerned with the conservation and management of not only Bighorn 
Sheep, but all of Nevada's wildlife. The organization's mission is to 
promote and enhance increasing populations of wildlife in Nevada, to 
fund programs for professional management and habitat improvements, and 
to protect the heritage of sportsmen and hunters. The organization is 
led by a rotating group of 16 volunteer Board Members dedicated to 
making a difference in Nevada's natural habitat. The membership is made 
up of primarily hunters, but also includes conservationists, 
outdoorsmen and wildlife lovers of all ages. NBU-Reno is striving to 
protect wildlife, habitat resources, and hunting rights through the use 
of game reintroduction programs, conservation activities, education, 
scientific research, legislative action, and honest hands-on labor. NBU 
holds only one major fund raising event each year. The annual banquet 
and auction attract well over 1,500 hunting enthusiasts and wildlife 
lovers from all over North America. The funds generated from this event 
are what enable NBU to accomplish their mission. We have invested 
millions of dollars into Nevada wildlife projects. Now more than ever, 
those who participate with NBU by donations, time, or participating as 
a member have a profound effect on the future of wildlife resources not 
only throughout Nevada but throughout the world as well.
                           wildlife projects
    Before the turn of the century, Bighorn Sheep were Nevada's most 
numerous big game animal. Emigrant journals documented Bighorn Sheep 
silhouetted against the sky on every rock pinnacle in the Truckee River 
canyon below present-day Reno.
    Historically, Nevada was the only area in the Nation to have three 
subspecies of Bighorn Sheep; the Rocky Mountain Bighorn, the California 
Bighorn, and the Desert Bighorn.
    By the turn of the century, however, Desert Bighorn populations had 
been drastically reduced while Rocky Mountain and California Bighorns 
had become completely extinct within the State. This virtual extinction 
was caused by a combination of market hunting, loss of habitat, and 
disease from the introduction of domestic sheep.
    NBU's mission to promote and enhance increasing populations of 
wildlife in Nevada, and to fund programs for professional management 
and habitat improvements was born out of the desire to put back what 
was lost. NBU's goals of protecting our heritage as sportsmen and 
hunters was inspired by a group of individuals who believe there is 
nothing more important than protecting our land and its wildlife.
    NBU is well known for transplanting big game animals back into 
their original habitat--animals including not only Bighorn Sheep, but 
also Elk, and Antelope.
    Today the Division of Wildlife, funded by groups like NBU has 
reintroduced these majestic animals back into their original habitat 
throughout the State.
    The future of big game in Nevada is extremely promising due to a 
high percentage of public land, and the fact Nevada has one of the most 
progressive Division's of Wildlife in the Nation.
    NBU, along with Federal Pittman Robinson matching funds, provides 
all funding for the Nevada Division of Wildlife's Big Game 
Reintroduction Program.
    A lengthy land management process which takes several years is 
necessary for a single reintroduction decision to be made. On average 
an original reintroduction consists of approximately 20 animals. Within 
5 years, another augmentation of a similar amount to the same area from 
a different gene pool is then reintroduced. This process will produce a 
huntable population of viable sheep within a decade.
    Bighorn Sheep when reintroduced into an ecological niche that was 
once their original habitat usually experience a population explosion.
    For the first time in modern history, the State is opening up the 
management areas for hunting each year.
    At this time, Bighorn Sheep have been reintroduced into over 50 
mountain ranges in Nevada. Though a tremendous come back by any 
measure, there is still work to be done.
    NBU's actions prove that true sportsmen are consummate 
conservationists. In their efforts to create a more balanced and 
healthy wildlife population in Nevada and beyond, generations of 
hunters and non-hunters alike will benefit for years to come.
                            habitat projects
    Not much more than a hundred years ago, Nevada's landscape was 
primarily that of grasslands and wooded mountains. This habitat 
supported grazers, including Elk, Antelope, and the three species of 
Bighorn Sheep.
    With the spread of mining and ranching came the deforestation of 
the mountains and the destruction of the grasslands. Sagebrush then 
took over as the primary vegetation. Many of the native big game 
animals became extinct in Nevada. Deer, never present in much of Nevada 
before, came to feed on sagebrush.
    The Federal grazing laws of 1932 put a stop to uncontrolled 
livestock grazing and true wildlife and habitat management practices 
began to be implemented.
    NBU supports Nevada's habitat with funding for a number of special 
restoration projects, as well as many volunteers donating hands-on 
labor for these projects. NBU's major habitat improvement programs take 
areas of poor quality and restore them to usable land which benefits 
all types of wildlife, including man.
Reseeding
    Range fires have devastated millions of acres of big game winter 
range and habitat over the years, significantly decreasing the animals' 
potential winter survival rates. Without the assistance of groups like 
NBU, reseeding efforts would not have been possible.
    If these areas had not been reseeded with sagebrush and other 
natural grasses, a noxious weed known as the cheatgrass would have 
taken over almost immediately, choking out all other forms of 
vegetation. Cheatgrass has no nutritional value. Deer have been known 
to literally starve with a belly full of cheatgrass.
    Timely donations from NBU and other organizations have aided in 
purchasing seed and private helicopter services to assist in the 
reseeding effort of critical range areas literally saving the lives of 
potentially thousands of animals.
Water Developments
    Water is often the limiting factor in the expansion of wildlife 
populations. Nevada's climate ranges from arid in the south to semi-
arid in the north, making access to a healthy water supply an even 
greater issue.
    NBU is involved with the U.S. Fish and Wildlife Service and the 
Fraternity for the Desert Bighorn's water projects in all facets of 
planning, design, funding, and construction of water development 
projects. This allows for expansion of habitable ranges for wildlife, 
including Desert Bighorn Sheep, California Bighorn Sheep, Antelope, 
Elk, Sage Grouse, Chukar, and a multitude of non-game species.
    Hundreds of these water development systems known as ``Guzzlers'' 
have been completed in Nevada over the past couple of years with great 
success. As a consequence, big game animals are not the only animals 
benefiting from these water developments. As anticipated, everything 
from Coyotes to Eagles to Bats have been sighted drinking from these 
guzzlers.
Eastern Nevada Landscape Restoration Project
    Nevada Bighorns Unlimited is involved in a successful collaborative 
partnership with the Eastern Nevada Landscape Coalition. The objective 
of the Coalition is to develop a consensus on the overall health of the 
Great Basin in eastern Nevada, and to implement actions to restore the 
health of the land. The Coalition is a partner with BLM's Ely Field 
Office as they implement the Eastern Nevada Landscape Restoration 
Project. The goal of this 10-million acre project is to restore and 
maintain the biological and ecological conditions of the Great Basin 
landscape in eastern Nevada through collaborative efforts.
    In order to maximize restoration capability and success while 
achieving mutual goals, approximately 75 independent, non-governmental 
partners including agricultural, conservation, cultural, environmental, 
universities, private enterprise and other interests have joined the 
Coalition to help the BLM implement decisions on public land. The 
centerpiece of the Eastern Nevada Landscape Restoration Project is the 
partnership between the Coalition and the BLM. Nevada Bighorns 
Unlimited has supported this project from its inception. Other partners 
include Rocky Mountain Elk Foundation, Mule Deer Foundation, University 
of Nevada at Reno, Nevada Cattlemen's Association, Nevada Woolgrowers 
Association, Society for Range Management, Red Rock Audubon Society, 
White Pine, Lincoln and Nye Counties, and others.
    Public involvement is expanded through landscape teams. These 
teams, comprised of agency staff and scientists from outside the BLM, 
will identify landscape goals, conduct landscape/watershed assessments, 
support NEPA compliance and plan amendments, develop site-specific 
objectives designed to meet established goals, develop and recommend 
actions designed to meet objectives, and monitor and evaluate 
implemented decisions. All of which will assist the Agency in its 
decisionmaking regarding appropriate restoration activities. All 
stakeholders, including academic researchers, educators, Native 
Americans, interest groups members, and interested citizens will have 
input and be a part of the process.
    Congress could help by adequately funding this project to 
facilitate the Coalition's involvement in restoring public lands in 
eastern Nevada. Second, Congress could adequately fund the Coalition's 
partnership activities to facilitate involvement by Coalition members 
and the public.
    Nevada Bighorns Unlimited has joined the Eastern Nevada Landscape 
Coalition to help the BLM restore healthy ecosystems in the Great 
Basin. Doing so will improve wildlife habitat, watershed stability, 
riparian areas, species diversity and composition, and Native American 
values.
Legislative Efforts
    Over the past several years, NBU has become more involved in 
legislative activities in order to further support the future of 
Nevada's wildlife. NBU was instrumental in organizing a sportsmen 
conservationist group, known as The Coalition for Nevada's Wildlife, 
which provides a unified voice for sportsmen in the legislature.
    The Coalition represents all types of sportsmen, including big 
game, waterfowl, upland game, fishing, trapping, houndsmen, rod & gun 
clubs and general conservationists.
    During legislative sessions, the Coalition allows rapid 
dissemination of information to each Coalition member group pertaining 
to relevant wildlife issues. Each group maintains its complete 
autonomy, but can join in with other groups on a statewide basis to 
provide real political clout. Through NBU's efforts, a number of 
important victories have been won in the Legislature.
    With continued support by groups like NBU and effective habitat 
management, the trend in Nevada today is a return to the grasslands of 
our past. This trend will assist in the State's augmentation efforts of 
big game animals across the State significantly.
                           education projects
    NBU faces the challenge of education head-on determined to win. 
Popular sentiment over the last several decades has not supported the 
hunter. From prime-time media to our children's teachers, the true 
picture of hunters and their impact on the environment has been 
distorted.
    NBU fully believes that without educating our youth with the facts 
and merits of hunting, sportsmanship, wildlife management and 
conservation, the results of our other endeavors will be of little or 
no benefit to the future of wildlife in our State.
    To this end, there are several programs funded and supported by NBU 
that merit mention.
Jim Lathrop Memorial Scholarship Fund
    This scholarship fund was created by NBU in honor of NBU's founder, 
the late Jim Lathrop. The fund represents a cooperative effort 
involving NBU, the Nevada Division of Wildlife and the University of 
Nevada. It was set up for post graduate study in the fields of biology 
and wildlife management and has been extended to include funding of 
summer internships for selected individuals majoring in wildlife 
management and has been extended to include funding of summer 
internships for selected individuals majoring in wildlife management. 
The objective of these studies will be further understanding and 
development of big game populations and habitat enhancement within our 
State.
Wild Outdoor World Magazine
    Nevada Bighorns Unlimited has formed a partnership with the Rocky 
Mountain Elk Foundation and the Nevada Division of Wildlife to publish 
a wildlife magazine targeting 4th graders throughout Nevada. The 
magazine is published in full color five times annually and is 
distributed in elementary schools throughout the State. (A copy is 
attached for review.)
    We are limited by budget constraints in reaching all fourth graders 
statewide, even though teachers and students enthusiastically request 
increased circulation.
                                research
    NBU-generated dollars have assisted in the funding of several 
important research programs conducted by several distinguished 
institutions such as the University of California at Davis, The Caine 
Veterinary, Teaching and Research Center in Idaho, and Washington State 
University.
    The most recent research project is being conducted by Washington 
State University under the direction of Dr. William Foreyt. The most 
important element of this research program has been the establishment 
of evidence outlining the devastating consequences upon wild sheep 
herds caused by interaction between Bighorn Sheep and domestic sheep.
    It is believed the main reason for Bighorn Sheep extinction 
throughout their original habitat is due to pneumonia contracted from a 
bacteria transmitted from domestic sheep herds.
    NBU is a firm believer in the multiple use of public lands. They 
recognize the rights of domestic sheep operators to graze on these 
lands.
    It is NBU's goal in funding this research to find the causes and 
cures for these transmitted diseases so that domestic and wild sheep 
can coexist.
    Funding provided by Nevada Bighorns Unlimited to Dr. Foreyt and Dr. 
Ron Silflow has greatly assisted in their efforts to develop a 
laboratory test to determine the potency of the bacteria responsible 
for causing pneumonia in wild sheep.
    This test serves as the tool for discriminating between potentially 
dangerous and relatively harmless isolates of the bacteria. The test 
can now be applied to practical issues of Bighorn Sheep management and 
health maintenance. These developments pioneered in the study of 
bacterial organisms in Bighorn and domestic species can be immediately 
applied to other wildlife species such as Deer, Elk and Dali sheep.
    The information gained from NBU funded research is already having 
an impact on policymaking decisions regarding the shared land use of 
Bighorn and domestic sheep.
    The research promises to contribute valuable information to 
facilitate management decisions regarding the transplantation of 
Bighorn Sheep populations. NBU expects management applications 
facilitated by this research tool will have a positive impact on the 
maintenance of healthy, flourishing wild sheep populations in future 
years, and assist in understanding and management of wildlife 
everywhere.
    NBU's commitment to promote and enhance increasing populations of 
indigenous wildlife in Nevada will continue to be extended to those 
dedicated to increasing the knowledge and understanding of our 
wildlife.
                         project funding needs
    Nevada Bighorns Unlimited receives funding requests for a wide 
variety of wildlife, habitat, education, and research projects from a 
wide variety of schools, universities, State and Federal agencies. We 
are continually involved in programs such as:
    <bullet> Big game, fishery, and game bird reintroductions;
    <bullet> Green stripping (protection) of existing habitat form 
wildlife;
    <bullet> Noxious weed control;
    <bullet> Habitat Restoration;
    <bullet> Wild Horse Management (see attachment)
    <bullet> Water Development in Desert Habitats;
    <bullet> Education; and
    <bullet> Research.
    Many badly needed projects cannot be implemented primarily due to 
funding short falls. NBU would like to fund a full-time water 
development crew, big game transport units, aerial wildlife survey 
equipment, and GPS telemetry tracking systems for the Nevada Division 
of Wildlife, reseeding, green stripping, and water development projects 
for the Bureau of Land Management, as well as Sage Grouse research 
programs with the U.S. Fish and Wildlife Service.
    Additional and a continual source of funding would greatly assist 
in our goals--the enhancement of wildlife resources throughout the 
State.
                                 ______
                                 

                               ATTACHMENT

             Bureau of Land Management Update.--March 2000
                subject: wild horse and burro management
    The Wild Free-Roaming Horse and Burro Act of 1971, as amended, 
provides for the protection and management of wild horses and burros 
(WH&B) to assure a thriving, natural ecological balance and multiple-
use relationship on the range. The Bureau of Land Management (BLM) is 
responsible for implementing this Act by assuring healthy, viable WH&B 
populations within herd management areas (HMAs) at appropriate 
management levels (AML), and through appropriate placement of excess 
animals.
                             issue summary
    ``Restoration of Threatened Watersheds'' is a vital initiative 
within the Presidents fiscal year 2001 budget for the BLM and includes 
a comprehensive strategy for achieving AML on all HMAs. This strategy 
is necessary to counter one of the major threats to watershed health 
and dependent resources that excess WH&B populations pose to the land's 
carrying capacity. Currently WH&B populations are 85 percent over the 
BLM's estimated AML. Attaining AML on HMAs is the most critical need of 
the WH&B program. With current funding, the BLM is unable to remove 
sufficient animals to make progress toward AML or even to maintain a 
static population.
                               background
    Wild horse and burro populations are exceeding AML on 159 of 192 
HMAs. Populations are increasing at approximately 18 to 20 percent per 
year. For all HMAs the BLM estimates the overall established FAIL at 
27,379 animals. At the end of fiscal year 2000, the BLM projects the 
population will be 50,631 animals, or 23,252 animals over AML. WH&B 
populations are exceeding the capability of the land to support them. 
If the BLM does not reduce populations. irreparable damage will occur 
to riparian zones and watersheds, water quality, threatened and 
endangered species such Is the Lahontan cutthroat trout and Desert 
tortoise, and special status species such as Sage grouse. In addition, 
degradation of native vegetation communities will accelerate the 
establishment and spread of invasive weeds. If the BLM does not manage 
WH&B herds within AML, the agency could face numerous lawsuits from a 
variety of interest groups. resulting in court management of natural 
resources.
    The fiscal year 2001 budget proposal of $29,447,000, which includes 
a $9 million increase to base funding and 172 FTE (+5 FTE), will allow 
the BLM to implement a strategy to bring all HMAs to AML in 4 years. 
The strategy will require the BLM to remove 12,855 animals from HMAs 
(an increase of 6,855 animals) in the first year, dropping to 4,500 
animals by the sixth year and remaining at that level. The strategy 
will allow the BLM to improve its marketing of animals and events; will 
allow the agency to implement techniques to enhance the adoption 
prospects of older animals; and will enable the agency to provide long-
term care and holding (pasturing) for the oldest, least adoptable 
animals. With consistent funding through fiscal year 2005, the BLM can 
achieve AML on all HMAs. In fiscal year 2006 and beyond, the BLM will 
need to gather and adopt only 4,500 animals annually, which is below 
the current and anticipated long-term adoption demand. The savings from 
reduced gathers, holding and adoption costs will greatly offset the 
increased cost of long-term care and holding. As the number of animals 
in long-term caring and holding declines through natural attrition and 
adoptions, the BLM will realize lower costs for maintaining ``a 
thriving. natural ecological balance and multiple-use relationship on 
the range''.
                                contact
    Lee Delaney, BLM Group Manager for Wild Horse and Burro Management 
(202) 452-7744.
    Bud Cribley, BLM Senior Wild Horse and Burro Specialist (202) 452-
5073.
                                 ______
                                 
    Bureau of Land Management--National Wild Horse and Burro Program
The ``Restoration of Threatened Watersheds'' Initiative--Living Legends 
                       in Balance with the Land.
  A Strategy to Achieve Healthy Rangelands and Viable Herds--A Fiscal 
                Year 2001 Presidential Budget Initiative
    One of the major threat to watershed health is an overabundance of 
wild horses and burros on rangelands. During fiscal year 1999 BLM 
completed a comprehensive program capability and population modeling 
analysis. This analysis revealed that at current funding capability and 
adoption demand, WH&B populations will increase at a rate faster than 
our ability to remove excess animals.
                           population status
    Projected populations for fiscal year 2001 is 50,631 animals;
      <bullet> 23,252 animals over Appropriate Management Level (AML) 
of 27,379;
    159 of 192 Herd Management Areas (HMA) are over AML;
    Reproducing at 18-20 percent per year; 9,475 animals in the year 
2000.
                     impacts of current management
    Overpopulation leads to increased negative impacts on watershed 
health, habitat of the herds, and dependent resources and uses, 
specifically:
      <bullet> LSeverely damages upland vegetation and riparian areas 
critical to wild horse and burro herd health;
      <bullet> Significantly diminishes water quality and watershed 
stability;
      <bullet> LContributes to potential listing of threatened species 
(i.e. sage grouse) and jeopardizes the recovery of listed species, 
(i.e. Lahontan Cutthroat Trout);
      <bullet> LIncreases the threat to other Special Status Species;
      <bullet> LThreatens wildlife viability by creating unhealthy 
competition for limited forage;
      <bullet> LIncreases the likelihood of exotic invasive weed 
species becoming established;
      <bullet> LMagnifies existing conflicts with public land users 
(recreation, cultural, livestock); potentially displacing these uses 
and leading to litigation by such groups;
      <bullet> LLitigation could cause the Courts to redirect BLM's 
budget to resolve the issue.
 attaining aml on all of blm's hma's is the most critical need of the 
                                program
    Faced with this critical need and acting on recommendations from 
the WH&B Advisory Board, BLM modeled several management scenarios for 
achieving AML to determine shortest timeframes and highest cost 
effectiveness.
Current Management
    <bullet> Current funding is only adequate to remove and adopt 6,000 
animals/year.
    <bullet> Current funding does not allow for achieving AML or 
maintaining a static population.
    <bullet> Projected populations in 2010 will be 126,380 animals on 
the range.
      <bullet> 99,001 animals over AML (462 percent over AML).
    <bullet> The Adopt-A-Horse or Burro Program is the only accepted 
tool for dealing with excess animals.
    <bullet> Adopting only wild horses 5 years and younger to maximize 
adoptions.
    <bullet> Fertility control research is ongoing, however, no 
widespread usage for several years.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Current Management Without Budget Limitations
     BLM's current management (only wild horses 5 years and younger 
removed) without budget limitations does not achieve AML within a 10-
year planning period.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

BLM's Strategy
    <bullet> Establishes a 4-year gather schedule for all HMAs 
beginning in fiscal year 2001.
    <bullet> Reduce all HMA's to AML by removing with no age 
restrictions.
    <bullet> Remove 12,855 animals in first year dropping to 4,500 by 
sixth year and remaining at that level.
    <bullet> Requires a funding increase of $9,000,000/year over 
current funding levels sustained through 2005.
    <bullet> Enhance marketing of animals and adoption events.
    <bullet> Train and geld wild horses otherwise difficult to adopt.
    <bullet> Place unadaptable wild horses in long term holding 
(pasturing).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                benefits
    <bullet> Significantly contributes to the improvement of watershed 
health.
    <bullet> Contributes to healthy, viable herds on all HMAs.
    <bullet> Balances wild horse and burro populations with the 
capability of the land.
    <bullet> Achieves AML in the shortest amount of time (4 years).
    <bullet> Removing fewer animals annually:
      <bullet> Equals fewer animals in the adoption system;
      <bullet> Reduces stress on the animals left on the range.
    <bullet> Decreased removal numbers equals significant cost savings 
and is the most cost effective over a 10-year period.
    <bullet> Reduces resource conflicts and thus potential litigation.
    <bullet> Reaching AML on all HMAs in 4 years allows for achieving 
``a thriving natural ecological balance'' as required by the Wild Free-
Roaming Horse and Burro Act thus achieving: Living Legends in Balance 
with the Land.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                          Nevada Wildlife Federation, Inc.,
                                          Reno, NV, April 10, 2001.
Hon. Bob Smith, Chairman,
Hon. Harry Reid,
Committee on Environment and Public Works,
U.S. Senate,
Washington, DC.
    Dear Senators and committee members: Good afternoon and I wish to 
welcome you to Nevada on behalf of the Nevada Wildlife Federation 
(NvWF). I am Elsie Dupree, president of this organization.
    NvWF was founded over 50 years ago by dedicated sportsmen that 
wanted to work on wildlife and wildlife habitat. Our membership 
consists of affiliate clubs and members. We have nearly 10,000 members.
    The public domain lands in Nevada are habitat to many unique plants 
and animals. We are very concerned about this habitat. I asked for 
comments from affiliates and members for this testimony.
    The general concern of all was the lack of funding to take care of 
the land. Nevada could use funding to help with long term projects to 
include:
    Flood protection along our few rivers to protect habitat. Water 
quality needs improvement as we remove mercury, arsenic and other 
pollutants.
    Water issues are a concern on the Stillwater Refuge, and Lahontan 
Valley wetlands here in the North. There is a severe shortage of water 
to maintain the wetlands. Invasions of noxious weeds in the riparian 
areas are stealing valuable water. In the southern part of the State, 
the Multi Species Conservation Plan (MSCP) will need funding to 
continue the goals of recovery efforts for fish species such as the 
bonytail chub and the razorback sucker. (see attachment one)
    Walker Lake is an unique situation where the water coming to the 
lake is allocated at 130 percent for irrigation. There is a need for 
money for willing sellers to give water rights to the lake. Right now 
our Division of Wildlife owns a small amount of water rights that in 
dry years does not even reach the lake. This desert lake will die and 
the waters where migratory birds rest will not support them with food.
    The Great Basin Initiative is a good start for noxious weed 
control. There need to be many educational seminars to educate the 
public on the weeds and how to control them. Our State needs to be 
fully involved in this problem with funding.
    Several affiliates commented on the lack of funding for control of 
the wild horses in our State. The herd populations are high and there 
is little to no money to bring the herds to the set limits of control. 
We see damage to the habitat from overgrazing in wildlife areas. Now 
that we are in a dry year there is even more damage. We do not have the 
man power to do the monitoring and repair work. Some of the range 
workers in our Federal agencies cover more land in a year then what is 
in some States in the East. It is impossible to do a good job with this 
much territory. Our Federal agencies need budgets increased to meet 
this problem. State agencies need funding for wildlife habitat 
improvements. There needs to be grants for conservation groups to help 
out on projects.
    Other affiliates are concerned with the lack of funding to do the 
proper studies. We need BEST SCIENCE to take the lead in wildlife 
issues. There needs to be monitoring, research, and studies to show 
that the program will work or has worked. Often funds dry up before 
this is done.
    Education is vital. The NvWF is using time and money to work with 
our North West Sage Grouse Working Group for this purpose. We have 
members from all walks of life making a slide show and pamphlet to 
educate the public and the agriculture industry on just what a sage 
grouse needs to survive and stop the declining trends. Our Governor has 
a statewide committee working on Conservation Plans to help stop the 
decline of sage grouse in our State and we fully support his efforts. 
(See attachment two.)
    Other educational programs by NvWF include our annual wildlife 
poster contest for school age children and Backyard Habitats for those 
wanting to help provide habitat for wildlife close to home. Our 
affiliate, the Truckee River Flyfishers started a trout in the class 
room program where grade school children raise trout fry in the class 
room and then put them in the river. Ann Privrasky got this program 
established so well that our Division of Wildlife is going to try to 
get this program in every grade school in the State.
    Education can be as simple as having our city, county, State and 
Federal offices remember we live in a desert State and they should 
landscape their areas with desert landscaping instead of green lawns 
and other high water usage plants. This would educate the public also. 
In summary, our State needs guaranteed funding so we can do long term 
planning and repair the damage to the land.
    The Pittman-Robertson and Dingell Johnson Funds were so successful 
in funding State agencies to administrate wildlife programs that some 
States and other local governments have never developed other funding 
sources to manage wildlife programs. A guaranteed CARA type fund would 
greatly enhance these programs. (see attachment three)
    I thank you for your time and the chance to share some information 
about Nevada. I will gladly try to answer any questions you may have.
                                              Elsie Dupree,
                                                         President.
                                 ______
                                 
                              ATTACHMENT 1
Subject: CARA Info
Date: Wed. 04 Apr 2001 23:18:58-0400
From: Myra Wilensky <Wilensky@nwf.org>
To: <dpree@pyramid.net>

    Hi Elsie,
    First, the wildlife title should include a specific amount. The 
proposed $350 million in H.R. 701 for State fish and wildlife agencies 
is a must.
    A river and So. NV example you could use in your written testimony 
is the following:
    The second title could be used to provide funding for species 
recovery activities under habitat conservation plans such as the Lower 
CO Multi Species Conservation Plan. The MSCP is making a commitment to 
continue the recovery efforts of threatened and endangered species 
above the efforts mandated by the Endangered Species Act. While the 
States and private entities are providing a substantial amount of 
funding, funding under a species recovery agreement could further the 
goals of recovery efforts for such fish species as the bonytail chub, 
humpback chub, and the razorback sucker.
    Funding under this title could be used to encourage species 
restoration efforts while eradicating invasive species. The Lower CO 
MSCP is encouraging the restoration of native species such as the 
cottonwood willow while controlling such invasive species as tamarisk 
and salt cedar.
    I hope this is helpful. Good luck!
                                                      Myra.
                                 ______
                                 
                              ATTACHMENT 2
Subject: Sage Grouse Article
Date: Thu. 5 Apr 2001 11:00:08-0700
From: Julie Dudley
To: The Duprees
   Nevada Wildlife Federation Works on Sage Grouse Booklet & Public 
                          Involvement Campaign
  (By Julie Dudley, Chair of Nevada Wildlife Federation's Endangered 
                           Species Alliance)
                               background
    Sage grouse are the ``Ambassadors'' of the sagebrush ecosystem, 
spanning parts of California, Idaho, Oregon, Nevada and Utah. According 
to a Jan. 29, 2001 article in the Bozeman Daily Chronicle, sage grouse 
once numbered 2 million, but today they are estimated at a mere 
``140,000 birds.'' During the past few years, scientists have noted a 
30 percent decline in sage grouse numbers, and in some places, 80 
percent.
    There are many reasons for the decline in sage grouse numbers and 
no easy solution.
    Because sage grouse are suffering from extensive loss of sagebrush 
habitat, the drop in their population is more than worrisome. To many 
it indicates the beginning of the collapse of the entire sagebrush 
ecosystem.
    In early 2000, the Nevada Wildlife Federation (NvWF) formed the 
Northwest Nevada Sage Grouse Working Group (NWNVSGWG) to begin 
discussing the sage grouse problem at monthly meetings in Reno and 
Carson City. This group's mission is to advocate improvement of habitat 
for sage grouse and other wildlife dependent on the sagebrush ecosystem 
in Northwest Nevada.
    Former Nevada Wildlife Federation President, Gale Dupree, is chair 
of the NWNVSGWG and I am the vice chair. The NWNVSGWG has three goals:
    1. To educate ourselves about a healthy sagebrush ecosystem and 
sage grouse habitat requirements.
    2. To insist State and Federal agencies immediately develop and 
implement sage grouse conservation plans.
    3. To build public involvement and support among Nevadans about the 
urgency of improving the sagebrush ecosystem and sage grouse habitat 
requirements, including operating a Web site with information on sage 
grouse conservation needs.
    Based on scientific research conducted throughout the West, there 
are many reasons for the loss of sagebrush, and thus the decline in 
sage grouse. These reasons are one or a combination of the following:
    <bullet> Invasion of annual, non-native plant species like 
cheatgrass;
    <bullet> Increased fire frequency followed by weed invasions;
    <bullet> Brush control followed by seeding of non-native grass 
species;
    <bullet> Invasion of pinyon and juniper woodlands into shrub 
communities;
    <bullet> Conversion to agriculture;
    <bullet> Various livestock management practices;
    <bullet> Habitat fragmentation due to power lines, fences, roads 
and urbanization.
    Because of the sage grouse's potential listing under the Endangered 
Species Act (ESA), comparisons are being drawn between the grouse and 
the spotted owl controversy (``The Next Spotted Owl,'' Audubon, Nov/Dec 
2000) which divided communities in the Pacific Northwest. If the sage 
grouse is listed under the ESA, much larger areas of the West will be 
affected than those in the spotted owl controversy. Many Nevadans would 
like to take positive, preliminary steps to avoid the heated 
polarization displayed during the spotted owl controversy.
    The NNNVSGWG is seeking funding to accomplish one such project by 
answering Nevada private landowners' question: ``what can we do to 
restore sage grouse populations?'' The Sage Grouse Booklet and Public 
Involvement Campaign will provide the answers to this question by 
giving private landowners information about seasonal sage grouse 
habitats and ways to make conditions more conducive for the birds.
    Based on shared information at NWNVSGWG meetings, the Nevada Farm 
Bureau and Society for Range Management are helping make this project a 
success. Conservation groups are also well-represented at the working 
group meetings with members of the Sierra Club, Friends of Nevada 
Wilderness, American Lands Alliance and Lahontan Audubon Society 
attending, plus many State and Federal agency contacts.
    The Sage Grouse Booklet and Public Involvement Campaign aims to 
print an informational booklet based on science distributed to Nevada 
private landowners recommending steps to enhance sage grouse habitat. 
Second-tier audiences include the media, State and Federal agency 
scientists, county commissioners, State and Federal legislators and the 
general public.
    Accompanying the printing and distribution of the booklet is a 
public involvement campaign that includes press releases, media 
relations, ad placements, flyers and a special sage grouse Web page 
added to the current NVWF site at www.nvwf.org.
    If you would like more information about this project, or would 
like to attend a NWNVSGWG meeting, please call Julie Dudley, at (775) 
323-4500 or Gale Dupree at (775) 885-0405.
                                 ______
                                 
                              ATTACHMENT 3
Subject: Testimony thoughts
Date: Thu, 05 Apr 2001 18:35:43-0700
From: Leontine Nappe
To: Elsie Dupree

    Elsie, I have been all day on a Black Rock NCA RAC meeting and will 
be going out shortly for the evening.
    So . . . here are my thoughts.
    The Pittman-Robertson and Dingell Johnson funds were so successful 
in funding State agencies to administer wildlife programs that States 
and local governments have never developed other funding sources to 
manage wildlife programs. Without PR and DJ funds, the States, at this 
time, would have no wildlife program. With all the other commitments, 
States have made, they are unable or unwilling to step up to the plate 
now to fund wildlife programs. The PR and DJ funds primarily administer 
the agencies, some research and contribute to purchase of key lands and 
water.
    Because of Federal lands in the West, lakes, reservoirs, and 
streams, DJ and PR funds have not had to stretch to purchase habitat. 
Many wildlife management areas and National Wildlife Refuges were 
created to exist on drain or excess water from irrigation projects. As 
we know now, ``waste'' or drain water is a disappearing commodity and 
too late wildlife agencies both State and Federal must purchase water 
to support these lands.
    Belatedly, some States have through bonding issues started to 
invest in land and water purchases or capitol improvements. The State 
of Nevada has had parks and wildlife bonds in 1973 and 1990; a bill has 
been introduced for another park and wildlife bond. Some counties have 
also invested in open space through bonds. Washoe County recently 
passed a $38,000,000 bond; however, parks for recreational development 
were the primary expenditures.
    The success of Pittman-Robertson and Dingell Johnson is also a 
shortcoming. Although States are responsible for managing all wildlife 
within the States, wildlife agencies spend virtually all of their funds 
managing game species. Nongame species management is limited.
    Federal lands once so vacant and available for wildlife are now 
becoming filled with receptionists, utility and transportation 
corridors, energy development, and other uses. Growing populations will 
require Federal lands and tap agricultural water on both private and 
Federal lands.
    If we are to sustain wildlife populations, then States must expand 
their responsibilities to managing wildlife species. All species of 
wildlife dependent on wetland and riparian areas will require more 
knowledge of their habitats and distribution, more education of the 
public and more law enforcement. State wildlife agencies are well 
equipped to handle these new tasks. Many, like the Division of 
Wildlife, have with minimal State funding provided limited nongame 
programs since 1970.
    Some of the species which could benefit from these funds are: the 
long billed curlew which is declining. Development and maintenance of 
habitat for sandhill cranes. Creation and preservation of wetlands for 
both waterfowl and shorebirds.
    The Spring Mountains in southern Nevada host endemic mammals whose 
distribution and habitat needs must be incorporated into an area 
increasingly popular for recreation.
    The Division of Wildlife could build Nature trails, and 
interpretive centers, in existing areas and provide additional 
education programs for schools. The Division of Wildlife could work 
more closely with local government and Federal agencies, for instances, 
to identify critical habitat for nongame species and to develop 
programs to minimize impact on the habitat.
    While nongame is important in this legislation, I would like to 
point out that in the sage grouse potential listing has made us aware 
that ecosystem protection is important. CARA funds could be blended 
with game funds to build comprehensive programs. The bear in Nevada is 
not a game species but is a species which is requiring more time and 
commitment because people are encroaching on its habitat.

                                                Tina Nappe.
                               __________
        Statement of Terry R. Crawforth, Administrator, Nevada 
                          Division of Wildlife
    Good afternoon. I am Terry Crawforth, Administrator of the Nevada 
Division of Wildlife. I would like to thank the Senate Committee on 
Environment and Public Works for conducting these investigations into 
wildlife conservation needs and inviting me to share our perspectives 
on wildlife conservation and management in Nevada.
    As the seventh largest State in land mass, Nevada's extensive 
wildlands support a broad and diverse assemblage of plant and animal 
communities. This diversity of wildlife and habitats is amplified by 
the geographic and climatic character of the Great Basin in the north 
and Mohave Desert in the South. Also, because Nevada is the driest 
State, water is even more critical to wildlife distribution and 
abundance. A wide variety of topographic features from low river 
valleys to 13,000 foot alpine peaks offers habitat to Nevada's 
wildlife, resulting in an astounding ecological diversity.
    Managing this broadly diverse assemblage of animals and plants 
presents many unique and formidable challenges. While some species such 
as mule deer and rainbow trout have broad distributions across Nevada, 
other species such as the Palmers chipmunk and the Amargosa toad exist 
only in very localized landscapes. All are worthy of attention, though, 
and therein lies the management challenge to the Division. As the 
smallest wildlife agency in the Nation, the Nevada Division of Wildlife 
is constantly faced with the difficult task of allocating limited 
resources to the preservation, protection, management and restoration 
of all elements of this vast and diverse wildlife resource.
    The prioritization of management activities by the Division has 
historically been largely a function of economics. The wildlife 
receiving primary emphasis in Division management programs are those 
species for which there is a consistent and adequate funding source. 
For years hunters and fishermen who support the Pittman-Robertson 
Wildlife Restoration Act and the Dingell-Johnson Sportfish Restoration 
Act by paying excise taxes on hunting and fishing equipment have paid 
for the majority of wildlife management programs in Nevada. In 
addition, the matching funds required to capture these trust funds are 
provided by these same sportsmen in the form of license and tag fees. 
Hence, the wildlife species that have for years received priority 
funding are those that are hunted and fished.
    These extensive management programs funded by Nevada's sportsmen 
can boast significant success in the conservation of wildlife in the 
State. The big game management program in Nevada is second to none. 
Trapping and transplant projects for species such as bighorn sheep, 
antelope and elk have resulted in record animal numbers and 
distributions throughout the State. The variety and abundance of fish 
species available to anglers is impressive. Upland game species 
including exotics such as the chukar partridge are pervasive. Nevada is 
renowned in the West as a high quality hunting and fishing destination. 
It is obvious that consistently funded, collaborative programs can 
represent Nevada wildlife well.
    It is important to note, however, that though management efforts 
have been concentrated on sport wildlife, those species typically not 
hunted or fished have not been summarily ignored. Good habitat 
management fostered by successful game and sport fish programs 
ultimately benefits all wildlife species. In addition, consistent, 
albeit small, non-sportsman funded annual appropriations are dedicated 
to non-hunted or fished species.
    But we have been aware for some time that those species which do 
not receive program emphasis because they lack dedicated funding 
deserve more than they are getting from project ``spin-off'' or 
residual funding. While our history of successful management of game 
wildlife and protection of habitat provides a good model for the 
conservation of Nevada's ``other wildlife,'' these species that are not 
sought for sport or recreational purposes deserve more. Reliance on 
reactionary and often ``last ditch'' tools such as the Endangered 
Species Act is not productive. We see a profound need to be proactive 
in the management of all Nevada wildlife.
    What is essential for Nevada's wildlife diversity is sustained 
funding to apply to already proven management techniques. Some recent 
congressional appropriations will help when they eventually reach us, 
but we need long-term legislation that provides an uninterrupted flow 
of funds for Nevada's ``other wildlife''. We came close to this goal 
with the near passage of title III of the Conservation and Reinvestment 
Act in the 106th Congress, which would have provided consistent and 
sustained funding for non game wildlife conservation. Nevada's ``other 
wildlife'' deserves this degree of attention.
    Senator Reid, I have always appreciated your dedication to the 
wildlife resources of our beautiful State. I applaud your present 
efforts to make a consistent and adequate funding source for Nevada's 
``other wildlife'' a reality. I pledge my agency's support in this 
endeavor. Securing a reliable funding source for Nevada's ``other 
wildlife,'' when combined with Pittman-Robertson and Wallop-Breaux 
funds that exist for game wildlife and sport fish would put a third leg 
on the conservation stool and better balance Nevada's wildlife 
conservation effort.
    Thank you.
                               __________
Statement of Gary Graham, Director, Wildlife Division, Texas Parks and 
                        Wildlife, Austin, Texas
                               background
    Texas is possibly the most unique State in the continental United 
States. We have more species and habitats than all other States, except 
perhaps California. However, unlike California, 97 percent of the land 
and habitat in Texas is privately owned, which provides unique 
conservation opportunities and challenges. The diversity of people and 
perspectives in Texas is also impressive and healthy. Texas Parks and 
Wildlife serves this diversity by promoting the conservation of all 
wildlife, including over 1,000 species of nongame and rare wildlife, as 
well providing conservation assistance to people interested in these 
species. The funding provided by the Title III of CARA would go 
directly to TPW, enhancing its ability to manage all of the State's 
wildlife.
    For Texas, the stakes are huge. By keeping common species common, 
adding species to lists of endangered species will be uncommon. This is 
particularly important in Texas with so many species and so much 
private land. Wildlife-watching, hunting, fishing and other wildlife-
related recreation in Texas generated about $6.7 billion in direct 
spending in 1996. Healthy landscapes and wildlife populations are vital 
to both of these important issues.
                            accomplishments
    Texas has several well-established programs targeting nongame 
wildlife, including one of the largest wildlife diversity programs in 
the country, as well as an extensive resource protection division that 
has responsibility for monitoring and protecting wildlife habitat in 
Texas, particularly aquatic habitats.
    Overall, Texas Parks and Wildlife spends over $10 million a year in 
these areas, out of a total agency budget of $250 million. In addition, 
we spend about $21 million on game and general wildlife management, $20 
million on fisheries management, nearly $40 million on law enforcement 
and about $8 million on communication and education activities.
    Over the past 10 years, Texas Parks and Wildlife has made major 
additions to its private lands assistance program (technical guidance 
staff) as well as creating and staffing new urban and nature tourism 
programs. But with a State as big as Texas, even this isn't enough. 
Even $10 million a year doesn't go far in a State with over 267,000 
square miles of land, 80,000 miles of rivers and streams, 254 counties, 
20 million citizens and 1,200 species of vertebrate wildlife.
    Still, we have seen some tremendous success stories, such as our 
Landowner 
Incentive Program (LIP), the first program in the country that offers 
financial assistance to landowners who wish to manage for rare and 
endangered species and habitats. The LIP program stimulates 
conservation by recognizing and rewarding landowners who are willing to 
manage their land for rare species, using a voluntary, incentive-based 
approach. While many landowners are already willing to manage their 
land for wildlife without financial reward, there are times when a 
little advice and startup funding is all it takes. Over the past 4 
years, Texas Parks and Wildlife has spent nearly $1 million on 45 
projects affecting 46,000 acres of habitat, matched by $425,000 in 
outside funds.
    Concurrently, we have increased our technical guidance program to 
20 biologists. These biologists assist landowners in developing LIP 
projects, as well as providing general wildlife management advice. In 
their work with landowners, our technical guidance biologists have 
developed wildlife management plans for 12.6 million acres, promoting a 
habitat-focused conservation approach that works for wildlife as well 
as for private landowners.
    We also aggressively use nature tourism and Watchable-wildlife 
projects as incentives for conservation through economic development. 
We have seen this approach work particularly well along the Gulf Coast 
and in South Texas, which now have a national reputation as bird-
watching destinations. Each April, birdwatchers in Texas can see over 
300 of the 600 species of birds that occur in the State. Texas Parks 
and Wildlife has been a leader in working with landowners and 
communities, showing them that the bird habitat they provide can return 
them direct economic benefits. And once people accept that nature 
tourism is part of their business, it's easy to convince them that they 
need to maintain the habitat their business depends upon.
    We have already established and marketed the Great Texas Coastal 
Birding Trail, producing maps that identify over 300 premiere bird-
watching sites on the Gulf Coast in cooperation with over 100 
communities, as well as cost-sharing site improvements with those 
communities. And we are following up with plans for the Great Texas 
Wildlife Trail in central Texas and the Panhandle.
    We have taken this nature tourism model a step further by proposing 
a new complex of visitor and education centers, called the World 
Birding Center, in the Lower Rio Grande Valley. The Lower Rio Grande 
Valley is one of the most economically challenged areas in the 
country--4 of the counties there are among the poorest counties in the 
United States. But bird watching has become a big business in the 
Valley, generating nearly $100 million a year in tourism income. The 
World Birding Center will serve as a focus for this new industry, and 
is expected to generate an additional $10-$15 million a year in new 
income to the region.
    In addition, Texas Parks and Wildlife has had tremendous success 
developing cooperative agreements with private landowners, precluding 
the need to list a number of species under the Federal Endangered 
Species Act. By working with landowners and other States, we have 
developed conservation agreements for swift fox, lesser prairie 
chickens, Arkansas River shiners and Devils River minnows, restoring 
and securing the status of the these rare species in Texas.
    One of our greatest challenges in conservation agreements concerns 
the black-tailed prairie dog--a conservation issue that, if not handled 
well, could lead to one of the biggest endangered species train-wrecks 
in history. We are working now to develop a conservation agreement for 
black-tailed prairie dogs, developing the plan in cooperation with 
landowners and agricultural interests, as well as conservationists. And 
the lesson we're learning is that we need to address more than prairie 
dog conservation--we have to address the habitat and the suite of 
species associated with it. It's no coincidence that prairie dogs, 
swift fox, and lesser prairie chickens are all species of concern, 
because prairies are a habitat of concern.
    Through these various programs, by making a small investment now, 
we have avoided the much larger costs associated with endangered 
species issues--not only the direct costs that relate to regulating, 
protecting and restoring the species themselves, but also the much 
larger social costs that citizens bear when endangered species are on 
their property.
    The conservation incentives are there, but landowners, local 
governments and communities need advice and assistance to put 
conservation measures into practice. State wildlife agencies are in the 
best position to offer this assistance.
                  the need for additional conservation
    As these examples all show, conservation in Texas depends upon our 
close-
working relationship with landowners and communities. In Texas, we know 
what needs done, how to do it, and who to work with--but we simply lack 
the resources to affect the hundreds of species that are in need of 
conservation, as well as assuring the future of species that are 
currently common. All the conservation we've accomplished to date has 
been the ``easy stuff '', involving a few hundred wildlife species 
whose needs are known and which readily respond to the habitat changes 
humans impose on the landscape. But now we're faced with dealing with 
another 1,000 species that aren't so easy. The conservation challenge 
is just beginning.
    And many of these species are not unique to Texas, their 
conservation depends on States working together to affect habitat 
throughout a species range. Interstate conservation requires funding 
beyond what States can access themselves. And it requires long-term, 
predictable funding.
    For example, over the past 20 years, Texas Parks and Wildlife has 
reintroduced over 7,000 eastern wild turkeys throughout the State, as 
well as relocated thousands of native Rio-Grande wild turkeys. Thanks 
to these restocking efforts, and combined with the habitat management 
assistance we provide landowners, the wild turkey is back in Texas. We 
now have turkeys throughout the State, occupying all of the available 
habitat and supporting over 3 million hunter-days each year. Our turkey 
restoration efforts worked because we had a reliable funding source 
over an extended period of time, plus the technical assistance to 
provide to landowners.
    So that is the obstacle we're facing, obtaining the long-term 
financial resources needed to expand our conservation partnerships with 
citizens and communities. In Texas, we estimate that need to be at 
least $30 million a year. This would allow us to expand our efforts in:
    1. Landowner Incentives.--Estimated need: $6 million/year.
          <bullet> Habitat cost-share program and
          <bullet> Landowner incentive program.
    2. Technical Assistance.--Estimated need: $4 million/year.
          <bullet> Expand technical guidance program and
          <bullet> Urban wildlife program
    3. Increasing Recreational Opportunity.--Estimated need: $3 
million/year.
          <bullet> Nature trails
          <bullet> River access
          <bullet> Watchable-wildlife projects
          <bullet> Nature tourism cost-share grants
    4. Habitat Conservation and Restoration.--Estimated need: $4 
million/year.
          <bullet> Conservation planning for wildlife
          <bullet> Habitat restoration projects
          <bullet> Re-establish populations of native species
          <bullet> Research and surveys
    5. Conservation Outreach.--Estimated need: $5 million/year.
          <bullet> Demonstration habitats
          <bullet> Outreach programs
          <bullet> Urban wildlife program
          <bullet> Visitor and education centers (World Birding Center, 
        River Center)
          <bullet> Volunteer programs (Texas Master Naturalist, Texas 
        Nature Trackers)
          <bullet> Conservation information, literature, video
          <bullet> Schoolyard habitats Project WILD
    6. Wildlife Research.--Estimated need: $1 million/year.
    7. Resource Protection and Monitoring.--Estimated need: $2 million/
year.
    8. Land Conservation (conservation leases, easements, 
acquisition).--Estimated need: $5 million/year.
    Total Estimated Need.--$30 million/year.
    I have a handout that is an excerpt of a document we gave to 
congressional representatives last year, focusing on wildlife 
conservation.
    With that, I would be happy to answer any questions.
                                 ______
                                 
                               ATTACHMENT
         Title III.--Wildlife Conservation and Restoration Fund
                     the benefits of cara in texas
    Texas is the most unique State in the United States. We have more 
species and habitats than all other States except perhaps California. 
However, unlike California, 97 percent of the land and habitats in 
Texas is privately-owned, which provides unique conservation 
opportunities and challenges. The diversity of people and perspectives 
in Texas is also impressive and healthy. Texas Parks and Wildlife 
serves this diversity by promoting the conservation of all wildlife, 
including over 1,000 species of nongame and rare wildlife, as well 
providing conservation assistance to people interested in these 
species. The funding provided by the Title III of CARA would go 
directly to TPW, enhancing it's ability to manage all of the State's 
wildlife.
    For Texas, the stakes are huge. By keeping common species common, 
adding species to lists of endangered species will be uncommon. This is 
particularly important in Texas with so many species and so much 
private land. Wildlife-watching, hunting, fishing and other wildlife-
related recreation in Texas generated about $6.7 billion in direct 
spending in 1996. Healthy landscapes and wildlife populations are vital 
to both of these important issues.
    For wildlife in Texas, CARA could support Texas Parks and 
Wildlife's conservation and outreach efforts in several areas:
    Landowner Incentives.--Estimated need: $6 million/year. TPW has a 
Landowner Incentive Program (LIP) which provides financial assistance 
to landowners interested in helping rare species. CARA funds would be 
used to expand the LIP and create new cost-share and incentive programs 
for landowners, focusing conservation efforts on the privates lands 
that host more of the State's wildlife.
    CARA funds would also allow the Department to expand the number and 
variety of workshops and held days it offers: teaching landowners by 
example.
    Technical Assistance.--Estimated need: $4 million year. TPW 
currently employs technical guidance biologists who work closely with 
private landowners, advising and assisting them with wildlife 
management plans that affect nearly 10 million acres of wildlife 
habitat per year. CARA funding would allow the Department to double its 
current effort.
    Increasing Recreational Opportunity.--Estimated need: $3 million/
year. TPW has identified over 300 wildlife-viewing sites as part of the 
Great Texas Coastal Birding Trail. This nature tourism effort has 
directly benefited the local communities and landowners. CARA funds 
would be used to expand this kind of effort to the other four tourism 
regions of the State.
    Currently TPW has 50 Wildlife Management Areas that are not all 
accessible to the public. With CARA, the Department could create a 
number of nature trails, with interpretive signage, to better serve the 
needs of today's outdoor enthusiast.
    CARA funding would allow the expansion of river access and 
restoration programs initiated to work with private landowners to 
develop controlled access programs that address needs of both users and 
river landowners.
    With CARA, staff would be able to fund a number of watchable-
wildlife projects with individual landowners as well as communities. 
More work would be done with private landowners to develop controlled 
access programs that address needs of users and landowners.
    Habitat Conservation and Restoration.--Estimated need: $4 million/
year. As wildlife habitat is converted to human habitat, Texas is 
losing a number of unique ecosystems. With the additional funding 
provided by CARA, Texas could begin creating strategies for conserving 
these unique habitats. Management efforts for aquatic and marine 
ecosystems would also be increased, focusing on riparian, wetland, 
riverine and estuarine ecosystems.
    Texas has been a leader in conservation planning for wildlife 
(particularly birds and bats). CARA funds would speed the development 
of these plans on the status and management needs for species and allow 
the Department to develop similar plans and recommendations for 
reptiles amphibians lisp mammals and other important wildlife groups.
    With CARA funding, TPW would also work to develop the capacity to 
establish populations of native aquatics to replace exotics in lakes 
and rivers. Programs would include habitat restoration, aquatic 
vegetation nurseries associated with hatcheries, development of 
educational outreach to engage population that impact or are impacted 
by displacement of native with exotic vegetation.
    Conservation Outreach.--Estimated need: $5 million/year. TPW has a 
network of urban biologists who work with residents to increase 
awareness of wildlife in urban areas. With CARA, TPW would be able to 
expand this effort into other metropolitan areas.
    CARA funding would allow the development of demonstration habitats 
that combine many components of ``an ecosystem'' such as wildlife, 
wetlands, riverine habitats on small land areas near or in urban areas.
    TPW has created a number of volunteer and . . . citizen-involvement 
programs and nationally acclaimed outreach programs, such as Project 
WILD and Outdoor Kids, involving children and school teachers in 
conservation education. With CARA these projects would be expanded 
across the State, involving citizens directly in conservation.
    Texas has a network of nature centers and TPW has created a number 
of visitor and education centers--the Freshwater Fisheries Center, Sea 
Center, and the World Birding Center. CARA funds would be used to 
expand the efforts of existing education and nature centers. as well as 
fund the creation of new education centers as needed.
    Communication with the large urban populations is essential to the 
success of all of these conservation areas, particularly outreach. TPW 
is well known for its outstanding media efforts, including video, radio 
and printed publications. CARA funds would allow TPW to expand these 
efforts, as well as provide them at less cost to the public.
    Wildlife Research.--Estimated need: $1 million Year. Good wildlife 
management depends on good science. Each year, TPW funds 40-60 wildlife 
research projects. gathering data on the management needs of native 
species. However, with 10 ecoregions, dozens of habitats and almost 
1,000 different species of wildlife, this research only scratches the 
surface of what the Department needs to know concerning native plant 
and wildlife species. CARA funds would be used to increase research 
efforts statewide.
    Resource Protection and Monitoring.--Estimated need: $2 million/
year. TPW is responsible for monitoring and correcting land and water 
problems that may affect native fish and wildlife. With the creation of 
the State Water Plan, these efforts have grown.
                               __________
    Statement of Robert V. Abbey, State Director, Nevada Bureau of 
                            Land Management
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to appear here today to discuss wildlife conservation 
efforts in Nevada.
    The State of Nevada encompasses a large portion of the Great Basin 
and Upper Colorado River Plateau of the United States. These lands were 
not divided into farms, primarily due to their lack of water. Towns 
remain widely separated. Curiously, Nevada is said to be the most 
urbanized State in our Nation. Those urban areas are concentrated, 
however, as is evident in Las Vegas and along the Eastern Sierra Front.
    As a result, Nevada has a wealth of open land, largely in Federal 
ownership. These lands hold a wide and wonderful variety of wildlife 
and wildlife habitat. The Bureau of Land Management (BLM) is 
responsible for management of about 48 million acres of this land and 
the wildlife habitat on it.
    Management of these lands is not an easy task. It requires 
coordination and partnership with local and State conservation groups 
and initiatives in order to be successful. The BLM in Nevada is 
fortunate to have many fine partners in this work, including the State 
of Nevada and its Division of Wildlife, as well as a number of private 
organizations, such as Nevada Bighorns Unlimited and the Nevada 
Wildlife Federation.
    Recently, efforts to address some critical wildlife concerns in 
Nevada have been highly visible. These include projects to recover the 
Lahontan Cutthroat Trout, management guidelines for sage grouse and the 
sagebrush ecosystems that are their habitat, and the desert tortoise.
    These species serve as a red flag for the overall health of our 
environment. The sage grouse is suffering from a decline in habitat, a 
concern to the BLM and many of the organizations and entities here 
today. Under the leadership of Terry Crawforth, Administrator for the 
Nevada Division of Wildlife, the Western Association of Fish and 
Wildlife Agencies, in cooperation with the BLM, the U.S. Fish and 
Wildlife Service and others, have initiated a major effort to develop 
conservation plans for sage grouse in eight western States. In Nevada, 
Governor Guinn has taken a personal role in establishing a State sage 
grouse committee to develop strategies to conserve this game species. 
The BLM, the U.S. Fish and Wildlife Service, the U.S. Forest Service, 
as well as State, local and tribal representatives, have formed an 
interagency sagebrush habitat steering committee to coordinate habitat 
assessment, mapping, evaluation, and restoration for species at risk 
within sagebrush 
ecosystems in 10 States, and to coordinate ecosystem and species 
conservation planning in order to provide consistency across agencies 
in addressing sagebrush ecosystem-related issues.
    Through the Great Basin Restoration Initiative, the BLM in Nevada 
is cooperating with State and local agencies to stop the spread of 
invasive weeds and other vegetation and to restore appropriate plant 
communities on the rangelands.
    After major wildfires in 1999 and 2000, the demand for sagebrush 
seeds and the seeds of other native plant species has increased 
considerably in the Great Basin. Through issuance of permits for 
harvesting of sagebrush and other native species seeds, the BLM is 
tracking harvest activities to ensure that sufficient seed is available 
for rehabilitation efforts that are currently underway in the areas 
hardest hit by the wildfires. The BLM is working with the Plant 
Conservation Alliance, private seed growers, State and Federal 
nurseries and seed storage facilities to increase significantly the 
supply of native seeds available for rehabilitation and restoration 
work while reducing the cost of producing native seed in large 
quantities.
    The BLM's Ely Field Of rice has taken a leadership role under the 
auspices of the Great Basin Restoration Initiative to restore and 
maintain the biological conditions of the Great Basin landscape in 
eastern Nevada through partnerships with the Rocky Mountain Elk 
Foundation, Nevada Division of Wildlife and dozens of other groups. 
Approximately 10 million acres of public land are in the project area, 
including 4 million acres of pinyon juniper woodlands, 2 million acres 
of pinyon juniper/sagebrush, 2.5 million acres of sagebrush, 1.5 
million acres of valley bottoms and mixed forest conifer, 158 miles of 
stream riparian habitat, and 7,800 acres of meadows, springs, seeps and 
wetlands.
    BLM field offices in Arizona, Nevada, and Utah have continued 
reintroduction and habitat improvement programs for bighorn sheep 
populations. Nevada contains some of the premier bighorn sheep habitats 
in the United States. Approximately 2.5 million acres of BLM-managed 
lands in Nevada provide habitat for 3 subspecies of bighorn sheep: the 
California, Rocky Mountain and Desert bighorns. Cooperative efforts 
with the Nevada Division of Wildlife and partners such as Nevada 
Bighorns Unlimited have successfully restored bighorns on many historic 
habitats throughout the State. We estimate that there are an additional 
1 million acres of suitable but unoccupied bighorn sheep habitat on 
BLM-managed land in the State.
    Federal, State and private partnerships have substantially enhanced 
successful wildlife habitat management on BLM-managed land. The BLM 
works closely with a variety of groups to restore habitats for native 
wildlife species on BLM-managed lands. Over the past 10 years, the BLM, 
the U.S. Fish and Wildlife Service, the Nevada Division of Wildlife, 
Trout Unlimited and local ranchers and sportsmen have made substantial 
investments to restore Lahontan cutthroat trout to 128 miles of the 
Marys River system, a premier trout stream in northeastern Nevada. The 
BLM's Challenge Cost Share program, established by Congress in 1985, 
has matched millions of dollars of private contributions with Federal 
appropriations through successful partnership efforts that have 
delivered conservation and restoration projects throughout the West.
    The Outside Las Vegas Foundation, a new Federal/private partnership 
in Clark County, is restoring native plant communities in the Mojave 
Desert, including removal of the invasive tamarisk from riparian areas 
and replanting native willows and grasses to benefit desert tortoise, 
desert fish species and a wide range of native birds, mammals, and 
amphibians.
    Following the disastrous, widespread wildland fires of 1999, the 
BLM extensively examined the effects of fire on habitat and ecosystem 
processes. We found that a fire cycle had developed, referred to in 
recent science reports as the ``cheatgrass-wildfire cycle.'' This 
problem is acute in Nevada, where the cycle of fire disturbance has 
spurred the invasive cheat grass to alter range and wildlife habitats. 
Cheat grass has been on our landscape for many years, quietly spreading 
its water-stealing roots to ever increasing areas.
    Cheatgrass sprouts quickly as winter moisture arrives on burned or 
disturbed lands. Its root mass quickly draws up all available moisture, 
denying it to sagebrush seed. Left unmanaged, sagebrush benchlands 
instead become fields of cheat grass. These fields dry out in the 
summer sun, and lay in wait for summer lightning.
    There was a time when people thought that getting rid of sagebrush 
was a good thing. However, we now know that sagebrush is vital to the 
health of Great Basin wildlands. Sagebrush provides cover for sage 
grouse, mice and other rodents, smaller songbirds, ground squirrels--
over 170 species which are inhabitants of the open land. It provides 
shelter from the summer sun and from raptors overhead. In winter, dry 
cheatgrass is buried under snow. Sagebrush rises above the snow, 
providing forage for deer, antelope, and sage grouse.
    We look forward to working with our partners here in Nevada to 
address the cheat grass problem, along with other efforts at wildlife 
habitat and species restoration in a manner that balances the interests 
of stakeholders and addresses wildlife and habitat needs. This effort 
is massive, across the millions of acres of the Great Basin. Change 
will require labor intensive effort and significant amounts of native 
seed. Each landscape will call for its own prescription.
    In some areas, we may need to plant sagebrush seedlings and sow 
native seed by hand. The entire spectrum of plant and landscape 
management must be brought into play if we are to begin a true Great 
Basin restoration program.
    This concludes my prepared statement. I would be pleased to answer 
any questions that members of the committee may have.
                               __________
     Statement of Hon. A. Brian Wallace, Chairman, Washoe Tribe of 
                         Nevada and California
    Senator Reid, thank you for your continued interest in the 
equitable distribution of Federal funding for wildlife conservation 
efforts, and for the opportunity to present the views of the Washoe 
Tribe and of Indian country generally on your proposed CARA 
legislation. I also want to thank you again for your on-going efforts 
to give the Washoe Tribe access to their ancestral homeland at Lake 
Tahoe.
    Senator, as you well know, CARA was severely diluted last year into 
a ``CARA Lite'' that funded fewer activities with fewer dollars over 
less time. No stakeholder was more adversely affected by this dilution 
than Indian tribes, who lost every single provision that had benefited 
them in the original legislation. I applaud your leadership in the 
effort to breathe new life into CARA.
    Your proposed legislation deals with two of what are currently nine 
Titles in the House version of CARA. I will restrict most of my remarks 
to these two titles, though I will, at the end of my remarks, touch 
briefly on two other CARA Titles of import to Indian country.
    Senator Reid, like States, Indian tribes have governmental 
responsibility for the conservation of fish and wildlife resources, and 
the regulation of hunting and fishing and gathering, on their lands. 
Native Americans who fish, hunt, and gather on Indian lands pay excise 
taxes on ammunition, fishing gear, guns, and boat fuel, just like other 
Americans. It is critical that any wildlife conservation Title of CARA, 
or a standalone bill, include a equitable distribution of Federal funds 
to Indian tribes for conservation and regulation, so that we can 
receive, and count on receiving, Federal moneys for these woefully 
underfunded areas for which States have been receiving money for many 
years.
                                wildlife
    Title Indian tribes play a unique and crucial role in four purposes 
identified under this title: (1) wildlife and habitat conservation; (2) 
development of comprehensive wildlife conservation and restoration 
plans; (3) cooperative planning and implementation of wildlife 
conservation plans; and (4) wildlife education and public involvement. 
Having lived in our homelands for thousands of years, Indian tribes 
have developed a unique understanding of the ecosystem and through our 
traditional and customary practices we have developed a traditional 
knowledge and science that enhances the scope of conventional science. 
Additionally, because tribal members have significantly more contact 
with the habitat and wildlife and because we rely upon the natural 
resources of our homelands, we are exposed to a greater degree of risk 
when the wildlife and habitat is impacted. An unhealthy ecosystem will 
directly impact the lives of Indian people.
    Although there is little BIA funding and no EPA funding available 
for tribes to conserve and restore wildlife, the Washoe Tribe has 
pursued a commitment to habitat restoration and conservation, not just 
on tribal lands but within our entire ancestral homelands. On tribal 
lands we have used clean water funding to restore stream banks and 
improve wildlife and aquatic habitat along the riparian corridor of the 
Carson River. In addition, our conservation and restoration efforts 
have maintained a reach of Clear Creek that university students and 
local school groups visit to study. As part of our cooperative 
agreement with the U.S. Forest Service at Lake Tahoe the Washoe Tribe 
is preparing a wetlands conservation and restoration plan for the Meeks 
Creek meadow and the Taylor/Baldwin wetlands. The Tribe will implement 
the wetlands conservation and restoration plan in cooperation with the 
Forest Service. However, because of the lack of funding, these efforts 
are isolated and we are not able to achieve the full benefits of 
comprehensive habitat planning.
    The Wildlife Conservation and Restoration title of the pending 
House legislation (H.R. 701) and last year's Senate bills (S. 2123 and 
S. 2567) clearly identifies the need for a Comprehensive Wildlife 
Conservation and Restoration Plan, but the Washoe Tribe has no funding 
available for development of such a plan. While we have been able to 
implement and develop plans for isolated wetland areas through clean 
water funding, we have not been able to develop a comprehensive 
conservation and restoration plan or even collect data on wildlife 
populations. The need for such plans increases as commercial and 
residential development continues to creep in on tribal lands and the 
pressure on wildlife habitat increases. Furthermore, Tribal lands are 
often intermixed with lands under Federal and State jurisdiction, 
requiring a coordinated planning approach. In our case, the Washoe 
Tribe has jurisdiction over more than 60,000 acres of Indian allotment 
lands in the Pine Nut Mountains, which are located in a checkerboard 
pattern with BLM lands and private lands. Currently the BLM and State 
agencies are engaged in a planning process in for their portions of the 
Pine Nut Mountains, and the Tribe is a critical partner. However, the 
Tribe's efforts are clearly hampered by our lack of funding for 
wildlife and habitat planning. Similarly, conservation planning funds 
would enhance our efforts to work with our State and Federal partners 
on the conservation and restoration of habitats in the Lake Tahoe Basin 
and on along the Carson and Truckee Rivers.
    The pending House legislation, H.R. 701, includes language that 
would provide Indian tribes with direct access to the Pittman-Robertson 
Wildlife Restoration Act funding. The allocation mechanism proposed in 
this year's House version of CARA, allocates up to 2.25 percent of 
total dollars to be divided among all 550 Indian tribes based on 
relative land area and population. The 2.25 percent is based in the 
acres of Indian trust land relative to total acreage in the United 
States (56,015,221 million Indian trust acres divided by the 
2,379,390,458 acres that comprise the entire United States). In fact, 
the 2.25 percent actually represents less than the full equitable 
share, for an example, the Washoe Tribe has done work on USES lands 
with the Forest Service to conserve and restore wetlands on lands at 
Lake Tahoe. Indian tribes will continue to work on conserving wildlife 
and critical ecosystems within ceded treaty lands and other ancestral 
homelands, which are no longer held in trust. Finally, it is important 
to note that current proposals of this nature do not reduce existing 
allocations to States and territories under the Dingell-Johnson or 
Pittman-Robertson Acts, but rather involve only new allocations never 
before raised and distributed.
    The Senate CARA bills from last year omitted critical allocation to 
Indian tribes, and would have continued to exclude tribes from these 
funds, and I strongly urge you to use the language from Title III of 
this year's Senate legislation.
     sensitive, threatened and endangered species incentives title
    As to your proposals under the category of Sensitive, Threatened, 
and Endangered Species Incentives, we applaud your efforts to extend 
funding to conservation plans to preserve species that are not yet 
listed as threatened or endangered under the Endangered Species Act, 
but are species of concern. Hopefully, by focusing efforts on these 
species prior to their being listed we can avoid the need to list them. 
Additionally, we encourage you to move beyond the language as contained 
in CARA Title VII, and recognize the impacts of the conservation of 
these species on Indian tribes. Sensitive, threatened, and endangered 
species are a concern of Indian peoples everywhere, for they are a part 
of our cultural heritage and a consideration in our land management 
activities.
    A classic example of this is the Lahontan cutthroat trout of the 
river basins of Nevada. Native and non-Native peoples alike share a 
desire for the recovery of these amazing fish. Habitat recovery efforts 
are underway by all stakeholders, and help from the Federal Government 
would be most welcome. Indian lands are integral to these efforts, and 
the inclusion of Indian tribes as potential recipients of Federal funds 
for the development of conservation plans and recovery agreements would 
be appropriate. The State-Federal-Tribal recovery LTC effort on the 
Truckee River is a specific example where the ability of Tribes to 
engage the other partners is limited by our lack of funding. Again, in 
order for Indian tribes to play our proper role in these conservation 
efforts, it is necessary that tribes have the ability to access these 
funds directly.
                         other cara provisions
    I would like to briefly deviate from the two primary topics of your 
proposed legislation to talk about a couple of other aspects of the big 
CARA package that are important to tribes and that were stripped from 
last year's bill at the eleventh hour:
    <bullet> The first is Title II, Land & Water Conservation Fund 
Revitalization, which would allocate Federal moneys from oil and gas 
revenues to various Federal agencies and State and tribal governments 
for the acquisition of land for conservation purposes. Tribes would be 
entitled to one State's worth of funding under current House bill 
language. This too was stripped from last year's ``CARA Lite,'' and I 
encourage you to support the effort to include tribes in any Land and 
Water Conservation fund distribution in FY2002 and beyond. Although the 
Tribe has no funding for conservation land acquisition, the Washoe 
Tribe has been successfully partnered with Federal agencies and private 
parties to acquire sensitive environmental and cultural lands for 
conservation purposes. Indian tribes bring a unique element to the 
conservation effort, and with funding we will be able to achieve more 
win-win situations. Again, looking to the Pine Nut Mountains, to 
improve land management, Federal and State agencies and governments 
support Washoe Tribal acquisition of private land holdings which are 
surrounded by Indian allotment lands, and the private land owner is 
interested in selling the land to the Tribe, but there are no land 
acquisition funds available.
    <bullet> The final provision of note is the National Park and 
Indian Lands Restoration, currently Title VI of last year's Senate 
bill. The Title would provide up to $25 million annually for a 
coordinated program on Indian lands to restore degraded lands, protect 
resources that are threatened with degradation, and protect public 
health and safety.
    The $25 million allocated to tribes under this title is modest when 
you consider that it must be spread among more than 550 tribal 
governments and 56 million acres of Indian trust land. However, it does 
represent a critically important source of funds, and I strongly urge 
you to ensure that the Senate version of CARA Title VI or its 
equivalent is kept intact in any CARA legislation that emerges from the 
107th Congress.
    Senator Reid, once again I thank you for your leadership on this 
and so many other issues important to the Washoe Tribe and Indian 
people across the United States.
                               __________
 Statement of Robert D. Williams, Supervisor, Nevada Fish and Wildlife 
                 Office, U.S. Fish and Wildlife Service
    Thank you for the opportunity to present information on species 
conservation activities that the U.S. Fish & Wildlife Service (Service) 
is conducting in Nevada.
    You requested that I comment on current conservation initiatives, 
what conservation plans have been successful, what initiatives have 
been planned but not implemented, what are the obstacles to engaging 
people in conservation efforts, and what can we do to encourage more 
participation in conservation planning.
    It is crucial that the Service work cooperatively with our State, 
Tribal, and private partners on species conservation. Recognizing this 
the Service has developed and is implementing many approaches which 
enable cooperative conservation efforts. These approaches are flexible 
so as to encourage locally-based solutions to complex and sometimes 
contentious conservation challenges. The initiatives and agreements I 
will discuss are a result of these approaches. We need to continue 
seeking, and indeed expand opportunities for local communities and 
private landowners to share in the development of conservation 
solutions.
    Let me start by providing you with a review of current activities 
in Nevada. Last year we and our partners signed two major conservation 
efforts, the Clark County Multi Species Habitat Conservation Plan 
(MSHCP) and the Amargosa Toad Conservation Agreement.
    The Clark County MSHCP covers 78 species, only two of which are 
listed under the Endangered Species Act (ESA). This plan will allow for 
a permit to be issued under Section 10 of the ESA for an incidental 
take of the listed species due to development in southern Nevada. The 
MSHCP covers over 145,000 acres that are subject to development over 
the next 30 years.
    The goal of the MSHCP is to conserve healthy ecosystems and the 
species that are supported by them, while allowing for development. A 
$550 per acre fee is paid to the County with the issuance of 
development permits. The proceeds from the fees fund desert tortoise 
conservation and recovery activities, as well as other actions needed 
to protect the 78 species covered under the Plan. The plan provides 
certainty for Clark County developers while ensuring conservation 
measures that will help recover the listed species and prevent the 
other species from being listed.
    The establishment of the MSHCP was successful because of the 
cooperation between Clark County, State and Federal agencies, the 
University of Nevada, Reno, environmental groups, recreational 
interests, and resource users.
    The second major conservation action that was solidified last year 
was a conservation agreement for the Amargosa Toad that resides in the 
Oasis Valley. This agreement brought together Nye County, the city of 
Beatty, private landowners, the State of Nevada, several Federal 
agencies, environmental groups and The Nature Conservancy. The premise 
of the agreement provides the Nature Conservancy the ability to 
purchase valuable habitat for the toad from a private landowner. On 
October 14, 2000 the agreement was signed with the parties, and they 
are currently working together to manage the land and other resources 
for the protection of the toad and the other species that depend on the 
riparian wetland habitat.
    Both of these plans depend upon private and public dollars for 
their success. Private funding supports mitigation efforts and 
conservation actions to protect the species listed in the agreements.
    We are currently working on several other conservation actions. I 
will list them here and then discuss some of them in greater detail. 
Current initiatives include the following:
    <bullet> Tahoe Yellow Cress Conservation Agreement;
    <bullet> Coyote Spring Valley Habitat Conservation Plan;
    <bullet> Lahontan cutthroat trout restoration, Truckee River;
    <bullet> Sage Grouse Conservation Agreement;
    <bullet> Spotted Frog Conservation Agreement;
    <bullet> Lincoln County Multi Species Habitat Conservation Plan; 
and
    <bullet> Nye County Multi Species Habitat Conservation Plan.
               tahoe yellow cress conservation agreement
    A planning team has been formed to develop a conservation agreement 
for the Tahoe yellow cress, a plant that is found on the shores of Lake 
Tahoe. Some of the habitat occurs on private lands, so involving 
associations like the Lake Tahoe Lakefront Homeowners Association will 
be a key element to the success of finalizing such an agreement. One 
important measure to protect the Tahoe yellow cress is simply to build 
fences around the plant. Should a private landowner agree to fence an 
area to protect habitat, funds may be available through Candidate 
Conservation Agreement Grants for the costs of the fencing or other 
conservation activities the landowner may desire to make.
            coyote springs valley habitat conservation plan
    We are also working closely with a developer in Southern Nevada on 
the Coyote Springs Valley Habitat Conservation Plan. Coyote Springs 
Valley is critical habitat for the desert tortoise. Coyote Springs 
Limited Liability Corporation has indicated a willingness to work, by 
signing a Memorandum of Agreement with the Service and BLM, to create a 
plan encompassing more than 40,000 acres of private and leased lands 
within the valley, that would conserve desert tortoise habitat while 
providing opportunities for residential and commercial development. 
This plan is envisioned to also address the long-term water needs of 
the developers, as well as the listed fishes in the nearby Muddy River, 
which could be affected by long-term groundwater use. This type of pro-
active, early involvement with landowners is acknowledged by the 
Service as one of the most important objectives in our efforts to 
reduce conflicts and foster general acceptance of species conservation.
          lahontan cutthroat trout restoration, truckee river
    In our efforts to recover Nevada's State fish, the Lahontan 
cutthroat trout (LCT), we have received funding to conduct habitat 
restoration work on non-Federal lands along the Truckee and Walker 
Rivers. We are working with the Nature Conservancy to conduct habitat 
restoration work on the Truckee River that will benefit the river, the 
riparian corridor, and all the fishes that live in the river. Our next 
step will be to develop Safe Harbor Agreements with private landowners 
to compliment our LCT recovery efforts.
                   sage grouse conservation agreement
    We are working with the State on the conservation of the sage 
grouse. We appreciate the State of Nevada's leadership by heading up 
this coordination effort, with the establishment of the Governor's Sage 
Grouse Working Group. The working group is bringing together private 
landowners, counties, environmental groups and Federal agencies to 
develop a conservation agreement.
    For private landowners with suitable sage grouse habitat, and who 
are willing to protect it, there are a variety of funding options and 
incentives from the Service. Congress authorized funding beginning in 
Fiscal Year 1999 for the ESA Landowner Incentive Program to provide 
financial assistance and incentives to private property owners to 
conserve listed, proposed, and candidate species. I will discuss these 
and other finding sources below.
    As you are aware, under Section 6 of the ESA, funds are provided to 
the States for species and habitat recovery actions on non-Federal 
lands.
    In Fiscal Year 2001, Congress appropriated 105 million for the 
Cooperative Endangered Species Conservation Fund. The Service will use 
these dollars for Safe Harbor Grants, Habitat Conservation Planning 
Grants, Species Recovery Land Acquisition Grants and Candidate 
Conservation Agreement Grants. Each of these grants programs requires 
States to provide at least 25 percent of the project costs in order to 
receive funds from these grants. Additionally, some of the funds will 
be used for Habitat Conservation Land Acquisition by States.
    The Nevada Office of the Service recently worked with a number of 
non-Federal partners on proposals for grants under the Service's 
Partners in Wildlife Program. Of the six proposals submitted, five 
grants were awarded through the Partners Program. Last fiscal year, we 
worked with the Nevada Division of Wildlife to develop and submit 
applications for Cooperative Endangered Species Conservation Fund 
grants, which led the Service to award $176,000 to the State. These 
funds benefit 11 projects in Nevada.
    In addition to the Section 6 moneys, Congress provided $50 million 
in the fiscal year 2001 Commerce-Justice-State appropriations to be 
allocated among the States for wildlife conservation, with the 
objective of fulfilling unmet needs of wildlife within the States. One 
of the primary means of accomplishing this goal is to encourage 
cooperative planning by State governments, the Federal Government, and 
other interested parties. Another $50 million for competitive wildlife 
grants to the States was provided in the Interior appropriations.
    You asked for examples of successful conservation agreements in 
Nevada. The Amargosa Toad Conservation Agreement is such an example. It 
came together after 6 years of meeting with local officials and private 
landowners to ensure they were comfortable with the direction of the 
program.
    This agreement gave Nye County an opportunity to play a leading 
role in species conservation and is a good example to demonstrate that 
local communities are willing, and able, to be leaders on species 
conservation.
    The Amargosa Toad's total range is limited to a 12-mile stretch of 
the Amargosa River in Nye County's Oasis Valley. The alarm over the 
toad's status was triggered by a 1994 survey that found only 30 adult 
toads, resulting in a petition to list the toad as an endangered 
species. Recent surveys conducted in cooperation with private 
landowners, however, lead scientists to estimate that as many as 16,000 
adult Amargosa toads may live in the Oasis Valley.
    The Nature Conservancy purchased the Torrance Ranch, an area that 
provides habitat for the Amargosa Toad, the Oasis Valley speckled dace, 
the Oasis Valley spring snail, and 10 species of birds, including 
yellow warbler, blue grosbeak, yellow-billed cuckoo, and Bullock's 
oriole. The Nature Conservancy's purchase of the Torrance Ranch was 
made possible with funding from the National Fish and Wildlife 
Foundation and private donations.
    The partners will undertake the restoration and monitoring of the 
ranch with financial support provided by the Service, Nevada Department 
of Wildlife, Natural Resources Conservation Service, and The Nature 
Conservancy and the University of Nevada, Reno's Biological Resources 
Research Center. The land acquisition, combined with other actions 
specified in the agreement, will secure the toad's future.
    One of the obstacles that has impeded local people from getting 
involved in conservation planning in Nevada in the past has been a lack 
of personal communication between employees of government agencies and 
landowners. Landowners may not know what incentives and options are 
available to them for funding conservation measures. We in the Fish and 
Wildlife Service's Nevada Fish & Wildlife Office are committed to doing 
a better job of reaching out and communicating with landowners and 
informing them on how they can play a bigger role in species 
conservation.
    One way we are working to support local conservation efforts is by 
dedicating a staff person in our office to identify what grants and 
incentives are available for conservation, and to reach out to State 
and county agencies and private landowners to inform them of how they 
can take advantage of these opportunities.
    There may be other obstacles, but the Service is working to 
identify and resolve them so that States, counties and private property 
owners can and will take more active roles in species conservation.
    There are numerous threats in Nevada that impact ecosystems and 
cause species to decline, including: urban growth; invasion of non-
native grasses (such as cheat grass and white top); fire damage; 
conversion of habitat to agricultural lands; and over-grazing. 
Involving more people in conservation and protection of public and non-
Federal lands is crucial to preserving the health of the land and 
maintaining the biological diversity of Nevada.
    I thank you for the opportunity to be here today and welcome any 
questions you may have.
                               __________
Statement of Dennis D. Murphy, Ph.D., Research Professor, University of 
                            Nevada, Reno, NV
    Thank you for the opportunity to discuss with you initiatives to 
bring better conservation of wildlife, fish, and non-game species to 
Nevada and the West.
    Many of those concerned with Nevada's natural heritage have come to 
recognize that the critical environmental legislation of the 1970's--
including the Clean Water Act, the National Forest Management Act, the 
Endangered Species Act, among others--has the potential of becoming a 
collection of unfunded mandates unless the Federal Government can 
deliver support for much needed management efforts. Funding for 
endangered species in particular has been woefully inadequate. As more 
species have been listed and the need for conservation responses grow 
in turn, appropriations have limped along. In the middle of 1990's, the 
United States spent more money on military bands than on species at 
risk. During the same period more money was spent on Domino's Pizza 
deliveries inside the Beltway than on imperiled species programs 
nationwide. The message is straightforward. The Federal Government must 
support programs that are necessary to conserve listed species, and 
must aggressively pursue prelisting agreements and efforts to conserve 
species before they become listed.
    Despite a starvation budget for species protection, conservation 
successes in Nevada have been many. The threatened desert tortoise 
survives across much of the southern State despite explosive land 
development and severe drought. Ash Meadows, described by Harvard 
University's E.O. Wilson as a sacred American landmark, ``the 
equivalent of Independence Hall or Gettysburg,'' now has protection and 
work moves forward in earnest to conserve the many imperiled species 
that reside there and to control invasive, weedy species that threaten 
their habitat. The Spring Mountains Natural Recreation Area harbors 
more endemic species than any comparable location in the country and 
nearly all seem to be doing well despite rapidly increasing 
recreational visits.
    But many challenges still face our land and resource managers. The 
sage grouse and its habitats have precipitously declined across much of 
the north of the State. No fewer than 14 imperiled butterfly subspecies 
are known from just a few dozen wetland acres across the dry middle of 
Nevada; each one at more risk of disappearance than any of the 
currently listed butterfly species found elsewhere in the western 
States. Once the most abundant amphibian in the State, the northern 
leopard frog now exists in just three of the more than one hundred 
sites from which it was historically recorded on museum specimens. Our 
most widespread frog may be just a few years away from disappearing 
from Nevada.
    What these species have in common beyond their imperilment is that 
they live on a shared landscape--on both lands public and private. They 
live on public lands with a very long history of resource use and 
private stewardship. One conservation reality is apparent; that is, 
that saving species and the habitats that support them is a shared 
responsibility and will demand in coming years unprecedented 
cooperation. That cooperation must include Federal land and resource 
managers, State fish and wildlife staff, private stakeholders, and 
scientists. Recognizing our long history of landscape mismanagement and 
the twin threats from wildfire and invasive plant species, we have a 
great opportunity to fail the sage grouse. Certainly money alone cannot 
save the grouse. Federal and State managers must coordinate to find a 
common ground between the prohibitive policy that comes with listings 
under the Federal Endangered Species Act, and the State's management of 
fish and wildlife for consumption. Although we all agree that we must 
save sage grouse, we must ask whether we want to save them as part of 
our State's rich natural heritage, or so that we can have a season on 
them.
    Any new funding must look to recipients beyond the Federal and 
State families. The shared landscape of the Intermountain West is not 
equally shared. Private interests have long controlled the most 
limiting resource--water. And, although the desert tortoise and sage 
grouse conservation challenges in this State are not solely driven by 
water allocation conflicts, most other species challenges are. It is 
not a coincidence that pupfish, frogs and toads, spring snails, and 
butterflies present land managers with the most immediate species 
challenges. The springs, seeps, and riparian areas that support those 
organisms have long been exploited and often overused. Where dollars 
can buy water for fish and wildlife, and where private interests have 
the desire to contribute to saving species our efforts will be 
rewarded. A Federal listing of the 14 butterflies I mentioned can be 
obviated with just a small redirection of waters and some three-strand 
fencing. It is that simple to save uniquely Nevada butterflies in 
Carson Valley, Big Smoky Valley, Railroad Valley, Steptoe Valley and 
points in between.
    Finally, cooperation must extend to information gathering and 
sharing. We have to recognize we know woefully little about how our 
wildlands serve both common species and rare ones. Our best intended 
land management actions have often failed to achieve the desired 
results and frequently have had adverse effects on species of concern.
    In Nevada we have come a long way toward a remedy. For 7 years the 
State has benefited from the Nevada Biodiversity Initiative, a 
cooperative effort joining Federal and State land and resource managers 
with university scientists to meet the goal of saving biodiversity in 
the face of human population growth and diverse land uses. In 
continuous communication, managers and scientists direct funds to 
species and habitats at greatest risk, work together to study 
biological systems that are poorly understood, and prioritize future 
conservation actions. The Biodiversity Initiative cannot take all the 
credit, but it is certainly not coincidence that although Nevada was 
fourth in the Nation in candidates species for Federal protection in 
1993, not one new species was listed in the State until forces in Elko 
County caused the recent listing of the bull trout. Very unfortunately, 
the Nevada Biodiversity Initiative's funding has been removed by this 
administration from the Federal budget.
    In Nevada we have a unique level of communication, cooperation, and 
collegiality on resource issues. That foundation has fostered the 
largest Habitat Conservation Plan in the country, 5\1/2\ million acres 
in Clark County, covering nearly 90 species of plants and animals, most 
not yet listed. In cooperation with California, Nevada is involved in 
one to the Nation's most visible and ambitious restoration efforts to 
save the fabled clarity of Lake Tahoe's waters. And, now we are 
embarking on perhaps the biggest conservation challenge yet--to sustain 
and restore the most Nevadan of all habitats, the sagebrush ecosystem. 
Neglected, abused, and under incalculable threats, we frankly have no 
available technology to reverse the decline of our sagebrush. But 
Federal funding of a cooperative effort involving agencies and 
stakeholders, founded on reliable experimental science offers our best 
hope.
    Senator Reid, I encourage you and the Committee on Environment and 
Public Works to fund cooperative efforts to bring more effective 
species conservation to our State and our neighbors.
                               __________
 Statement of Karen R. Denio, Acting State Executive Director, Nevada 
             Farm Service Agency, Department of Agriculture
    Good afternoon. My name is Karen R. Denio and I am the Acting 
Nevada State Executive Director for the U.S. Department of 
Agriculture's (USDA) Farm Service Agency. I appreciate the opportunity 
to present information on the conservation programs administered by the 
Farm Service Agency (FSA) and the Natural Resources Conservation 
Service (NRCS) in Nevada, the current levels of participation, and the 
rationale for producer participation.
    FSA and NRCS have several conservation programs available to 
farmers and ranchers that provide incentives to encourage wildlife 
habitat. Among these programs is the Conservation Reserve Program 
(CRP), a voluntary program for agricultural landowners, offering 
wildlife and environmental benefits. Generally, offers for CRP 
contracts are competitively ranked according to the Environmental 
Benefits Index (EBI). Environmental and cost data are collected for 
each of the EBI factors, including:
    <bullet> Wildlife habitat benefits resulting from covers on 
contract acreage;
    <bullet> Water quality benefits from reduced erosion, runoff, and 
leaching;
    <bullet> On-farm benefits of reduced erosion;
    <bullet> Likely long-term benefits of reduced erosion;
    <bullet> Air quality benefits from reduced wind erosion;
    <bullet> LBenefits of enrollment in conservation priority areas 
where enrollment would contribute to the improvement of identified 
adverse water quality, wildlife habitat, or air quality; and
    <bullet> Cost.
    Under the CRP, producers receive annual rental payments and cost-
share assistance to establish long-term, resource conserving covers on 
eligible cropland and marginal pastureland that improves soil, water 
and wildlife resources. To be eligible to be enrolled in the CRP, 
cropland must also have been planted or considered planted to an 
agricultural commodity 2 of the 5 most recent crop years.
    Conservation Reserve Program Continuous signups provide management 
flexibility to farmers and ranchers to implement certain high-priority 
conservation practices on eligible land. To encourage these high-
priority practices, continuous signup participants do not go through 
the normal bidding process and can enroll noncompetitively. One 
practice that offers significant wildlife benefits for farmers and 
ranchers is the riparian buffer practice. The land can be marginal 
pasture which is devoted to trees either planted or naturally 
regenerated. This provides cover for waterfowl and fish, along with 
other wildlife species.
    A second wildlife enhancement practice is to develop or restore 
shallow water areas that provide a source of water for wildlife for the 
majority of the year. Other eligible acreage devoted to certain special 
conservation practices, such as filter strips, grassed waterways, 
shelter belts, living snow fences, contour grass strips, and salt 
tolerant vegetation may be enrolled at any time under the CRP 
continuous signup and is not subject to competitive bidding.
    To be eligible under continuous signup, land must first meet the 
basic CRP eligibility requirements. In addition to the applicable CRP 
rental rates, payments up to 50 percent of the eligible cost of 
establishing a permanent cover are provided to producers as cost-
shares.
    Up to $350 million is available for additional incentives through 
fiscal year 2002 to encourage producers to participate in the CRP 
continuous signup, including:
    <bullet> An up-front CRP Signing Incentive Payment (CAP-SIP) of 
$100 to $150 per acre.
    <bullet> A Practice Incentive Payment (PIP) paid as a one-time 
rental payment, equal to 40 percent of the eligible installation costs 
to eligible participants enrolling certain practices, in addition to 
the standard 50 percent CRP cost-share rate.
    <bullet> New rental rates that have been established for certain 
marginal pastureland to better reflect the value of such lands to 
farmers and ranchers.
    Through mid-January 2001, over 1.4 million acres nationally have 
been enrolled under continuous signup practices. With these incentives, 
enrollment of filterstrips has increased over 600 percent compared to 
the historic program (signups 1-13)
    The Conservation Reserve Enhancement Program (CREP) is used in many 
States as a vehicle for conservation cooperation. The two primary 
objectives of CREP are to coordinate Federal and non-Federal resources 
to address specific conservation objectives of a State and the Nation 
in a cost-effective manner, and to improve wildlife habitat, water 
quality, and erosion control related to agricultural use in specific 
geographic areas.
    These unique State and Federal partnerships allow producers to 
receive incentive payments for installing specific conservation 
practices. Through the CREP, farmers can receive annual rental payments 
and cost-share assistance to establish long-term, resource conserving 
covers on eligible land. Like continuous signup, CREP participants can 
enroll noncompetitively and receive the signing and Practice Incentive 
Payments.
    Under CREP, Non-Federal partners provide a significant commitment, 
such as 20 percent, toward the overall cost of the program.
    The Environmental Quality Incentives Program (EQIP) is carried out 
by NRCS. EQIP provides technical, educational, and financial assistance 
to eligible farmers and ranchers to address soil, water, and related 
natural resource concerns on their lands in an environmentally 
beneficial and cost-effective manner. The program provides assistance 
to farmers and ranchers in complying with Federal, State, and tribal 
environmental laws, and encourages environmental enhancement.
    The purposes of EQIP are intended to be achieved through the 
implementation of a conservation plan which include structural, 
vegetative, and land management practices on eligible land. Five- to 
ten-year contracts are made with eligible producers. Cost-share 
payments may be made to implement one or more eligible structural or 
vegetative practices, such as animal waste management facilities, 
terraces, filter strips, tree planting, and permanent wildlife habitat. 
Incentive payments can be made to implement one or more land management 
practices, such as nutrient management, pest management, and grazing 
land management. By law, nationally, 50 percent of the funding 
available for the program is targeted at natural resource concerns 
relating to livestock production.
    The Wildlife Habitat Incentives Program (WHIP) is another Federal 
wildlife conservation program administered by NRCS. WHIP is a voluntary 
program that provides cost-sharing of up to 75 percent for landowners 
to apply a variety of wildlife practices to develop habitat that will 
support upland wildlife, wetland wildlife, threatened and endangered 
species, fisheries, and other types of wildlife. The purpose of the 
program is to create high quality wildlife habitats that support 
wildlife populations of local, State and national significance.
    Although these conservation programs are available, it is often a 
difficult decision for the producer on whether to participate. As 
energy, fertilizer, and transportation costs continue to escalate, it 
often puts the farmers and ranchers in the position of choosing between 
production-based practices to pay the bills and the conservation 
practices they wish to carry out.
    Nevada's producer participation in CRP and the CRP continuous 
signup is limited, due to a variety of factors. One factor is the 
rental rate assigned to Nevada. Rental rates are based on the dryland 
agricultural value because ongoing irrigation is not required as a 
condition of enrollment. The dry land rate for enrolled land in Nevada 
is about $17 per acre. Consistent with the statutory obligation 
prohibiting haying or grazing, a producer is required to keep cattle 
off the CRP land. Therefore, if a producer or a neighbor has cattle, it 
would be necessary to fence the CRP acreage.
    Along with wildlife enhancement benefits, one of the purposes of 
CRP is to retire cropland in order to control erosion and improve water 
quality. Because much of Nevada's land base does not have a cropping 
history, due to its permanent grass cover or recently being put into 
production, it is basically ineligible to be enrolled in the CRP.
    In Nevada, there are more EQIP requests for participation than 
available funding. For example, in 2000 there were 57 applications for 
a total of $1,207,197 and, with the $992,478 allocation, 43 projects 
were funded. The 2001 cycle is similar, in that 85 applications 
totaling $1,769,873 have been received but, with $1,151,300 allocated, 
a minimum of 44 projects will be funded.
    Ultimately, participation in conservation programs benefits all of 
us, for even as we recognize our farmers and ranchers as the original 
conservationists, we each have a responsibility in preserving our land 
and natural resources for the following generations.
    Thank you, Mr. Chairman for the opportunity to testify today. I 
would be pleased to respond to any questions that you or the committee 
may have.
                               __________
   Statement of Nick Pearson, State Conservationist, Nevada Natural 
       Resources Conservation Service, Department of Agriculture
    Mr. Chairman and members of the committee. Thank you for the 
opportunity to appear today and provide an update on the Conservation 
Programs implemented by the USDA Natural Resources Conservation Service 
(ARCS).
    Mr. Chairman, as you know: farmers across America are faced with 
ever increasing pressures to maintain a productive and profitable 
business. Prices for many farm commodities have been the lowest in 
years and poor weather and growing conditions have been issues in many 
areas. Production costs have increased due to many factors including 
rising prices of nitrogen fertilizer and natural gas. In addition to 
these concerns, farmers face increasing pressures associated with 
natural resources. In recent years, concern regarding the health of our 
soils, water supply, and air have made farming and ranching 
increasingly difficult.
    We know that farmers want to be good stewards of the land. They 
know that stewardship is in the best interests of long-term 
productivity of farming operations. And by and large. it is also 
important to farmers and ranchers who want to leave improved natural 
resources and a better environment for future generations. Our mission 
is to help farmers and ranchers meet the challenge of sustaining their 
natural resources while maintaining a productive and profitable 
business.
    Today, I would like to highlight the many ways our conservation 
programs are making a difference around the countryside. Since the 
enactment of the Federal Agriculture Improvement and Reform Act of 1996 
(1996 Act), NRCS has experienced an increased national demand for 
participation in conservation programs. Farmers are utilizing these 
programs for a variety of benefits, including managing nutrients to 
save on input costs and protect water quality, restoring and protecting 
wetlands to create wildlife habitat, installing grassed waterways to 
control erosion, and designing grazing systems to increase forage 
production and manage invasive species.
    Land users are using conservation to improve the productivity and 
sustainability of their operation, while also improving the asset value 
of their farm even during times of such dire economic strain. Our 
programs are voluntary. In response to new environmental regulations at 
many levels, we are helping farmers and ranchers meet some of the 
regulatory pressures they may face. In turn, the public benefits from 
conservation programs go well beyond the edge of the farm field. Mr. 
Chairman, I believe that the conservation programs Congress included in 
the 1996 Act, when coupled with our historic conservation programs, and 
the State and local delivery system are proving winners for the farmer, 
and the country as a whole.
                   conservation technical assistance
    The cornerstone of our conservation activities is the NRCS work 
force. Everything we accomplish is contingent upon the talents and 
technical skills of our field staff around the country. They are 
trained professionals with the technical tools, standards and 
specifications who get the job done. NRCS has operated since its 
creation through voluntary cooperative partnerships with individuals, 
State and local governments, and other Federal agencies and officials. 
That partnership may be even more important today if we are to meet the 
challenging conservation problems facing our Nation's farmers and 
ranchers.
    While we are accomplishing much through the 1996 Act programs, it 
is important not to lose sight of the importance of our ongoing 
Conservation Technical Assistance program. For more than 60 years, the 
NRCS has used conservation technical assistance to build a foundation 
of trust with people who voluntarily conserve their natural resources. 
On average, the Agency's conservation assistance leverages more than $1 
in contributions for every Federal dollar invested. In States like 
Nevada, NRCS has placed special emphasis on the conservation of private 
grazing lands. As part of our efforts in this area, farmers and 
ranchers are benefiting from planned grazing systems, resulting in 
better productivity and improved natural resources. And through the 
National Cooperative Soil Survey, approximately, 22,000,000 acres have 
been mapped each year, so that natural resource decisions are based 
upon sound science and complete information about the natural 
resources.
    NRCS accomplishes its goals by working with 3,000 local 
Conservation Districts that have been established by State law and with 
American Indian Tribes and Alaska Native Governments. We also leverage 
our resources with the help of more than 348 Resource Conservation and 
Development (RC&D) Councils. State and local governments contribute 
substantially, with both people and funding to complement NRCS 
technical and financial assistance. Approximately 7,750 full-time-
equivalent staff years are provided annually by NRCS partners and 
volunteers.
                     wetlands reserve program (wrp)
    Next, I would like to highlight the accomplishments of the Wetlands 
Reserve Program. WRP preserves, protects, and restores valuable 
wetlands mainly on marginal agricultural lands where historic wetland 
functions and values have been either depleted or substantially 
diminished. Program delivery is designed to maximize wetland wildlife 
benefits, to provide for water quality and flood storage benefits, and 
to provide for general aesthetic and open space needs. Approximately 70 
percent of the WRP project sites are within areas that are frequently 
subjected to flooding, reducing the severity of future flood events. 
The WRP is also making a substantial contribution to the restoration of 
the nation's migratory bird habitats, especially for waterfowl.
    As directed in the 1996 Act, WRP enrollment is separated into three 
components (permanent easements, 30-year easements, and cost-share 
agreements). Pursuant to appropriations act directives, enrollment is 
being balanced to respond to the level of landowner interest in each of 
these three components.
    The 1996 Act authorized a total cumulative enrollment of 975,000 
acres in the program. At the conclusion of fiscal year 2000, the 
program had almost reached maximum enrollment. The Agriculture, Rural 
Development, Food and Drug Administration, and Related Agencies 
Appropriations bill for fiscal year 2001 provided an additional 100,000 
acres, raising the cumulative enrollment cap to 1,075,000 acres and 
allowing 140,000 acres to enroll in fiscal year 2001.
    From inception of the program in 1992 through 2000, interest in WRP 
has been exceptional. Historically, there have been more than five 
times as many acres offered than the program could enroll. One benefit 
of WRP is the amount of resources we have been able to leverage with 
other Federal programs as well as non-governmental organizations. It is 
clear from our experience to date, Mr. Chairman, that the WRP continues 
to be very popular with farmers and ranchers and is a program that 
clearly has strong support around the countryside.
               wildlife habitat incentives program (whip)
    The Wildlife Habitat Incentives Program provides up to 75 percent 
cost-share for implementing wildlife habitat practices to develop 
upland wildlife habitat, wetland wildlife habitat, threatened and 
endangered species habitat as well as aquatic habitat. The WHIP also 
helps landowners best meet their own needs while supporting wildlife 
habitat development, and to develop new partnerships with State 
wildlife agencies, nongovernmental agencies and others.
    The program was initially funded at a total of $50 million in the 
1996 Act, to be spent over a number of years. As a result of strong 
interest, those funds were exhausted at the end of fiscal year 1999, at 
which time 1.4 million acres were enrolled in 8,600 long-term wildlife 
habitat development agreements. For fiscal year 2001, $12.5 million 
will be provided for WHIP from funding in Section 211(b) of the 
Agricultural Risk Protection Act of 2000, as authorized in the fiscal 
year 2001 Consolidated Appropriations Act. NRCS has made an enormous 
effort to develop partnerships with government and private 
organizations to develop a program that targets specific State 
concerns.
                   farmland protection program (fpp)
    The FPP protects prime or unique farmland, lands of State or local 
importance, and other productive soils from conversion to 
nonagricultural uses. It provides matching funds to leverage funds from 
States, Tribes, or local government entities that have farmland 
protection programs. The FPP establishes partnerships with State, 
Tribes, and local government entities to acquire conservation easements 
or other interests in land. It ensures that valuable farmland is 
preserved for future generations and also helps maintain a healthy 
environment and sustainable rural economy. The program was initially 
funded in the 1996 Act at a level of $35 million, to be spent over a 
number of years. To date, those funds have been exhausted, and local 
interest in the program continues to be strong. For fiscal year 2001, 
additional funding provided in the Agricultural Risk Protection Act of 
2000 will fund the FPP at $17.5 million. On January 22, 2001, a request 
for proposals was published in the Federal Register. Eligible entities 
had until March 8, 2001 to submit their proposals. After the evaluation 
process is concluded, successful applicants will be notified in June 
2001.
            environmental quality incentives program (eqip)
    EQIP provides technical, financial, and educational assistance to 
farmers and ranchers who face serious threats to soil, water, and 
related natural resources on agricultural land and other land. The 1996 
Act authorized $200 million, annually for EQIP, utilizing funds of the 
Commodity Credit Corporation (CCC). For fiscal year 2001, the final 
appropriation was $200 million. In the 2 previous fiscal years, 
Congress appropriated $174 million annually. Consistent with the 
authorizing legislation, the program is primarily available in priority 
conservation areas in order to maximize the benefits of each Federal 
conservation dollar. The priority areas consist of watersheds, regions, 
or areas of special environmental sensitivity or having significant 
soil, water, or related natural resource concerns that have been 
recommended through a locally-led conservation process. For fiscal year 
2000, nearly 85 percent of the EQIP financial assistance funding was 
provided within priority areas.
    The program has been extremely successful. We received nearly 
76,168 applications in fiscal year 2000. After NRCS ranked the 
applications based on criteria developed at the local and State level, 
16,443 long-term contracts with farmers and ranchers were approved. 
Since inception of the program, EQIP has averaged about 6 times the 
number of applications than could be approved with available funding. 
Certainly the demand for the program remains high around the country.
                               conclusion
    Mr. Chairman, in closing, I would note that good conservation 
doesn't just happen. It takes all of us, including the Congress, the 
conservation partners, and most importantly, the people living on the 
land working together to make it happen. As exemplified through the 
many programs and activities we have underway, there is a great deal 
happening on the ground. And the work is not only helping farmers and 
ranchers build more productive and economically viable operations, but 
also is building a better natural resource base for the future. We are 
proud of our accomplishments and look forward to working with you to 
build on all that we have done thus far. This concludes my statement, 
Mr. Chairman, and thank you again for the opportunity to appear. I 
would be happy to answer any questions the committee might have.
  

                                <greek-d>

</pre></body></html>
